<html>
<title> - LEGISLATIVE HEARING ON: H.R. 95, H.R. 444, H.R. 1718, AND VARIOUS DISCUSSION DRAFTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   LEGISLATIVE HEARING ON: H.R. 95, H.R. 444, H.R. 1718, AND VARIOUS 
                           DISCUSSION DRAFTS

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 OF THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, APRIL 9, 2019

                               __________

                            Serial No. 116-5

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


        Available via the World Wide Web: http://www.govinfo.gov       
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-955                      WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
        
        
                     COMMITTEE ON VETERANS' AFFAIRS

                   MARK TAKANO, California, Chairman

JULIA BROWNLEY, California           DAVID P. ROE, Tenessee, Ranking 
KATHLEEN M. RICE, New York               Member
CONOR LAMB, Pennsylvania, Vice-      GUS M. BILIRAKIS, Florida
    Chairman                         AUMUA AMATA COLEMAN RADEWAGEN, 
MIKE LEVIN, California                   American Samoa
MAX ROSE, New York                   MIKE BOST, Illinois
CHRIS PAPPAS, New Hampshire          NEAL P. DUNN, Florida
ELAINE G. LURIA, Virginia            JACK BERGMAN, Michigan
SUSIE LEE, Nevada                    JIM BANKS, Indiana
JOE CUNNINGHAM, South Carolina       ANDY BARR, Kentucky
GILBERT RAY CISNEROS, JR.,           DANIEL MEUSER, Pennsylvania
    California                       STEVE WATKINS, Kansas
COLLIN C. PETERSON, Minnesota        CHIP ROY, Texas
GREGORIO KILILI CAMACHO SABLAN,      W. GREGORY STEUBE, Florida
    Northern Mariana Islands
COLIN Z. ALLRED, Texas
LAUREN UNDERWOOD, Illinois
ANTHONY BRINDISI, New York
                 Ray Kelley, Democratic Staff Director
                 Jon Towers, Republican Staff Director

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    MIKE LEVIN, California, Chairman

KATHLEEN M. RICE, New York           GUS M. BILIRAKIS, Florida, Ranking 
ANTHONY BRINDISI, New York               Member
CHRIS PAPPAS, New Hampshire          JACK BERGMAN, Michigan
ELAINE G. LURIA, Virginia            JIM BANKS, Indiana
SUSIE LEE, Nevada                    ANDY BARR, Kentucky
JOE CUNNINGHAM, South Carolina       DANIEL MEUSER, Pennsylvania

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            C O N T E N T S

                              ----------                              

                         Tuesday, April 9, 2019

                                                                   Page

Legislative Hearing On: H.R. 95, H.R. 444, H.R. 1718, A 
  Discussion Draft ``To Amend Title 38, United States Code, To 
  Make Certain Improvements To The Educational Assistant Programs 
  Of The Department Of Veterans Affairs With Respect To Flight 
  Training Programs And Certain Other Programs Of Education, And 
  For Other Purposes,'' A Discussion Draft ``Justice For 
  Servicemembers Act,'' A Discussion Draft ``To Amend The United 
  States Housing Act Of 1937 And Title 38, United States Code, To 
  Expand Eligibility For The Hud-Vash Program, To Direct The 
  Secretary Of Veterans Affairs To Submit Annual Reports To The 
  Committees On Veterans' Affairs Of The Senate And House Of 
  Representatives Regarding Homeless Veterans, And For Other 
  Purposes,'' A Discussion Draft ``Homes For Our Heroes Act Of 
  2019,'' A Discussion Draft ``Veteran Employment And Child Care 
  Access Act,'' A Discussion Draft ``Brave Act,'' A Discussion 
  Draft ``To Clarify Seasoning Requirements For Certain 
  Refinanced Mortgage Loans, And For Other Purposes,'' A 
  Discussion Draft ``Navy Seal Chief Petty Officer William 'Bill' 
  Mulder (Ret.) Transition Improvement Act,'' A Discussion Draft 
  ``Vet Opp Act,'' A Discussion Draft ``To Amend Title 38, United 
  States Code, To Adjust Certain Limits On The Guaranteed Amount 
  Of A Home Loan Under The Home Loan Program Of The Department Of 
  Veterans Affairs, And For Other Purposes,'' A Discussion Draft 
  ``To Amend Title 38, United States Code, To Make Certain 
  Improvements To The Edith Nourse Rogers Stem Scholarship 
  Program Of The Department Of Veterans Affairs,'' A Discussion 
  Draft ``To Amend Title 38, United States Code, To Expand 
  Eligibility For The Marine Gunnery Sergeant John David Fry 
  Scholarship To Children And Spouses Of Certain Members Of The 
  Reserve Components Of The Armed Forces Who Die From Service-
  Connected Disabilities, And For Other Purposes,'' A Discussion 
  Draft ``To Amend Title 38, United States Code, To Improve The 
  Ability Of Veterans To Receive In-State Tuition Using 
  Educational Assistance Administered By The Secretary Of 
  Veterans Affairs.''............................................     1

                           OPENING STATEMENTS

Honorable Mike Levin, Chairman...................................     1
Honorable Gus M. Bilirakis, Ranking Member.......................     2

                               WITNESSES

Ms. Margarita Devlin, Principal Deputy Under Secretary for 
  Benefits, Veterans Benefits Administration, U.S. Department of 
  Veterans Affairs...............................................     4
    Prepared Statement...........................................    35

Ms. Ashlynne Haycock, Senior Coordinator, Education Support 
  Services, Tragedy Assistance Program for Survivors (TAPS)......     6
    Prepared Statement...........................................    43

Mr. Patrick Murray, Deputy Director, National Legislative 
  Service, The Veterans of Foreign Wars (VFW)....................     8
    Prepared Statement...........................................    46

Mr. John Kamin, Credentialing and Education Policy Associate, 
  National Veterans Employment and Education Division, The 
  American Legion (TAL)..........................................    10
    Prepared Statement...........................................    49

Ms. Rebecca Burgess, Program Manager, Citizenship Project, 
  American Enterprise Institute (AEI)............................    12
    Prepared Statement...........................................    59

                       STATEMENTS FOR THE RECORD

American Federation of Government Employees (AFGE)...............    63
Disabled American Veterans (DAV).................................    64
Department of Labor (DOL) - Mr. Sam Shellenberger, Deputy 
  Assistant Secretary............................................    69
Tragedy Assistance Program for Survivors (TAPS)..................    71
Veterans Education Success (VES).................................    74

 
   LEGISLATIVE HEARING ON: H.R. 95, H.R. 444, H.R. 1718, AND VARIOUS 
                           DISCUSSION DRAFTS

                              ----------                              


                         Tuesday April 9, 2019

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room 1334, Longworth House Office Building, Hon. Mike Levin 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Levin, Rice, Pappas, Luria, Lee, 
Cunningham, Bilirakis, Banks, and Barr.

           OPENING STATEMENT OF MIKE LEVIN, CHAIRMAN

    Mr. Levin. Good morning. I call this legislative hearing to 
order.
    Welcome to the Subcommittee on Economic Opportunity's first 
hearing of the 116th Congress. It is exciting to be with you. 
Before I touch on the legislative business before us today, I 
would like to take a moment to speak about the work our 
Subcommittee will be addressing this Congress.
    I represent the 49th Congressional District of California. 
As many of you know, my district and Southern California as a 
whole is ground zero for many of the national issues facing our 
veterans; that is why I am thankful for the trust my colleagues 
have placed in me to serve as chair. This Subcommittee plans to 
address issues like veterans' homelessness, predatory 
educational institutions, and ensuring that our veterans 
successfully transition from the military to careers that take 
advantage of their unique and valuable skill sets.
    That last point is of particular importance to me. We must 
be sure that our veterans aren't just getting a piece of paper, 
but a real plan of transition to civilian life.
    There are over 46,000 veterans in the district I represent, 
veterans that depend on the services they earned in proud 
service to our country. Chair Takano has given our Committee a 
great goal with his VA 2030 vision, and it will be the duty of 
this Subcommittee to identify and carry out the objectives 
within our jurisdiction. I plan to make this Subcommittee a 
bipartisan and collaborative body, and I encourage my 
colleagues on both sides of the aisle to share with me their 
thoughts and concerns. That brings me to the work before us 
today.
    Today, we are holding the first legislative hearing for the 
House Committee on Veterans' Affairs in the 116th Congress. We 
will consider 16 pieces of legislation, including a discussion 
draft of my legislation, the Navy SEAL Chief Petty Officer 
William ``Bill'' Mulder Transition Improvement Act. I look 
forward to introducing this bill with my colleague from Texas, 
Mr. Arrington, who was a friend of Mr. Mulder's and represents 
his home district.
    This bipartisan legislation will modernize how we assist 
servicemen and women as they transition to civilian life by 
placing a focus on what a career really means. The bill will 
better allow the Department of Labor and the VA to track 
veteran employment, evaluate the effectiveness of the 
Transition Assistance Program, and set up a pilot program to 
create up to five new job training locations that will be 
independent from traditional military installations. These new 
sites will test the viability of giving servicemen and women 
the ability to train for jobs in new settings that better 
reflect the challenges they may face in civilian life.
    I also am pleased to serve as cosponsor on six other pieces 
of legislation being considered today, including the VET OPP 
Act. This legislation will elevate veterans' education, job 
training, and transition assistance programs by creating a new 
Economic Opportunity and Transition Administration at the VA.
    Two of today's bills address the HUD-VASH program, which is 
crucial for housing veterans across the country, including 
those in San Diego, a city that ranks fourth nationwide in 
homeless residents. The Homes for Our Heroes Act will require 
transparency in the allocation of HUD-VASH vouchers and case 
management services, as well as direct the VA to complete a 
study identifying best practices for the program in high-cost 
areas. And the Veterans' House Act will expand voucher 
eligibility to veterans that were discharged under other than 
honorable conditions or served less than 24 months.
    Given that the issue of veteran homelessness is especially 
severe in Southern California, I am pleased to collaborate with 
another member from the San Diego delegation, my friend Mr. 
Peters, on both of these bills.
    I am proud of the work we are doing here today, and I am 
especially proud of the way we are doing it, in a bipartisan 
manner.
    And, in closing, I would like to thank our witnesses for 
appearing and I look forward to your testimony.
    Mr. Levin. With that, I would like to recognize my friend 
Ranking Member Bilirakis for 5 minutes for any opening remarks 
that he may wish to make.

     OPENING STATEMENT OF GUS M. BILIRAKIS, RANKING MEMBER

    Mr. Bilirakis. Thank you, Mr. Chairman. Thank you so very 
much.
    Again, before I begin my comments on the bills before us 
today, I want to welcome you, Mr. Chairman, and the new Members 
to this Subcommittee. It is my honor to serve as the Ranking 
Member and I look forward to working with you, all the Members 
to continue this Subcommittee's strong record, as you said, of 
bipartisan accomplishment for veterans, and this Committee, the 
Full Committee as well have been extremely bipartisan and that 
is why we are getting things done for our heroes. So I 
appreciate it very much. I know you are going to do a great 
job; I look forward to working with you.
    Mr. Chairman, it has been a pleasure, again, to get to know 
you since the Congress began, and it is clear to me that you 
understand what it means to serve on this Committee, a very 
important Committee. I look forward to working together to 
improve economic opportunities for our veterans.
    I also want to thank all the witnesses for joining us here 
today to discuss these pieces of legislation pending before the 
Subcommittee with the intention of benefitting the lives of our 
servicemembers, our veterans, and their families.
    The bills brought forth by our colleagues today would 
improve the service and economic opportunities for our 
veterans, and also would make changes to the GI Bill to expand 
benefits and close a loophole related to flight training. It 
also would strengthen the work we did last Congress to improve 
the Transition Assistance Program; also would make necessary 
reforms to the Vocational Rehabilitation and Employment 
Program; and many other worthwhile policy changes.
    I am interested in hearing from our witnesses about their 
own views on the legislation before us, but I wanted to briefly 
discuss the bill on the agenda that I am going to introduce 
with Chairman Levin. My bill, the Fry Scholarship Improvement 
Act, would expand eligibility for the Fry Scholarship to 
certain survivors of members of the National Guard and Reserve. 
The Fry Scholarship provides post-9/11 GI Bill benefits to 
surviving spouses and dependent children of servicemembers who 
have died while on Active duty.
    While this benefit has provided millions of dollars to 
eligible survivors, I am concerned that certain current 
eligibility rules have left out deserving survivors from the 
Guard and Reserve component.
    To address this issue, my bill will expand eligibility for 
the Fry Scholarship to survivors of servicemembers who are 
serving in the National Guard and Reserve and who die of a 
service-connected injury, but whose death did not occur while 
they were on Active duty orders.
    On our panel today, we will hear from Ms. Haycock--
welcome--with TAPS about several tragic situations where a 
member of the National Guard or Reserve's death was determined 
to be service-connected, but their survivors were ineligible 
for the Fry Scholarship because they were not on Active duty 
orders when they died, and this is an injustice we are going to 
correct.
    In one case, if the servicemember's death had occurred even 
just a few hours sooner, the survivors would have been eligible 
for the generous Fry Scholarship. We should not let a few 
hours, and some would say chance determine eligibility for this 
great benefit. If a death is service-connected and the 
servicemember is still serving our country in the Guard or 
Reserve, then I believe their family should be covered, and the 
Chairman agrees with me. I appreciate TAPS bringing this 
inequity to my attention and am proud to work with the Chairman 
on this legislation, and the entire Committee.
    I know that VA has some technical questions with how the 
bill is drafted and I pledge to address those issues as we move 
forward.
    I would also like to express my support for H.R. 2045, VET 
OPP Act, which would create a new fourth administration at VA. 
We saw all too well the impact the difficulties with the 
implementation of the Forever GI Bill had on student veterans 
last fall. From this experience, it is clear now more than ever 
before that more focus on programs that promote economic 
opportunities are needed.
    I applaud our colleague Dr. Wenstrup and the Chairman for 
introducing this bill, and it has my full support.
    I am also supportive of draft bills on today's agenda that 
would make changes to in-state tuition rules for veterans, also 
would ensure the STEM scholarship program in the Forever GI 
Bill can be used by student veterans, and would close a 
loophole related to GI Bill tuition and fee payments for flight 
training at schools, public schools.
    Again, these bills have a real impact on our veterans, and 
we have had a real success rate, Mr. Chairman, over the last 
few years working in a bipartisan manner, and get these bills 
through and signed by the President as soon as possible. So I 
look forward to discussing all of the bills before us today and 
to hearing from distinguished witnesses.
    With that, thank you, Mr. Chairman. I yield back the 
balance of my time, if I have any. Thank you.
    Mr. Levin. Thank you, Mr. Ranking Member. I am really 
excited to work with you in that spirit of bipartisan 
collaboration and I think we are going to get a lot done.
    Mr. Bilirakis. Thank you.
    Mr. Levin. We have a really great panel joining us today 
and I would like to just briefly introduce all of you, and I 
will go from one end to the other.
    I see Ms. Rebecca Burgess, Program Manager at the American 
Enterprise Institute. Thanks for being with us.
    Under Secretary Margarita Devlin, the Principal Deputy 
Under Secretary for Benefits at the U.S. Department of Veterans 
Affairs. There you are--oops, I got you out of order.
    Ms. Ashlynne Haycock, Deputy Policy Director for TAPS, the 
Tragedy Assistance Program for Survivors. Thank you so much for 
being here.
    Mr. Patrick Murray, who is here as the Executive Director 
of the Veterans of Foreign Wars. Hello, Patrick.
    Mr. John Kamin, Executive Director at The American Legion.
    I am grateful to all five of you for being here this 
morning.
    And with that I now recognize our Under Secretary, 
Margarita Devlin, for 5 minutes.

                 STATEMENT OF MARGARITA DEVLIN

    Ms. Devlin. Good morning, Chairman, Mr. Ranking Member, and 
distinguished Members of the Subcommittee. I am pleased to be 
here today to provide views for the Department of Veterans 
Affairs on pending legislation impacting programs at the 
Veterans Benefits Administration, or VBA.
    Also on today's agenda are bills impacting the Veterans 
Health Administration; any questions related to those bills I 
will take for the record.
    Since I am limited to 5 minutes for this statement, I will 
provide a high-level overview of VBA's bills, which I am happy 
to discuss in greater detail during the question-and-answer.
    VBA's Office of Transition and Economic Development, or 
TED, is the business line and side of VBA responsible for 
administering VA's Interagency Transition Assistance Program, 
the VA portion, or TAP. TED is embarking on a cohort-based 
study to gain information and insights on the outcomes of TAP; 
in fact, the survey was just approved by OMB last week. We 
believe this study will meet the intent of two of the sections 
of the bill.
    We do support the provision which will allow us to access 
the National Directory of New Hires to help VA understand and 
better track employment outcomes for veterans. And we 
appreciate, as always, the Subcommittee's interest in easing 
the transition from military to civilian status.
    VBA's Vocational Rehabilitation and Employment Program, or 
VR&E, works with veterans with service-connected disabilities 
and an employment handicap to help them obtain and maintain 
suitable employment.
    Two of the draft bills would impact the VR&E Program; one 
provides child care assistance to veteran participants, which 
is a benefit that VVR&E already provides through existing 
regulatory authority; the other bill removes the program's 12-
year eligibility period. In 2017, the passage of the Forever GI 
Bill made a similar change to the Post-9/11 GI Bill, removing 
the eligibility period for veterans discharged or released from 
Active duty on or after January 1st, 2013.
    While VA supports the intent of the draft VR&E bill, we 
suggest the bill incorporate the January 1st, 2013 discharge or 
release date to create parity between the VR&E and Post- 9/11 
GI Bill programs.
    Five draft bills on today's agenda impact our education 
program, including improvements for flight training programs 
and the STEM Scholarship program; expanded eligibility for the 
Fry Scholarship; expanded ability for tuition and fee charges 
to be equivalent to those for residents of each state; and 
clarification regarding transfer of entitlement of Post-9/11 GI 
Bill benefits to children.
    VA supports the intent of these bills, but we do have some 
technical concerns and want to ensure the text is written to 
capture the improvements Congress intended. For example, the 
flight training bill removes the requirement to meet, on the 
day flight training begins, the medical requirements necessary 
for a commercial pilot certificate.
    Our partners at the Veterans Service Organizations have 
raised concerns to us that meeting the medical requirements 
prior to entering the program is a barrier to entry; however, 
VA sees this as in the best interests of veteran outcomes, 
because it supports the veteran pursuing degrees, they will be 
able to use in the workforce. If a veteran were to begin or 
complete a flight training program and then not pass the 
medical exam necessary for a commercial pilot certificate, the 
veteran would be unable to work as a commercial pilot, thereby 
having used their benefits for a purpose that doesn't lead to 
employment. If the medical exam remains required prior to 
program approval, the veteran would not be subjected to this 
unfortunate outcome.
    We look forward to continuing to work with our VSO partners 
and the Subcommittee to ensure that this draft bill and others 
impacting education benefits are producing positive outcomes 
for veterans and their families.
    VBA's loan guaranty program would be impacted by two bills 
on the agenda. VA does not oppose the bill that clarifies 
seasoning requirements for the refinanced homes, as this is a 
straightforward technical fix. The bill containing the 
provision to remove the effective loan limits on VA- guaranteed 
loans is more complex and I can discuss this in greater detail, 
although ultimately, given the uncertainty of the budgetary 
impacts, VA cannot support this section of the legislation at 
this time. However, the other sections the VA does not oppose; 
one aligns the current loan limit for Native Americans direct 
loans with the VA Guaranteed Loan Program, the other waives 
funding fees for members of the Armed Forces serving on Active 
duty who were awarded the Purple Heart.
    The last bill, the VET OPP Act, would establish a separate 
administration responsible for VR&E, education, home loans, 
TAP, and verification of small businesses owned and operated by 
veterans. VA does appreciate the Committee's focus on improving 
services and benefits offered by these programs, but we do not 
support this bill.
    In 2018, VBA completed organizational restructuring by de-
layering oversight offices and concentrating resources on 
veteran-facing positions. Additionally, with the creation of 
TED, we prioritized transition services not just operationally, 
but also in our budget. The current structure generates 
efficiencies from close collaboration between VBA program 
offices and appropriately reflects the Under Secretary's 
overall responsibility for veteran benefit programs.
    Thank you, Mr. Chairman, Mr. Ranking Member, for the 
opportunity to present our views on these bills. This concludes 
my testimony and I look forward to answering any of your 
questions.

    [The prepared statement of Margarita Devlin appears in the 
Appendix]

    Mr. Levin. Thank you, Under Secretary Devlin, and perfect 
timing.
    Without objection, to the extent that any of the witnesses' 
full testimony is not given, we will add their statements to 
the record.
    With that, I now recognize Ms. Haycock for 5 minutes.

                 STATEMENT OF ASHLYNNE HAYCOCK

    Ms. Haycock. Chairman Levin, Ranking Member Bilirakis, and 
distinguished Committee Members, thank you for the opportunity 
to speak on behalf of the 85,000 surviving families of our 
Nation's heroes that TAPS represents.
    I am the surviving daughter of Army Sergeant First Class 
Jeffrey Haycock, who died in the line of duty in 2002, and Air 
Force Veteran Nicole Haycock, who died by suicide in 2011. In 
2010, I was one of the very first recipients of the Marine 
Gunnery Sergeant John Fry Scholarship and for that opportunity 
I am incredibly grateful to this Committee.
    TAPS would like to thank the Committee for all of the 
provision in the Harry W. Colmery Veterans Education Assistance 
Act of 2017 that assisted our surviving families, such as 
Yellow Ribbon for Fry Scholarship recipients, the removal of 
the delimiting date for Fry eligible spouses, and an increase 
in Chapter 35 benefits.
    This year, though, we are excited to see one of our long-
term priorities before this Committee, providing parity for 
surviving children and spouses of those whose loved ones while 
serving in the Guard and Reserve. Their service and sacrifice 
are no different than those who died while on Active duty and, 
while almost all other benefits are equal for those survivors, 
the education benefits are not. It is time to make sure those 
survivors have the same access to the Fry Scholarship as their 
Active duty counterparts. TAPS estimate between 1,000 and 1,500 
surviving spouses and children will benefit from these changes.
    Some of the stories TAPS has heard are absolutely 
heartbreaking, such as the story of First Sergeant John DuPont, 
who served his country honorably for over 30 years, starting in 
the Marine Corps and then the Army National Guard. During his 
National Guard service, he was deployed multiple times. Upon 
his return, he continued with the National Guard, and lost his 
battle with PTSD and completed suicide in 2011. He had just 
returned home from his drill weekend only hours before, where 
he learned he was deploying again in a few months' time. Had he 
died a few hours earlier, his children would have been eligible 
for the Fry Scholarship, but because he made it all the way 
home, he is not considered Active duty for Fry Scholarship 
eligibility.
    Then there is the story of Sergeant Anthony Tipps, who was 
a member of the Texas National Guard. Sergeant Tipps was 
activated in 2009 and had to leave his career for a deployment 
to Iraq. When he returned a year later, his career was no 
longer waiting for him. He died by suicide less than three 
months after returning from Iraq and, because of his duty 
status at the time, his daughter Brittany is not eligible for 
the Fry Scholarship even though his death was service-
connected.
    Finally, you have the story of Colonel David McCracken, who 
served honorably in the Army and Army Reserves for over 20 
years. During his military career, he was deployed multiple 
times. During his last tour, he was activated as a Reservist, 
where he developed headaches. Upon return from his deployment, 
he was diagnosed with brain cancer, which was found to be 
service-connected because of the link to burn pits in Iraq. He 
was not on Active duty orders, nor training at the time of his 
death due to his illness, so his children are not eligible for 
the Fry Scholarship.
    These are just three of the stories TAPS has heard with 
families who do not have eligibility for Fry Scholarship due to 
duty status at the exact moment of death. In the case of First 
Sergeant DuPont, literally hours differentiate what benefits 
his children receive. The families have no say in the duty 
status of the servicemember; therefore, they should not be 
treated differently.
    Six months ago, I spoke with former Congressman Chet 
Edwards, who wrote and introduced the original Fry Scholarship 
in 2009. When I told him of this issue, he was stunned, because 
his original intent was to include all of these families and he 
had no idea that these families were being excluded. He has 
offered his support in fixing this as well.
    While access to the Fry Scholarship for Guard and Reserve 
survivors is our largest priority in this hearing, we would 
also like to express our support for the creation of a fourth 
administration under the Department of Veterans Affairs. After 
the complicated implementation of the Forever GI Bill, we see 
this as a much-needed change in order to prioritize education 
benefits in the VA.
    We would also like to make a recommendation to include 
Chapter 35 recipients in the in-state tuition bill. Chapter 35 
recipients are often forgotten from legislation and, even with 
the $200 increase provided by the Forever GI Bill, it is still 
not even comparable with the Montgomery GI Bill. If we are 
going to do in-state tuition across the board, let's make sure 
we include those whose benefits are not enough to cover tuition 
at a state school, let alone out-of-state tuition. Since the 
financial burden for in-state tuition falls on the states, we 
see this as an easy fix.
    Thank you for the opportunity to testify today and I look 
forward to answering any questions you may have.

    [The prepared statement of Ashlynne Haycock appears in the 
Appendix]

    Mr. Levin. Thank you for your testimony, Ms. Haycock.
    I now recognize Mr. Murray for 5 minutes.

                  STATEMENT OF PATRICK MURRAY

    Mr. Murray. Chairman Levin, Ranking Member Bilirakis, 
Members of the Subcommittee, on behalf of the men and women of 
the Veterans of Foreign Wars of the United States and its 
Auxiliary, thank you for the opportunity to present our views 
on legislation being considered today.
    For far too many years, homeless veterans have been a 
regular sight on our Nation's streets. Ending veteran 
homelessness is an attainable goal and some of these bills will 
go a long way in doing just that.
    Veterans with dependent children face diverse burdens with 
access to homeless benefits. Providing child care for homeless 
veterans so they can seek care and services while at VA is an 
incredibly powerful tool to help these veterans in need. And 
providing additional per diem for the children of homeless 
veterans in the Grant and Per Diem Program would expand housing 
options for these veterans.
    The HUD-VA Supporting Housing Program is another critical 
benefit for veterans facing homelessness. While we see the 
great value in this program, we would like to see the benefit 
enhanced, so that veterans can be sure they will be housed in 
safe and secure areas. Additionally, we agree that HUD-VASH 
eligibility should be expanded to veterans with other than 
honorable discharges. Veterans with OTH discharge are at a 
higher risk of dying by suicide and experience higher rates for 
homelessness than those who receive an honorable discharge. The 
VFW supports this provision, which would rightfully ensure OTH 
veterans have access to the HUD-VASH Program.
    One key area of improvement that could affect servicemember 
is transition; it is the linchpin that could prevent negative 
outcomes such as unemployment, homelessness, and veterans with 
mental health conditions having to cope without proper 
treatment. Transition is an example of where veteran groups are 
the subject matter experts more so than anybody else.
    Every single servicemember has to transition at some point, 
so it is a shared experience that we have all gone through. We 
are the military alumni and we think of our collective 
experience and feedback as invaluable when making reforms to 
the transition process. The VFW offers claims assistance to 
transitioning servicemembers as they prepare to move into 
civilian life.
    Since 2015, our Benefits Delivery at Discharge Service, or 
BDD, has worked with men and women transitioning out to make 
sure they are well prepared for civilian life. Each 
servicemember who goes to our offices is asked to complete a 
survey on their entire transition experience. We have thousands 
of responses and a phrase I have seen repeated over and over is 
``drinking from a fire hose.'' Veterans have also stated in 
surveys numerous times they wish they could go back and revisit 
the TAP class over again. This is why VFW has called for the 
reintroduction of the Off-Base TAP Pilot Program, in order to 
provide centralized TAP-style classes to veterans after they 
separate into civilian life.
    We also think that formally adding to the curriculum groups 
that specialize in community networking is a valuable tool to 
enhance TAP. Connecting servicemembers to resources in the 
communities where they are relocating to is an important step 
that should happen during the TAP classes. Providing these 
connections to organizations that offer employment training, 
educational information, financial or legal assistance, is 
beneficial in a seamless transition and must be part of the 
formal TAP class, so servicemembers can begin to make these 
connections before they separate and not afterwards.
    Lastly, I would like to speak about our support for the 
fourth administration within VA. Currently, the Economic 
Opportunity programs are contained within the Veteran Benefits 
Administration. Compensation, being the largest program, 
dominates a significant amount of attention within VBA and it 
makes it difficult for EO programs to get adequate attention, 
specialized resources, and other prioritization. For example, 
when the VBA has been focused on the modernization and 
streamlining of the claims and appeals process, we feel other 
important programs such as VETERANS AFFAIRS&E have seen a 
stagnation of resources and oversight.
    This Nation should have as much focus on the economic 
opportunities of our veterans as it does their health and 
benefits. The vast majority of veterans are looking for gainful 
employment and/or education, and we feel that Congress should 
recognize the value of these programs by separating them into 
their own administration, focused solely on their utilization 
and improvement.
    The VFW supports this proposal to separate from VBA all 
programs currently under the EO jurisdiction, create a fourth 
admin within VA with its own Under Secretary whose sole 
responsibility is EO programs. This new Under Secretary for EO 
would refocus resources, provide a champion for these programs, 
and provide a central point of contact for VSOs, other Federal 
departments, and Congress.
    Mr. Chairman, this concludes my testimony. Again, the VFW 
thanks you and the Ranking Member for the opportunity to 
testify on these important issues before the Subcommittee, and 
I am prepared to take any questions you might have.

    [The prepared statement of Patrick Murray appears in the 
Appendix]

    Mr. Levin. Thank you, Mr. Murray, for your testimony.
    I now recognize Mr. Kamin for 5 minutes.

                    STATEMENT OF JOHN KAMIN

    Mr. Kamin. Chairman Levin, Ranking Member Bilirakis, and 
distinguished Members of the Subcommittee, on behalf of 
National Commander Brett P. Reistad and the nearly two million 
members of The American Legion, we thank you for the 
opportunity to testify in the Subcommittee's first hearing of 
the 116th session of Congress.
    The 115th Congress was very productive in passing veterans 
legislation, and the Subcommittee on Economic Opportunity made 
their mark in history by shepherding in the Harry W. Colmery 
Veterans Education Assistance Act. Former Subcommittee Chairman 
Jody Arrington and Ranking Member Beto O'Rourke presented a 
rock-solid team that cut through political lines. With Dr. Phil 
Roe and Mark Takano overseeing the Committee, we have come to 
expect nothing less. Mr. Chairman, we welcome your leadership 
in this island of bipartisanship. And, Ranking Member 
Bilirakis, we are so happy for your steadfast support and 
leadership.
    Due to the allotted time available, I will limit my remarks 
to the discussion drafts on Justice for Servicemembers Act, 
Transition Improvement Act, and conclude with saved rounds on 
the GI Bill.
    The Justice for Servicemembers Act is a bill that 
strengthens the Uniformed Service Employment and Reemployment 
Rights Act by deeming forced arbitration motions unenforceable 
for the purpose of wrongful termination complaints. Employment 
law is complex, but the case of Marine Corps Colonel Michael T. 
Garrett simplifies this. With an Active duty mobilization 
pending, Colonel Garrett's employer allegedly terminated his 
employment to avoid the inconvenience of having to replace him 
temporarily. In accordance with Section 4323 and enforcement 
rights with respect to a private employer, Colonel Garrett 
filed a USERRA violation in District Court. His employer filed 
a motion to compel forced arbitration. After much dispute, the 
U.S. Court of Appeals for the Fifth Circuit ruled that USERRA 
is not a clear expression of congressional intent concerning 
the arbitration of servicemembers' employment disputes; thus, 
the Garrett precedent was established on USERRA violations, and 
hence we ask for your support on the Justice for Servicemembers 
Act.
    I would be remiss not to inform you of a sobering reality. 
This same language as this Justice for Servicemembers has been 
introduced in no less than six sessions of Congress dating back 
to 2008, all without passage. Let's not wait another session.
    The next bill we would like to discuss is the Navy SEAL 
Chief Petty Officer William Mulder Transition Improvement Act. 
This bill marks a strong improvement of TAP, the largest 
reorganization of which since 2011. Notable is its 
authorization of a 5-year pilot program that would provide 
matching grant funds to community providers that offer 
wraparound transition services to veterans and servicemembers.
    The necessity for this provision is consistent with a key 
discovery from our Employment Innovation Task Force, which 
conducted a survey of 550 exiting Active duty servicemembers 
over the summer of 2018. When asked about if TAP helped me 
identify community resources for ongoing support beyond 
transition, only 16 percent agreed or strongly disagreed; this 
is a wake-up call.
    Additionally, we are pleased to see that language from last 
sessions H.R. 4835 has been included in this bill. In 2012, The 
American Legion helped to push the Off-Base Transition Training 
Pilot Program that would extend the TAP programs to veterans 
and their spouses in a community-based setting. Overall course 
ratings by participants were high; however, the pilot program 
expired in January 2015 and we look forward to see it 
relaunched.
    Finally, The American Legion supports all seven bills on 
the docket today concerning the Post-9/11 GI Bill and 
Vocational Rehabilitation and Employment Program, but we 
implore the Subcommittee to understand that the complications 
with implementation of the Forever GI Bill are not of the past, 
they are of the here and now.
    In 2018, the VA faithfully attempted to meet the Forever GI 
Bill deadlines. Congress and VSOs attempted to provide sound 
oversight and support to ensure this outcome, but we failed, 
and thousands of veterans paid the price in delayed GI Bill 
payments this past fall semester.
    In November, Secretary Wilkie officially named Under 
Secretary for Benefits Dr. Paul R. Lawrence as the official 
responsible for implementing the Forever GI Bill, and we are 
encouraged by improved outreach and communication on GI Bill 
implementation, but it is incumbent upon all of us to take 
ownership in this success and support Dr. Lawrence in this 
endeavor, because we have lost the right to disbelief in the 
event of another GI Bill backlog. Oversight and support must be 
in realtime and practical no matter the challenge. That means 
being transparent about complications and forthright on 
changes, open to school inputs and adaptive to recommendations; 
this starts with trust. The American Legion for one will not 
abide the implementation of the bill which bears our past 
National Commander's name to be synonymous with VA failure. The 
new deadline for implementation is December 2019, let's get to 
work.
    The Legion appreciates the opportunity to comment on the 
bills being considered by the Subcommittee, and I would be 
happy to answer any questions you might have.
    Thank you.

    [The prepared statement of John Kamin appears in the 
Appendix]

    Mr. Levin. Thank you for your testimony, Mr. Kamin.
    Finally, I now recognize Ms. Burgess for 5 minutes.

                  STATEMENT OF REBECCA BURGESS

    Ms. Burgess. Chairman Levin, Ranking Member Bilirakis, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to appear here today. It is an honor.
    Caring for veterans' well-being has been the genuine 
concern following every armed conflict in the United States; 
recognizing how the Nation ought to deliver that care has 
simultaneously been its most consistent challenge.
    American's veterans face three significant challenges in 
their post-service transition: procuring employment, accessing 
the education or training associated with civilian occupations, 
and overcoming the broken veteran narrative.
    Veterans' transition stress is often mischaracterized as a 
grave mental health disorder, feeding the broken veteran 
narrative. Legislation geared only towards veterans' suicide 
unconsciously perpetuates this image with the best intentions. 
But reformulating veteran legislation in the positive language 
of economic opportunity emphasizes post-service growth in a 
whole-of-health model. Congress can instigate this through 
creating a fourth Veterans Economic Opportunity Administration 
with a dedicated Under Secretary, as highlighted by the VET 
OPP. This would benefit veterans, but also the VA, Congress, 
and the American taxpayer.
    At the American Enterprise Institute, we work to present 
solutions with teeth in them to improve the lives of flesh-and-
blood human beings. Here is what we see: the American public 
respects the military and those who serve in the aggregate, but 
they don't know anything about them. They call veterans heroes, 
but believe they are broken. Even the best-intentioned 
employers and educators labor under the false impression that 
veterans are not experienced and educated candidates, that 
veterans do not pursue a college degree or vocational training, 
or that veterans don't have successful careers after the 
military.
    VA remains the Nation's most prominent recognition of 
military service, and the millions who qualify for VA health or 
other benefits drive the public narrative about former 
soldiers. That dynamic translates to the public assuming that 
VA serves any veteran and that every veteran is in need of 
those services. Over time, this has adversely constructed a 
veteran-as-deficit model that is particularly damaging to 
veterans themselves.
    For over a century, VA has delivered financial benefits or 
pensions to veterans calculated from the premise that the 
injured veteran will never enter the economy again. Despite 
broad innovations that have shifted our economy from an 
industrial age to an information age model, VA continues to 
think in industrial age terms about especially injured and 
disabled veterans. As society enlarges its definition of 
disability, VA has grown haphazardly to be the second-largest 
Federal agency with VBA making VA's largest financial outlays.
    The increase of high disability awardees seems entirely 
warranted, but the current disability schedule is also 
problematic, as it appears to disincentive veterans from 
entering the workforce or engaging in society. The levels of 
veterans' sense of social isolation, not to mention rates of 
suicide, are unacceptable outcomes for this policy model. VA's 
failure to measure its program outcomes hamstrings its ability 
to service veterans. As recent congressional hearings over VA's 
bungled implementation for just the GI Bill shows, it directly 
hurts veterans, and contributes to young men and women deciding 
against joining the military and against being under the VA's 
care in the future.
    This is a terribly worrisome cycle, but we have a historic 
opportunity to harness the power of congressional legislation 
to reshape the veteran narrative. By rethinking the ability VA 
has to be an active partner with Congress, and understanding 
veterans as investments to be leveraged towards greater 
individual growth with positive societal impact, the proposed 
VET OPP Act champions the veterans-as-asset model. The VET OPP 
Act champions the pathway to success for post-service veterans, 
because VA's suite of educational assistance, VETERANS 
AFFAIRS&E, and career counseling programs make accessible the 
tools veterans need to progress from war to work, but these are 
currently pushed toward the bottom of the program pyramid 
within VBA.
    With VBA's energies continually directed towards its 
backlog of hundreds of thousands of disability claims, its 
institutional resources are concentrated on the disability 
system to the neglect of its education and economic programs. 
Two small examples. In only 10 years, VA has failed five times 
to implement the GI Bill; second, if you visit VA's Office of 
Employment and Economic Impact Web site within VBA, it tells 
you it is no longer available.
    This systemic reason is why we consistently see VA's 
failure to implement congressionally-mandated programs, no 
matter who sits in the White House. Coincidentally, a majority 
of veterans' report that their top challenge in transitioning 
to civilian life is navigating VA's administrations and 
benefits.
    In the 21st century information age, education is key to 
employment, and employment is the door to a successful 
transition to civilian life. Education and employment combined 
give veterans the crucial tools to reforge civilian identities. 
The psychic rewards of work, productivity, and a career cannot 
be underestimated, which is corroborated by the true veteran 
narrative. Veterans, it turns out, are immensely successful. 
Empirical data shore that up by showing how veterans with 
increased level of education are wealthier, healthier, and more 
civically engaged than even their civilian peers. This is the 
veteran narrative that should predominate and the VET OPP Act 
can trigger this shift.
    VA's economic opportunity programs are truly different in 
kind from the other operations VBA manages. Separating out 
management of these programs honors that difference and creates 
greater accountability, attention, and leadership over what 
could be the Nation's most important instrument in partnering 
with veterans in their civilian success. An outdated agency 
model shouldn't be allowed to prevent veterans from investing 
their talent and ability in the American economy. This matters. 
Veterans are the unacknowledged permanent ambassadors of 
military service; they are assets.
    Thank you.

    [The prepared statement of Rebecca Burgess appears in the 
Appendix]

    Mr. Levin. Thank you, Ms. Burgess. I appreciate your 
testimony this morning.
    With that, we will begin the question portion of the 
hearing, and I recognize myself for 5 minutes.
    Mr. Murray, Mr. Kamin, and Ms. Burgess, questions generally 
directed at any of the three of you. I appreciated hearing 
today's testimony on the VET OPP Act, and I am proud to be the 
Democratic lead of this Congress, picking up the torch from 
Chair Takano.
    I think it is clear that economic opportunity-related 
business lines need an advocate at the Under Secretary level to 
push forward decisions, funding, and IT system modernization. 
However, I also believe we shouldn't rush into massive change 
without proper planning. I want to understand how VA will 
divide up personnel and office space should this bill become 
law; change personnel structure; and ensure IT systems are 
modernized and continue to communicate across agencies.
    So, Mr. Murray, Mr. Kamin, and Ms. Burgess, what are some 
of the top issues you believe VA should be reporting its plan 
for should it be directed to create a fourth administration?
    Mr. Murray. Thank you, Mr. Chairman. We feel that it is not 
going to be an over-bureaucracy issue. There are already people 
that cover these issues, we are just going to separate them out 
into a different authority. There will probably be some 
additional personnel needed, but this isn't going to become 
some burdensome, you know, new buildings, hundreds, thousands 
new employees, things like that. They are already doing the 
work, it is just they are not represented with a seat at the 
table as much as we feel they should be.
    Mr. Levin. Mr. Kamin or Ms. Burgess?
    Mr. Kamin. Yes, I would just first like to go on the record 
as saying The American Legion is studying this issue very 
closely and we currently don't have a position on it. That 
being said, we share the Chairman's foresight that this 
shouldn't be done in haste, that whatever decision is made is 
done with careful planning, and we know with implementation of 
the Forever GI Bill that that is the foremost challenge.
    That being said, the VET OPP's implementation date, I 
believe, is October 2020 for that fiscal year, so we don't see 
any incongruence there that would hamper that implementation. 
But, again, The American Legion is still studying the issue.
    Ms. Burgess. And I would say that our interest in this is 
not to grow bureaucracy, it is to streamline really how to 
deliver the benefits, and that is what the point of this is. 
And we also are studying VA as a whole to see where program 
overlap happens and where we can actually simplifying and take 
these out.
    Thank you.
    Mr. Levin. I would like to, if I might, switch gears and 
talk for a minute about the Bill Mulder Transition Improvement 
Act. To the entire panel, I appreciate the support you have 
offered for this legislation. Transition is clearly a priority 
for everyone on the Subcommittee and this bill is the start of 
our work this Congress, but the issue is something we are going 
to continue to work on. As I mentioned earlier, the bill would 
create a pilot program to establish sites where veterans and 
spouses might access transition training at locations other 
than military installations.
    My question is open to the entire panel. Could you explain 
the importance of an off-base transition program or transition 
programs to reaching veterans who have already separated from 
the military? A question for any of you.
    Mr. Murray. Mr. Chairman, it is something that we hear time 
and time again that folks while they were still wearing the 
uniform maybe didn't recognize the value of the TAP class. Like 
I said, drinking from a fire hose, it was just too much to take 
for one week. Once they take off the uniform and they are back 
in their community, they recognize the issues that are facing 
them that they might not have known at the time while they were 
still in service.
    Having a centralized place where the Department of Labor, 
VA, SBA, can come and give them, you know, a one-stop-shop 
class is important. Once they take off the uniform, then they 
recognize the challenges that they might not have known, you 
know, 3 months ago, a year ago, whatever it might be.
    Mr. Levin. Anybody else care to comment?
    Ms. Burgess. Mr. Chairman, research shows that consistently 
pre-leaving the service veterans don't think that they will 
need soft skills, but immediately afterwards both employers and 
veterans recognize that they need soft communication skills 
especially, and therefore they need some type of a better 
transition.
    Mr. Levin. I would also ask, what do you think our next 
steps should be? Specifically, what part of transition needs 
the most attention and should be addressed as part of this 
bill, or the next transition-focused legislation that our 
Subcommittee should take up?
    Again, open to anyone.
    Ms. Devlin. Thank you for the question. I would suggest 
that our study that we are about to embark on will give us a 
lot of information about how veterans feel about the transition 
program.
    One of the challenges we typically face with questions such 
as these is, we rely on our own judgment and experience, I 
think we should rely on the experiences of those veterans who 
have recently transitioned. The study we will be undertaking 
will ask veterans, will survey veterans at 6 months post-
transition, 1-year post-transition, and 3 years post-
transition; it will be a cohort-based study for 5 years.
    Why is this important? Because when I went out to military 
bases and I talked to servicemembers who were about to 
transition, they had no idea what they were about to embark on. 
You can train them all you want, you can teach them about their 
benefits, but it is not until the reality hits and they are on 
the other side of the DD-214 that it really sinks in, and that 
is when they realize what they really need. This survey will 
help us understand what those experiences are post-transition, 
so that we can then go back and make assessments about how to 
improve the Transition Assistance Program.
    Mr. Levin. Thank you, Under Secretary.
    With that, I would now like to recognize Ranking Member 
Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it 
very much. Good questions, by the way.
    Ms. Devlin, last year we saw how the Voc Rehab Program and 
the implementation of its new case management study did not 
have the proper oversight in its execution, and saw with the 
implementation of the Forever GI Bill that additional oversight 
was clearly needed.
    Regarding the Department's position on the fourth 
administration bill, can you please go into greater detail 
about how added oversight over these important economic 
programs is unnecessary?
    Ms. Devlin. Thank you for the question, I am happy to 
address it. Up until recently, up until our restructuring, we 
did have additional oversight over those programs with the 
Deputy Under Secretary for Economic Opportunity. What we did in 
fact was eliminate those layers of bureaucracy.
    And somebody mentioned having a seat at the table. Whereas 
in the past we might have had two Deputy Under Secretaries with 
a seat at the table for their respective programs, every 
program executive director, including the Acting Executive 
Director for Education Service, the Director for Voc Rehab, the 
Director for our loan guaranty, these programs that we are 
talking about, they have a seat at the table with the Under 
Secretary, with myself as the Principal Deputy Under Secretary.
    When Dr. Lawrence and I entered into these roles that we 
have now in May one of the first priorities we knew we had to 
face was the issues with Colmery. We immediately began weekly 
meetings on Colmery Act implementation, which is why we were 
able to detect the issues and concerns when we did, and elevate 
those concerns to the Secretary, so that the Secretary could 
take action, which he did.
    The other issue we knew was important is we watched the 
hearing with the then Executive Director of Voc Rehab and 
understood the issues with the case management system and the 
staffing issues in VR&E, and we came to realize that the VBA 
had never acted on the legislation from 2016 to increase the 
hiring of Voc Rehab counselors to get to a 1-to-125 ratio. That 
was immediate action taken on the part of our leadership and 
that was immediate action taken because all those executive 
directors had a seat at the table.
    The other thing I just would like to point out is that the 
inter-connectivity between all of the VBA programs, it is like 
vital organs that are connected, and when you go to separate 
them you can't see it as just taking a basket of benefits and 
distributing it now across two baskets; they are 
interconnected. When we talk about survivor issues, there are 
parts of the disability compensation system and parts of the 
education system that have to interplay.
    The chain of command in a regional office is one chain of 
command under one director. These division-level managers work 
together to resolve issues together, they have synergies among 
each other, that would be taken apart with the separation of 
the programs.
    And the last point I will make is that the 1-year 
implementation is too tight. Creating this--taking this action 
will create a huge distraction away from implementation of 
things like Colmery Act and other transformations that we have 
underway in VR&E, and other programs in the economic 
opportunity suite.
    Mr. Bilirakis. Okay. Is there anybody on the panel that has 
an opposing view that would like to comment on Ms. Devlin's 
remarks?
    Ms. Burgess. Mr. Ranking Member, I would say that the 
American public believes that the core function of Congress' 
oversight and, from that perspective, is there ever too much of 
its core function that it can do.
    Thank you.
    Mr. Bilirakis. Okay. All right, why don't I go ahead and 
ask my--well, we don't have a lot of time. I will get--is one 
more question--
    Mr. Levin. Yes.
    Mr. Bilirakis. Okay, I appreciate it. Mr. Kamin and Mr. 
Murray, please share with us why it is important that we 
improve a servicemember's transition from Active duty to 
civilian life, and how the draft TAP bill proposes key changes 
that will positively impact overall outcomes for individuals 
separating from the military?
    Again, just basically following up on the Chairman's 
questions. These are really important bills today that we are 
hearing about. Go ahead.
    Mr. Kamin. Thank you, sir. And we agree that this is an 
important issue in terms of how we can update and elevate TAP, 
and I would say two things on this.
    Number one, we have talked a little bit about community 
providers being important and we could look at this as on-time 
versus in-time delivery, where we recognize that when people 
are approaching their EDS date from Active duty oftentimes the 
last thing on your mind is tweaking your resume or learning 
these soft skills. It is just not where most people's heads are 
at and I can say that having transitioned twice from Active 
duty.
    And, as Ms. Burgess pointed out, that doesn't mean that 
down the road you do realize, shoot, I wish I had paid 
attention more. And by putting this information into the 
fingertips of veterans, we see that as critical.
    And, secondly, as our survey pointed out, there is a 
problem where there are no community providers that are 
represented on TAP and this takes active steps to re-engage 
communities, because we know that civic association engagement 
through peer-to-peer mentorship is a critical part and it is 
one that is lacking right now.
    Mr. Bilirakis. Thank you.
    Mr. Murray, briefly, can you comment, please?
    Mr. Murray. Absolutely. I think providing grants to 
organizations that provide the connections and the services for 
transition is important. Also, connecting the servicemembers 
with the community of where they are looking to move to. Not 
everybody moves off of Camp Pendleton and moves to San Diego, 
they might move back to the middle of the country or the East 
Coast. So having the knowledge of what is actually in that 
community before you get there is very important; it is 
preventative, it is not something that we are looking to clean 
up the mess afterwards.
    Mr. Bilirakis. Thank you very much, very helpful.
    I yield back, Mr. Chair.
    Mr. Levin. Thank you, Mr. Ranking Member.
    I would now like to recognize Miss Rice for 5 minutes.
    Miss Rice. Thank you, Mr. Chairman.
    Ms. Burgess, can you expound on--so I think one of the 
biggest issues is how we help members transition from Active 
duty back to civilian life, and I know that there are a lot of 
high-tech companies that are actually working with the VA to--
actually, you know, different branches of government to reach 
out to people who are going to be separating with 6 months and 
actually employing them and training them for the like 5 
million jobs that are unfilled in that high-tech industry, and 
it really works well. I mean, there literally is not one second 
from the time that they separate from Active duty to the time 
that they are employed in the private sector, literally, not a 
second.
    So can you--I mean, they know how to do it, but they are 
not doing it enough. I guess it is not their fault, but tell us 
how we can do it better. I mean, it just seems to be one of 
those problems that should be--we should be able to address.
    Ms. Burgess. Thank you for your question.
    So, in transition, what happens is not only is there the 
employment aspect of it, but there is also the psychological 
aspects of it and the narrative aspects of it, and it is the 
narrative that can also be the actual--the point of difficulty, 
because the employers often don't understand what it means to 
have been in the military and what it means to be a veteran. 
And so they are coming at it also needing basically a narrative 
in which to interact with the veteran, and if that narrative is 
predominantly that veterans are broken and that they need a 
suite of programs to help them to succeed no matter what, they 
are already viewing veterans as a deficit that they have to 
invest in towards a negative way.
    So if the entire narrative overall is that veterans are 
actually successful and that they actually succeed very well in 
relation to their civilian peers, then the employers and the 
entire suite of the community is already on a positive note 
about veterans. And I think that is one of the most important 
levels of success.
    Miss Rice. Well, yeah, but the reality is that a lot of 
them are dealing with issues that they need to deal with--I 
mean, that need to be addressed.
    Ms. Burgess. So one of the most important things that they 
need is a sense of identity and it is the identity that helps 
them to work through these particular issues. I would never say 
that the increase in mental health programs has been negative. 
This is an important step forward for Congress and the American 
people to see and to recognize these, but this is recognizing 
the veteran as an entire human being and a whole-health model. 
And it is those three elements, education, employment, and a 
sense of identity in the community that really bring that 
forward.
    Thank you.
    Miss Rice. I totally agree with. I totally agree with you, 
I am just writing down some notes. Okay, thank you so much.
    Mr. Kamin, so one of the bills that passed in the last 
Congress that I proposed was called the BRAVE Act and I 
understand that you have some opposition to that, and you laid 
that out very clearly in your written testimony. I just want to 
make it clear that it was not the intent of the legislation to 
disadvantage small businesses, but rather to incentivize 
businesses both large and small to focus on and improve their 
veteran hiring and retention practice; not just hiring for the 
sake of getting business, but actually retaining veterans as 
employees as well.
    So do you have any--I would love your input as to how we 
can in any way modify the legislation to meet that specific 
intent, but also address your specific concerns.
    Mr. Kamin. Thank you, ma'am, and I appreciate your 
concerns. And I do believe we should qualify our position on 
that, because it is more that we want to study the issue. We 
take small business very seriously and the concern is, for 
instance, if I start a small business and I don't have--it is a 
family business and I have family members who are involved and 
I am not employing any veterans, will this legislation in some 
way affect the benefits that I receive.
    So that is the only concern and it is something we are 
happy to work with your office to kind of dive into details to 
alleviate some of those concerns. So that is the only issue we 
have.
    Miss Rice. Wonderful. Thank you very much and I will follow 
up with you on that.
    Thank you, Mr. Chairman.
    Mr. Levin. Thank you.
    I would now like to recognize Mr. Bergman for 5 minutes.
    Mr. Bergman. Thank you, Mr. Chairman. And, you know, as one 
of the few members who is on both Veterans Affairs' and Armed 
Services, you know, as we look at the service, if you will, for 
a young boy or girl when they consider joining the military to 
their Active duty and reserve time, and then their transition 
to the Veterans Administration system, and many, many, many, 
many decades later when we are dealing with them and serving 
them as they close out to their next transition, it is 
extremely important that we consider all of those strings and 
all those threads that attach.
    Ms. Devlin, is the VA including the individual Ready 
Reserve in any of the pilot programs? Those, you know, men and 
women who have served their initial obligation in their 8-year 
contract, but yet they have transitioned from Active duty. They 
still have a responsibility because of their contract to be in 
the individual Ready Reserve, although now they are back in the 
education world, the business world, the whatever. Anything, 
any pilot programs reaching out through the services or the 
Reserve components to make sure that that group understands 
what transition--you know, what version of TAP might be 
available to them while they are in there?
    Ms. Devlin. That is a great question, thank you.
    One of the things that we did in April of last year was we 
revamped the Transition Assistance Program for Active duty and 
in doing so we also considered the different needs of the 
Reservists and also National Guard.
    So one of the things that we learned from that population 
is that their benefits are different in the sense of their 
entitlement can be different based on whether they were called 
up, whether they were not called up. So we do have a different 
platform that enables them to understand their benefits and 
their unique entitlements.
    We also participate in many of the field-based activities 
for outreach such as Yellow Ribbon Program activities to try to 
reach individuals that may not have been a part of the TAP 
program and may not be aware of their benefits.
    Mr. Bergman. In your estimate, if you took 100 percent of 
the people eligible for TAP, what percentage of them have 
that--if you will, that 2 or 4 or 6 years of service and then 
have transitioned, as opposed to those walking out the door 
with 20-plus years and a retirement pension that is in their 
pocket at that time?
    Ms. Devlin. So, I don't have that data at my fingertips, 
and I can take it for the record, but I can tell you that the 
military services have been really great about offering 
different classrooms for individuals who are leaving the 
military and more of a senior leadership status versus their 
junior enlisted individuals, because their lifestyles 
circumstances are typically different. So, they have been very 
good about that.
    And I know Department of Defense isn't here to speak on 
their own behalf, but we have a very close working relationship 
with DoD and the military services and Department of Labor, and 
we work on these issues together.
    Mr. Bergman. Okay. Ms. Burgess, you made a comment that you 
mentioned about soft-communication skills, did I get that 
right? Would you explain that, please?
    Ms. Burgess. Yes. So, there is the hard skills of just the 
technical aspect of a particular employment and the soft 
skills, which are mainly communication skills--how do you 
interact with your fellow employees, your employer, how do you 
understand the workplace, those types of aspects.
    Mr. Bergman. So, do you see a difference between, let's say 
you had two brothers or two sisters that were twins--one went 
into the military and one didn't--do you see a difference in 
their soft communication skills that one might have versus the 
other one?
    Ms. Burgess. The veterans, themselves, say that they do, 
because of the structures and hierarchy of military life and 
then the various different structures and stresses of being in 
a civilian employment where you can be more of an advocate for 
yourself sometimes in relation with your employer or your boss, 
say.
    Mr. Bergman. Okay. And I know we are going to have a second 
round. What I am going to do right now, rather than get into an 
involved question, I am just going to yield back and then we 
will go to the second round.
    Mr. Levin. Thank you. With that, Ms. Luria is now 
recognized for 5 minutes.
    Ms. Luria. Well, thank you.
    And thank you all for being here today. I wanted to follow 
up on both, the Chairman and the Ranking Member's question, 
again, about the VET OPP Act.
    And for Ms. Devlin, just going back to some of the comments 
that you made in your opening statement. So, I can fully 
understand the VA's position, I wanted to get more in-depth 
details from you. You said that while the VA appreciates the 
Committee's focus on improving services resources offered by 
these programs, we do not support this bill. And, furthermore, 
you say that you have accomplished organizational restructuring 
that fundamentally changes the way the VA operates.
    And one of my biggest concerns is that we change things and 
we change them too rapidly to allow them to go into effect and 
then evaluate them. So, can you talk about some of those 
changes and how you think they affect these specific range of 
things that fall economic opportunity and then what the metrics 
will be by which you could measure them so we could have a 
better opinion if those changes may actually already be 
effective and this may be redundant.
    Ms. Devlin. Absolutely. I am happy to address that. One of 
the things that we realized in looking at the organizational 
structure, first of all, was that every executive director for 
each of these business lines did not have a seat at the table. 
There was a filter between them and the Under Secretary, and 
myself, as the Principal Deputy Under Secretary.
    So, one of the things we did was make sure they all had an 
equal voice--that is done. The other piece that we realized is 
that our very important Transition Assistance Program, which, 
by the way, is a passion of mine, I would like to see that we 
make improvements before my son transitions out of the Marine 
Corps in a few years.
    One of the things we realized is that there was a lack of 
transparency. So, if you looked at our budget up until the 2020 
budget, we did not have a chapter in the budget specifically 
speaking to transition or the Transition Assistance Program; in 
fact, the information around how much we were spending on that 
program was buried inside the Vocational Rehabilitation and 
Employment Program chapter, because it didn't have its own 
chapter.
    We not only created an operational office to lead that 
program so that it had direct oversight over one executive 
director who was responsible for that mission; whereas in the 
past, the executive director responsible for TAP was always 
responsible for other programs, as well. And so, it is 
operational, but it is also in the budget. So, now we have very 
much more transparency so that as we talk about programming 
funds, it will be clear where those funds are going.
    The other piece that we elevated is the Chapter 36, career 
and educational counseling program. Over the course of many 
years, there is a direct appropriation for contracting out 
those services and it has been very underutilized. So we are 
focusing efforts on actually talking to transitioning 
servicemembers and veterans to identify what it is that they 
think they would like out of that program and how could we 
better tailor it to their needs and also market it better to 
them so that they understand they can take advantage of it.
    We also lead by example. Speaking to the issues of soft 
skills and also employers hiring veterans, I am a 
rehabilitation counselor by training, so my job, when I first 
joined VA, was to help veterans with service-connected 
disabilities get to an employment goal. So, I understand that 
very, very well.
    We did update our Web site, by the way, about a year and a 
half ago. So, we do have information on there. But in terms of 
employers, we lead by example. We have a program called WARTAC 
and what we do is we go to military installations across the 
country and we recruit servicemembers before they transition to 
become veteran service representatives and work in our 
disability compensation system, working the veterans' claims. 
So, we lead by example in terms of making sure that we provide 
employment opportunities to these veterans, as well.
    Ms. Luria. Okay. Another thing that is cited in the 
discussion of this particular topic is that the TAP program 
requires an overlap with the Department of Labor, because the 
Department of Labor actually has a lead. Three days of the 
program are administered by the Department of Labor. And what I 
have the impression that this seeks to do is improve that 
relationship between the VA and the Department of Labor to make 
that more smooth.
    Do you feel like you currently have a good working 
relationship with the Department of Labor to deliver this 
content and are they willing to make adjustments, as both sides 
determine that there is new things that need to be included in 
the curriculum?
    Ms. Devlin. We have an excellent relationship with our 
Department of Labor partners at this time, yes, and we talk 
frequently. In fact, we have a regularly recurring meeting at 
various levels in the VA between various levels of Department 
of Labor, including the interagency structure that is formal, 
but also, we have informal conversations. We pick up the phone 
and call each other and discuss ideas. So, we definitely have a 
good collaboration.
    Ms. Luria. And, lastly, you mentioned a survey that you are 
doing at certain, post-separation, for veterans to collect 
data. And do you feel that that will give you a continuous 
feedback loop on how the process is working?
    Ms. Devlin. Absolutely. We do. We are very excited to get 
the survey started. We just got approval from OMB last week, so 
we are now in the process of getting ready to start fielding 
the survey.
    Ms. Luria. Thank you. I yield back my time.
    Mr. Levin. Thank you. Mr. Barr is now recognized for 5 
minutes.
    Mr. Barr. Thank you, Mr. Chairman. And thanks for holding 
this hearing, and thank you to our witnesses.
    And as we think about veterans' benefits and think about, 
especially the jurisdiction of the Subcommittee on Economic 
Opportunity, I think of the statistic that we are confronted 
with in Congress that there are more job openings in America 
today than there are unemployed Americans. And I love what you 
said, Ms. Burgess, about veterans being assets. They most 
certainly are.
    And in my experience in meeting veterans in the Sixth 
Congressional District, especially those who have recently 
separated from their Active duty, these are the best and 
brightest our country has to offer. They most certainly are 
assets because they exhibit qualities of teamwork. They exhibit 
qualities of leadership, of a service to a cause greater than, 
themselves. These are exactly the qualities that employers are 
desperate for right now in this country. So, it is very, very 
important that we get this right and we continue to offer our 
veterans with greater opportunities to meet that need in the 
labor market.
    I did want to ask Ms. Devlin a question about the STEM 
scholarships issue. The draft legislation that we shared with 
you, we appreciate your feedback in improving or making some 
suggestions on how we can improve the legislation. My district 
does boast a number of colleges and universities that offer 
STEM degrees, as well as a large veteran population. So, I look 
forward to introducing an updated version of this draft 
legislation with Chairman Levin in the coming days.
    Ms. Devlin, in your testimony, you listed a number of 
provisions in the draft legislation that may expand the Rogers 
STEM Scholarship beyond its original intent and so, possibly, 
that draft was an overcorrection to fix the too-narrow credit 
hour requirement currently in law.
    Would the VA support a narrowly tailored fix to the Rogers 
Scholarship that only removes the hard-to-obtain 128- credit-
hour requirement and, instead, replace it with the much more 
common, 120-semester-credit-hour requirement?
    Ms. Devlin. We would definitely support an amendment that 
wouldn't be quite as restrictive or as open as it changed. I 
think the 120 hours, we would want to go back and do some 
research on that to see if that is the right cutoff, but we 
would definitely want to work with you on that.
    We also would want to take a look at the two-year funding 
and ensure that the funding is awarded by school year and not 
by fiscal year, because that is how the programs operate at 
colleges and universities.
    Mr. Barr. Okay. Well, thanks for your perspective on that. 
I mean, if we made those corrections, have you considered an 
estimate of how many more veterans and STEM programs would be 
able to take advantage of the scholarship?
    Ms. Devlin. We think it will open it up much, much more. We 
haven't had any start because it effectively goes into place in 
August, but it is definitely very restricted right now with 128 
credit hours. We are not sure if veterans will be able to 
participate with that restriction in place.
    Mr. Barr. Well, as I was alluding to before, there is a lot 
of demand for skilled workers, and especially in the STEM 
areas, where we see a deficiency in the labor market.
    Ms. Haycock, Mr. Murray, and Mr. Kamin, a goal of the 
Subcommittee is to produce legislation that sets up our 
servicemembers for success in their transition to civilian 
life. The Post-9/11 G.I. Bill is critical in allowing our 
veterans to get the education they have earned.
    In your work with veterans, what programs or fields of 
study are you seeing veterans' trend toward using their Post-9/
11 G.I. Bill?
    Mr. Murray. So, sir, there was a very informative study 
done by our friends at Student Veterans of America called the 
``Invest Study'' that showed that the majority were seeking 
business degrees, the second was STEM. So, what we are seeing 
is veterans are transitioning or servicemembers are 
transitioning out and they are not using their skills in the 
military; they are looking to do something entirely different.
    The military, by and large, does not teach business; it 
teaches much different skills. So, getting out and doing 
something wholly different is something we really support.
    Mr. Kamin. Yes, and I would echo Pat's mention of our 
friends at Student Veterans of America and their study invest, 
which also showed that veterans are graduating at a higher rate 
than their cohorts and cohort, non-traditional students. So, we 
are seeing them carry this legacy of success from the World War 
II generation onward that we are proving and really 
fundamentally changing the idea of a benefit to match what we 
have always pathologized as investment. That is genuinely the 
case here, where we are seeing the taxpayer money is being paid 
back by what they are giving to the country.
    Ms. Haycock. And I would like to also add that in survivor 
space, we are seeing a huge uptake in survivors pursuing 
degrees in the mental health space. The number one population 
for or number two population for loss we have seen this year is 
actually suicides. So, seeing the large numbers there, so many 
of the families who lost a loved one to suicide, then want to 
go in and work in suicide prevention and mental health and 
counseling; the things that they felt like their loved ones 
would have benefited from.
    Mr. Barr. Thanks for your great work with TAPS. Thanks. I 
yield back.
    Mr. Levin. Thank you, Mr. Barr.
    Now, I would like to recognize Mr. Pappas for 5 minutes.
    Mr. Pappas. Thank you, Mr. Chair.
    And thank you to the Members of the panel here today. I 
think we are all interested in the range of bills that are 
before us and the opportunity to allow every veteran to reach 
his or her full potential. So, I thank you for sharing your 
thoughts.
    I want to start with Ms. Devlin. I thank you for being here 
and for the VA's work in partnering with HUD on the HUD VASH 
program to combat veteran's homelessness. I understand that the 
VA is still preparing a formal response on Representative 
Peters' bill to expand eligibility for the HUD VASH program to 
veterans who receive other-than-honorable discharges.
    It is an issue of interest to me, I think, as we look at 
the President's misguided transgender service ban, as we look 
at the legacy of the ``don't ask don't tell'' era, where 
thousands of veterans received other-than-honorable discharges 
just for being who they are. I think there is a real issue 
here.
    So, I am wondering, given that, if you can speak on your 
own impressions of this bill and if there is anything with the 
proposed legislation that might be an issue for the VA.
    Ms. Devlin. Unfortunately, I can't speak to that bill. That 
falls under the Veterans Health Administration and as you 
indicated, we haven't finalized our official views on that, so 
I can't speak on my personal behalf on that.
    I will tell you, though, homelessness is important to us in 
VBA, as well, and I can speak to what we do in terms of having 
veterans--we have coordinators in regional offices whose goal 
is to conduct outreach for homeless veterans and to ensure that 
if a veteran is homeless, that they get priority treatment, 
with respect to getting any of their benefits awarded.
    Mr. Pappas. Well, thanks for the response. You know, Mr. 
Murray indicated before that veterans with other-than- 
honorable discharges are more likely to experience 
homelessness, to be a suicide statistic. I am wondering if you 
agree with those status, as well?
    Ms. Devlin. It is clearly a disadvantage for a veteran 
leaving with an other-than-honorable. In some cases, they have 
expedited exits as well and don't get the benefits of TAP. So, 
we do recognize that this is a population that can sometimes be 
at risk and that is why we have made some changes that we have 
made in recent history, to enable them to have access to 
certain care and benefits.
    Mr. Pappas. Okay. Well, I hope you take a look at the 
legislation.
    Also some discussion about the Justice for Servicemembers 
Act, and Mr. Kamin weighed in on that one. I appreciate your 
comments. I don't know if the VFW has any position on this, in 
terms of banning forced arbitration?
    Mr. Murray. We support that provision and we are interested 
in keeping the discussion going about adding SCRA protections, 
as well. We think the law was meant there to protect our 
servicemembers and we should be stopping every opportunity to 
circumvent that.
    Mr. Pappas. Yeah, I mean, I have seen this in my own 
district. Heard about this quite a bit, specifically from the 
National Guard and Reserve. We have folks who are returning 
from mobilization to happy New Hampshire and are facing down 
this challenge, and so I hope everyone agrees that we need to 
ensure that servicemembers aren't disadvantaged for wearing the 
uniform and for serving their country, especially when they are 
coming back from a deployment.
    I am wondering, Mr. Kamin, if you could address the issue 
that Mr. Murray just raised about the Servicemember Civil 
Relief Act and if you support including those disputes in 
prohibitions on forced arbitration, as well.
    Mr. Kamin. Yeah, absolutely. And it is worth noting, as we 
examine a lot of these protection members across government 
that SCRA and USERRA, that came from DoD saying, enough is 
enough. This is affecting our readiness. This is affecting our 
posture when servicemembers are being taken advantage of and 
exploited by certain payday lenders and et cetera.
    SCRA is an interesting one in terms of how we can strength 
it. A landmark case that happened around 2010 was with JPMorgan 
and they went into litigation with--over a SCRA violation and 
ultimately that case was settled and JPMorgan actually, I 
think, grew from that significantly where now they are a 
tremendous supporter of military veterans. But because that 
went into--because that got settled the question of whether 
punitive damages are a part of SCRA was never answered.
    And so, there is a risk that if another lawsuit happens and 
it goes up the circuit and they determine that the 
congressional intent does not include punitive damages, that 
means that the best a veteran or a servicemember can get is 
their money back, not their time, not their energy, not the 
devastation that was inflicted upon them by, you know, asset 
forfeitures, et cetera. So, we want to get ahead of the power 
curve on here when it comes to SCRA and make sure that gets 
taken care of and we can clarify congressional intent.
    Mr. Pappas. Thanks for making that point. I hope we can 
straighten this out. I appreciate your support for that 
legislation.
    And I yield back, Mr. Chair.
    Mr. Levin. Thank you, Mr. Pappas.
    We do have some time for some additional questions, and I 
will start by recognizing myself for 5 minutes. I wanted to ask 
broadly of the group about HUD VASH, following up on some of 
the prior questions. There are a number of veteran homelessness 
programs that do allow OTH discharges to participate in those 
programs.
    Do your organizations recommend that we bring eligibility 
for HUD VASH in line with other veteran homelessness programs, 
with regard to OTH discharges?
    Mr. Murray. Yes, sir. Just to make sure that we are taking 
care of everyone we can, we think that the HUD VASH program is 
a very valuable tool for our veterans facing homelessness. 
Veterans with other-than-honorable discharges should be made 
eligible for those just to keep them from some of these 
negative outcomes that we see.
    Mr. Levin. Anybody else care to comment? All quiet, okay.
    Could--for VFW, could you walk us through the connection 
that you see between the lack of HUD VASH vouchers for other-
than-honorable discharges and reducing veteran suicide.
    Mr. Murray. Unfortunately, there are a lot of contributing 
factors with veteran suicide--financial instability, 
homelessness, not having the resources to be able to cope with 
mental health issues. And we feel that, you know, putting a 
roof over their head, getting them in a safe and secure area, 
that is why we think adding additional funds for the HUD VASH 
vouchers, so they don't have to be in low-income, possibly 
high-crime areas, that they feel safe and secure. That is just 
a step that we can help to mitigate the problem of suicide.
    Mr. Levin. And lastly for the group as a whole, are there 
any other reporting requirements that you think we should be 
focused on or refine or include in relation to the HUD VASH 
program that could help guide our oversight of the program in 
the future?
    Go right ahead. Not all at once.
    Mr. Murray. So, one of the things that we think, you know, 
to expand the program for oversight and expansion is things 
like permanent funding. Helping this Subcommittee--helping to 
redefine homelessness so that--and help de-stigmatize it--so 
that the idea of couch-surfing is something that we hear a lot 
of, that those folks are eligible for it. They are truly 
homeless. To be preventive.
    In terms of reporting, you know, finding out those folks 
who might have been homeless and not known it, like I said, the 
couch-surfing thing, sleeping on your friend's, you know, 
basement, that is actually homeless. So, getting that kind of 
reporting, how much veterans are affected by things like that.
    Mr. Kamin. Yeah, I would also just add that there is a 
coding term, garbage in, garbage out, where if you are not 
measuring the best--I mean, the most accurate numbers or the 
actual data, then we are getting a false positive. And we don't 
want to be in a case where we are allotting homelessness being 
gotten rid of because we are not taking into account, like Mr. 
Murray said, people who are on their couch or people who don't 
meet a certain criteria or OTHs or anything else.
    So, in terms of reporting, being able to fine-tune and stay 
ahead of the curve and getting real-time information on this is 
definitely something that we look forward to working with your 
office on.
    Ms. Devlin. I would just add from the VA's standpoint, we 
actually ask veterans on our certain applications for benefits 
if they are homeless or about to be homeless so we can avert a 
crisis-potentially situation for them by helping them with 
their benefits, and we treat them both the same, in terms of 
expediting their services.
    Mr. Levin. Thank you, Under Secretary. I appreciate that. 
It is obviously a big concern in our entire country, but 
particularly in Southern California and my district, Greater 
San Diego, we have about 1,300 homeless veterans and you hear a 
lot about the need for more VASH vouchers, the need for more 
caseworkers. So, I really do hope that we are able to work on a 
bipartisan basis to pass these two bills, and I really 
appreciate your comments.
    I would like to now recognize Mr. Bergman again for 5 
minutes.
    Mr. Bergman. Thank you, Mr. Chairman.
    And Ms. Devlin, kind of a follow on what I asked last time 
if you would please take for the record, my request for a 
breakdown of the percentage--not necessarily total numbers--but 
a percentage of TAP efforts, with regard to breaking it down to 
first- and second-term enlistments, so those who have, you 
know, served maybe 4 to 8 years and then transitioned out, and 
the numbers who are 20-plus years, who are technically 
retirees, at that point.
    Because as we allocate our limited resources in focusing on 
the different groups who, you know, have different needs, I 
would really like to know what the VA sees, as far as that, 
okay?
    Ms. Burgess, in your written testimony, you discuss how 
legislation that emphasizes post-service growth through a focus 
on education and economic opportunity programs has the power to 
shift the veteran's narrative towards a positive veteran's 
image or veteran image. Can you discuss how we can do this and 
why the reorganization at the department--the VA, that 
Department would accomplish this.
    Ms. Burgess. Absolutely. Thank you so much for the 
question. So, the point is that all of the legislation--I did a 
long history of the legislation around veterans' services and 
benefits since the very beginning, even colonial times--and 
what we see is that veterans' legislation has always had a 
little bit of a negative aspect of fixing something--best 
intentions--but what that has created over time is this idea 
that veterans are a population uniquely in need of services and 
uniquely not able to give back.
    And so, if that is what legislation in and of itself can 
do, then legislation can also be used positively, I believe. 
Through the VET OPP Act, say, is one, obviously, piece of 
legislation that I see right now that could completely shift 
this, bringing it into a 21st Century narrative and model that 
shows that veterans are assets and that we need to uplift them 
and that we need to invest in them because we have already 
invested in them and we need to make good on that investment. 
And to also relate to veterans, themselves, that the American 
people and Congress believe that they are assets.
    Mr. Bergman. Okay. In fact, just hearing you talk reminded 
me of a time back in the early '90s when then a commandant in 
the Marine Corps, General Krulak, said what the Marine Corps 
did is we make Marines and we win battles. And his successor, 
General Jones, said we make Marines, win battles, and return 
good citizens to our society. And I think that is what we are 
talking about here; returning good citizens to be productive 
members of society.
    Again, Ms. Burgess and Mr. Murray, in VA's written 
testimony on H.R. 2045, the VET OPP Act, they oppose the 
creation of a fourth administration and express concern that 
this would ``increase oversight for programs'' and would be 
``contrary to the moderation efforts that took place.''
    Can each of you please respond to that concern and why, 
instead, the creation of a fourth administration is positive, 
according to your organizations. Mr. Murray, first.
    Mr. Murray. Yes, sir. Thank you, General.
    We welcome more oversight. We feel this is a great way to 
help streamline and, you know, use these programs and benefits 
more efficiently. As Ms. Burgess said, you know, a lot of times 
we are thinking about fixing things. The areas under fourth 
admin that we want to see are the forward- looking benefits, 
the ones that can be progressive, can be transformative. They 
are not fixing things; they are making things better for the 
future.
    That is why we want to see more oversight so these programs 
are properly implemented so that the good citizens coming back 
can continue to be productive members of society.
    Ms. Burgess. Can I just say hear, hear, yes. I would say, 
also, as I said before, that separating out the management of 
the programs honors the difference between them and the 
compensation programs and creates accountability, attention, 
and leadership over what could be the Nation's most important 
instrument in partnering with veterans in their civilian 
success.
    Mr. Bergman. And I see that I have got about 30 seconds 
left. Thanks to all of you, because I know you are all--we are 
all trying to do the right thing here, because as we think 
about those young men and women who choose to serve in the 
United States military and the most--the highest percentage of 
those only serve one term. I mean, that is a reality. We are 
not talking everybody going in and staying for 20 years.
    And as we continue to populate our uniform forces, whether 
it be active, guard, or reserve, we need to be able to focus on 
those programs that allow men and women who transition and then 
stay involved so when we need them and our country needs them 
to deploy, whether it be individually or as part of a unit, 
they are ready and they have felt that their service has always 
been valued from beginning to end.
    So, thank you all, and I yield back.
    Mr. Levin. Thank you, Mr. Bergman.
    Now, I would like to recognize Ms. Luria, again, for 5 
minutes.
    Ms. Luria. Well, thank you. And, again, thank you for 
participating in the hearing.
    And I see these hearings having two roles: one is to make 
sure that we are giving you the tools, as the VA, that you need 
in order to do your job, as well as the oversight that we have 
discussed. So, I wanted to ask an additional question. Are 
there any barriers in the current legislation, as it stands 
within your current organization, that prevent you from 
providing the services that you need to provide to veterans in 
those areas that are in the purview of this Committee?
    Ms. Devlin. No, ma'am, there are no barriers. If I might, I 
just want to point out that it kind of sounds like we are 
trying to create two classes of veterans here; the veterans who 
have economic opportunity and the veterans who have 
disabilities. And I would make the case--again, I come from a 
framework of a rehabilitation counselor--disabilities don't 
define a person.
    And what we have done by having all of these benefits 
together is allow a veteran to not define him or herself by 
their disability, but to combine any benefits they do get 
because of their disabilities with the benefits to enable them 
to overcome those disabilities through the robust education 
benefits that we have, through the Vocational Rehabilitation 
Employment Program, through the ability to buy a home. All of 
those benefits being bundled together, to me, is a natural fit 
versus trying to create two classes of veterans; one that goes 
to the door of the disability benefits arena, which is what we 
would, in fact, be creating, and one that goes to the door of 
the economic opportunity suite of benefits. It just doesn't 
seem to make sense to me.
    Ms. Luria. I appreciate that analogy, as well, because I 
think they feed on each other. The educational benefits are 
then a tool for people to move beyond something that may be a 
service-related disability, especially with rehabilitation-type 
programs. So, thank you for sharing that.
    I yield back my time.
    Mr. Levin. Thank you. I would like to now recognize our 
distinguished Ranking Member, Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. I 
think you have done a great job with this Committee so far in 
our first hearing. Well, it is true, and I mean, it is your 
first time chairing a Committee, correct, in Congress?
    Mr. Levin. Yes, sir.
    Mr. Bilirakis. Yeah, so, we have got a lot of work to do 
and I look forward to working with you and getting it done.
    So, the first question is for Ms. Haycock. And it says, can 
you please go into detail about how the Fry Scholarship change 
will help ensure degree completion for these students. So, we 
are talking about the students or possibly their parents are 
active-duty or reserve and the parent had a disability and 
passed away, while not being on active-duty.
    So, what difference will this make, this particular bill 
that I am sponsoring with the Chairman, with regard to those 
students? Will it help them complete their degrees? And if you 
want to give us an example--I know of a few--so that people can 
understand how important this bill is. Thank you.
    Ms. Haycock. Sure. So, currently these families do fall 
under the Chapter 35 program, which is just a stipend of about 
$1,2000.
    The Fry Scholarship is a much more exhaustive benefit with 
the full in-state constitution, the BAH, the book stipend.
    Currently, a lot of these children are not necessarily 
attending the schools of their choice just because, 
financially, they cannot afford to do so. Even though they are 
eligible for so many of the other same programs, the family 
gets the same DIC, the same life insurance policy, things like 
that. This piece is different.
    And so, for these families, it is not even so much about 
the degree completion; though, if they can't afford to go to a 
school, in general, then they are not going to be able to 
complete a degree, but also giving them the ability to be able 
to go to the school they want.
    So, some of the kids we have seen choose to go to a local 
community college just because they cannot afford to go to 
their local four-year school or the degree program of their 
choice. So, this will help get them into those schools, 
financially, as well as allow them to complete the process.
    The BAH portion allows students to not necessarily work 
full time while in school, so that they have more financial 
freedom to focus on their studies and graduate at a higher 
rate.
    Mr. Bilirakis. Okay. Thank you very much.
    The next question is for Mr. Murray and Mr. Kamin, the VFW 
and The American Legion. Are you concerned that eliminating the 
ability for employers to use arbitration agreements that are in 
place, all other employees could incentivize employers to not 
hiring servicemembers in the first place, so--and we are 
concerned about our servicemembers being hired and getting good 
jobs? Are you concerned about this particular issue, with 
regard to arbitration?
    Mr. Murray. We are concerned about, essentially, losing 
your rights and being forced into these things in order--as a 
condition of employment. We would, obviously, discourage 
employees from not wanting to hire a veteran with the thought 
that they might deploy in the future or something like that. 
That is--you know, that runs into discrimination issues, things 
like that.
    We want to encourage them that these veterans are assets 
and if they do deploy and have to step away, you should not 
force them into an arbitration as part of the condition of 
employment. We would hope that employers don't, you know, 
follow that type of practice.
    Mr. Bilirakis. Yes, sir?
    Mr. Kamin. And as a reservist right now, I am very 
sensitive to that issue and I would be lying if I didn't tell 
you that I know people in my unit who exclude their reserve 
service on their resumes, because they believe that companies 
will be less inclined to hire them if they know that they have 
these duties.
    That being said, we believe that the intent of USERRA is 
clear in this regard and that if all a company should do is 
compel a forced arbitration, then why did we begin this process 
in the first place? We know the obligation that our country--
that these veterans give to their country and we need to honor 
that, and we still believe that USERRA is the best way to do 
that and arbitration shouldn't be a part of it.
    Mr. Bilirakis. Okay. Thank you. I appreciate it.
    And I yield back, Mr. Chairman. I appreciate it.
    Mr. Levin. Thank you, Mr. Ranking Member.
    Mr. Barr is now recognized for 5 minutes.
    Mr. Barr. Thanks once again, Mr. Chairman. And I concur 
with the Ranking Member, great job on your maiden voyage as 
Chairman of this Subcommittee, and I am honored to serve with 
you on this Subcommittee.
    I want to talk a little bit about a bipartisan bill that I 
am proud to co-sponsor with Representative Scott Levin and 
Zeldin, H.R. 1988. This is the Protect Affordable Mortgages for 
Veterans Act of 2019.
    And, obviously, as veterans are transitioning, our 
servicemembers transitioning into civilian life, the goal of 
home ownership is one of the ways that we can get those 
veterans in a good financial position to have a very successful 
future. This legislation would provide a technical correction 
for about 2,500 VA-guaranteed home loans that are currently 
ineligible for Ginnie Mae pooling, due to a seasoning 
requirement issue that I think you are aware of.
    I think that we can all agree that there is a problem that 
Congress created, and I was part of the authoring the 
legislation, S.2155 and some of the provisions in that from the 
last Congress, but when we create a problem, inadvertently, we 
obviously need to fix it, and H.R. 1988 will do that. I was 
encouraged to see that all of you all who mentioned H.R. 1988 
in your testimony, supported it.
    This is open to any of you all. Can you speak to the 
benefit of VA-backed home loans and the liquidity that is 
provided by Ginnie Mae with these VA-backed home loans and what 
that means for our veteran families?
    Mr. Murray. Sir, we feel that the VA Home Loan Program is 
one of the best benefits out there. It is hands- down, much 
better than, you know, civilian counterparts. It is something 
that we always want to see improved, protected.
    With the seasoning requirement, we understand that there 
were some unintended consequences and, you know, it was--the 
intent was to try to protect and help veterans using that 
program, not inadvertently hurt them. So, you know, we are 
onboard with cleaning that up to make sure that those up to 
2,500 veterans are taken care of the right way.
    Mr. Kamin. Yes, and I would concur. And we are actually 
approaching the 75th anniversary of the Servicemen's 
Readjustment Act of 1944. The first home loan was actually 
bought in a suburb in I think Northwest DC and I believe the 
VBA is actually looking at putting a plaque there to 
commemorate it. So, there is storied history of success. This 
is the--it is the VA homeowners that really created the middle 
class; more so, perhaps, even arguably, than the education 
component, because we saw these vast suburban tracks develop. 
And while the fixes are necessary, we have been very encouraged 
and that is a fast--program and it is great to see that you are 
focused on it.
    Ms. Devlin. So, I have to say I concur with all that they 
have said. We agree the technical fix will create--it will fix 
it so that it is better for veterans, better for Ginnie Mae, 
better for lenders, so that there is no concerns about VA-
backed loans. It is a great opportunity for veterans to buy 
home loans, in many cases, without a--with a zero down payment 
and it is a really great way for them to make an investment in 
their future.
    Mr. Barr. And, Ms. Devlin, I also appreciate the fact that 
you recognize that there is a valued purpose for the seasoning 
requirement, and you spelled out those arguments very well, I 
think, in your testimony. But, obviously, there is an 
unintended consequence to the legislation in the last Congress, 
and we don't want these 2,500 orphan loans to be kind of a 
victim of that unintended consequence.
    What would happen, Ms. Devlin, to these particular veterans 
if those 2,500 orphan loans were not fixed by this technical 
correction?
    Ms. Devlin. Well, I think the potential, right, exists that 
any of these lenders could suffer consequences which could then 
affect the veterans. I don't believe that the veterans, in 
particular, are in any danger, absent the lenders having any 
issues.
    But I think the technical fix is important because it 
doesn't create the potential for future lending opportunities 
to be--the door to be closed on veterans because of the 
potential risk.
    And the loan seasoning is an important protection, too, 
because we don't want veterans to just be, I will say targeted 
for immediate and quick refinancing when that may not be in 
their best interests.
    Mr. Barr. In my remaining time, I am just going to quickly 
comment to Ms. Haycock regarding the legislation that would 
extend benefits to the Guard and Reserve components. I would 
appreciate your support of that.
    I represent the Kentucky Army and the International Guard 
and the Boone Center in Frankfort and there is an inequity, as 
those anecdotes that you shared in your testimony, and so we 
appreciate your advocacy of that legislation.
    I yield back.
    Mr. Levin. Thank you, Mr. Barr.
    Before I make a few closing remarks, any final statement 
from our distinguished Ranking Member?
    Mr. Bilirakis. I am fine. I just wanted to let you know 
that--well, thank you for the witnesses, for their testimony--
very informative. And these are very important bills and I 
understand that we will mark them up next month when we get 
back from our Easter recess; is that correct?
    Okay. Very good. Thank you. Great job, Mr. Chairman. I 
appreciate it. I yield back.
    Mr. Levin. Thank you, Mr. Ranking Member.
    I think this hearing has highlighted some important facts 
and in particular, two things. First, we have a long way to go 
until we uphold the promise we have made to our veterans. Many 
remain homeless or are barely making ends meet, despite the 
great work being done by many of you.
    And then many more veterans and their families are unable 
to access the benefits to which they are entitled. For me, 
these benefits are not just about economic opportunities; they 
are critical tools for reintegration and readjustment to 
civilian life.
    Secondly, today's hearing has shown that this Committee 
leaves politics at the door. That is pretty refreshing. I wish 
we did more of that around here. Democrats and republicans, 
alike, are committed to improving the lives of American 
veterans and I like the fact that if you are just listening to 
today's hearing, rather than watching, you don't know which 
side the folks speaking are on. I wish that all of our 
Committees were more like that.
    This Subcommittee is going to continue to work 
collaboratively, and I am looking forward to working with our 
distinguished Ranking Member, Mr. Bilirakis, and all of our 
Members this Congress.
    I would also like to thank our witnesses for bringing their 
expertise both, in their written testimony and their remarks.
    And I would like to thank our staff for preparing, me, 
exceptionally well today for my first hearing as the 
Subcommittee chair.
    With that, I will say that all Members will have 5 
legislative days to revise and extend their remarks and to 
include any extraneous material that they didn't have an 
opportunity to include in the spoken remarks today.
    And, lastly, I just want to reiterate what an incredible 
honor it is to get to chair this Subcommittee. It is a 
responsibility that I take extremely seriously, and I am 
confident that when we look back at the 116th Congress, the 
work of this Subcommittee will stand out and will be something 
that we can all be very proud of.
    So, with, without objection, this Subcommittee stands 
adjourned.

    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

                 Prepared Statement of Margarita Devlin
    Good morning, Mr. Chairman, Ranking Member Bilirakis, and other 
Members of the Subcommittee. I am pleased to be here today to provide 
the views of the Department of Veterans Affairs (VA) on pending 
legislation, including bills pertaining to education and loan guaranty 
benefits and transition assistance.
    VA is unable to provide views on H.R. 95, the Homeless Veteran 
Families Act; H.R. ----, a bill to amend the United States Housing Act 
of 1937 and title 38 United States Code (U.S.C.), to expand eligibility 
for the Department of Housing and Urban Development-VA Supportive 
Housing (HUD VASH) program, to direct the Secretary of Veterans Affairs 
to submit annual reports to the Committees on Veterans' Affairs of the 
House of Representatives and Senate regarding homeless Veterans, and 
for other purposes; the discussion draft H.R. ----, the Homes for Our 
Heroes Act of 2019; and H.R. 2109, the BRAVE Act, at this time, but 
will provide them at a later date.
  H.R. 444 - Reduce Unemployment for Veterans of All Ages Act of 2019
    H.R. 444, the Reduce Unemployment for Veterans of All Ages Act of 
2019, would eliminate the eligibility termination date (ETD) for access 
to Vocational Rehabilitation and Employment (VR&E) benefits and 
services by repealing 38 U.S.C. Sec.  3103.
    VA does not support this bill; however, VA does support the 
objective of this bill, which is designed to reduce unemployment for 
Veterans of all ages. Currently
    38 U.S.C. Sec.  3103(a) generally requires that VR&E benefits and 
services must be utilized within 12 years of a Veteran being discharged 
or released from active service. The last day of this 12-year period is 
referred to as the ETD. Eliminating the ETD would streamline the 
eligibility and entitlement process and would enable Veterans to 
benefit from VR&E services at any time, if entitlement to the program 
is established.
    However, VA would prefer to amend Sec.  3103 as opposed to 
repealing the section. Section 112 of the Harry W. Colmery Veterans 
Educational Assistance Act of 2017, Public Law 115-48, eliminated the 
15-year time limitation for Veterans to utilize their Post 9/11 GI Bill 
benefits. This provision took effect for Veterans whose last discharge 
or release from Active duty occurred on or after January 1, 2013. 
Amending 38 U.S.C. Sec.  3103 to eliminate the 12-year ETD for Veterans 
whose last discharge from Active duty was on or after January 1, 2013, 
would create parity between VR&E and Post 9/11 GI Bill programs.
    Benefit costs or savings that would be associated with this bill 
have not yet been determined.
             H.R. 1718 - GI Education Benefits Fairness Act
    H.R. 1718, the GI Education Benefits Fairness Act, would amend 38 
U.S.C. Sec.  3319(c) to expand the definition of a child applicable for 
transfer of entitlement under the Post 9/11 GI Bill to include a ward 
or foster child, by utilizing the definition of dependent in 10 U.S.C. 
Sec.  1072(2)(l).
    VA supports this bill subject to Congress finding appropriate 
funding offsets. It would ensure that all dependents of individuals 
eligible to transfer their Post-9/11 GI Bill entitlement are treated 
equally and are able to utilize VA educational assistance under the 
transferability program. However, the intent and impact of the 
applicability provision in section 2(b) is unclear. VA would welcome 
the opportunity to assist the Committee with technical edits that could 
remedy this issue.
    Benefit costs or savings that would be associated with this bill 
have not yet been determined.
    H.R. 1988, Protect Affordable Mortgages for Veterans Act of 2019
    H.R. 1988, the Protect Affordable Mortgages for Veterans Act of 
2019, would revise statutory loan seasoning requirements applicable to 
the origination and securitization of certain VA-guaranteed refinance 
loans. Loan seasoning requirements set a minimum length of time during 
which an initial loan cannot be refinanced. In VA's housing program, 
well-tailored loan seasoning requirements help reduce the likelihood of 
serial refinancing. Loan seasoning requirements can also help preserve 
Veterans' home equity, which often proves to be a valuable and 
sometimes crucial financial asset for Veterans.
    In addition to protecting Veterans from predatory lending, loan 
seasoning requirements can help safeguard the financial interests of 
the United States. When a Veteran obtains a VA-guaranteed loan, VA 
generally guarantees anywhere from 25 to 50 percent of the loan amount. 
Thus, as questionable loans accumulate, taxpayers subsidize needlessly 
risky Government-backed portfolios. Consequences include early loan 
terminations, increased and guaranty claims for VA. The Government 
National Mortgage Association (GNMA) guarantees mortgage-backed 
securities (MNSMBSMNS) that include VA-guaranteed loans. Excessive loan 
churning puts downward pressure on the price of Ginnie Mae securities, 
which increases borrowing costs for veterans as well as borrowers with 
loans from other government programs that are comingled with Ginnie Mae 
securities.
    On May 24, 2018, the President signed into law Public Law 115-174, 
the Economic Growth, Regulatory Relief, and Consumer Protection Act, a 
statute that, in part, imposed new requirements on certain VA-
guaranteed refinance loans and Ginnie Mae MBS. One such requirement 
included a loan seasoning period, applicable at two distinct stages:(i) 
the date of loan origination and (ii) the date that a loan is pooled 
into Ginnie Mae MBS. Specifically, a new section 3709, title 38, 
U.S.C., provides that VA cannot guarantee certain refinance loans until 
the later of (i) the date that is 210 days after the first monthly 
payment is made on the loan being refinanced and (ii) the date on which 
the sixth monthly payment is made on the loan being refinanced. The 
National Housing Act was also amended to explicitly prohibit Ginnie Mae 
from including unseasoned VA-guaranteed refinance loans in their 
investment pools. The statute bars VA-guaranteed refinance loans from 
Ginnie Mae MBS unless the loans being refinanced have seasoned for at 
least 210 days, as measured from the date that the first monthly 
payment was made and unless the borrowers have made six full monthly 
payments on the loans being refinanced. The new seasoning requirements 
on VA-guaranteed refinance loans and Ginnie Mae MBS went into effect 
immediately upon enactment.
    Shortly after Congress enacted Public Law 115-174, certain 
stakeholders realized that the immediate imposition of the Ginnie Mae 
MBS seasoning requirement inadvertently prevented some unseasoned 
refinance loans, which were compliant at the time of origination, but 
not by the time the loans were ripe for sale on the secondary market 
from being sold into Ginnie Mae MBS. This held true for such loans 
despite lenders' expectations at the time of loan closing that such 
loans could be sold into Ginnie Mae MBS. For some smaller lenders, the 
inability to sell such loans into Ginnie Mae MBS could force them out 
of business, potentially harming current borrowers and curtailing the 
availability of future VA-guaranteed loans for Veterans.
    Section 2(a) of the bill would remove the statutory imposition of 
the Ginnie Mae MBS seasoning requirement, thereby restoring Ginnie 
Mae's authority to securitize what the lending industry is now 
referring to as ``orphan'' loans (the approximately 2,500 loans that 
were closed but not yet pooled when Public Law
    115-174 was enacted). VA believes that the primary purpose of 
section 2(a) of the bill is to make a technical correction to address a 
discrete issue, one that would allow such loans to be sold into Ginnie 
Mae MBS. VA does not oppose section 2(a) of the bill. VA has a 
longstanding history of working with Ginnie Mae to ensure that Veterans 
enjoy ready access to housing credit and that Ginnie Mae MBS containing 
VA-guaranteed loans are sound investments. Ginnie Mae is a valuable 
partner to VA and to Veterans who might otherwise face higher credit 
costs without the liquidity that Ginnie Mae provides in the market. VA 
anticipates continued collaboration with Ginnie Mae to ensure these 
mutually beneficial outcomes.
    Section 2(b) of the bill would amend section 3709(c)(2) to change 
the date upon which the 210-day seasoning count begins. Under current 
section 3709(c)(1), the 210-day count begins on the date on which the 
first monthly payment is made on the loan being refinanced. Section 
2(b) of the bill would start the count on the date the first payment is 
due, not paid. VA does not object to this provision, as it would seem 
when coupled with the six-consecutive-monthly-payment requirement, to 
impose a more easily calculable 6-month seasoning requirement. VA does 
not anticipate any costs associated with this legislation.
    H.R. 2045, the Veterans' Education, Transition, and Opportunity 
                   Prioritization Plan Act (VET OPP)
    H.R. 2045, the Veterans' Education, Transition, and Opportunity 
Prioritization Plan Act of 2019, or VET OPP Act, would establish in VA 
the Veterans Economic Opportunity and Transition Administration (VEOTA) 
to administer programs that provide assistance related to economic 
opportunity for Veterans and their dependents and survivors. VEOTA 
would be responsible for the following VA programs: vocational 
rehabilitation and employment; educational assistance; Veterans' 
housing loans and related programs; verification of small businesses 
owned and controlled by Veterans, including the administration of the 
database of Veteran-owned businesses; TAP; and any other programs 
determined appropriate by VA.
    The effective date of this draft bill would be October 1, 2020. For 
FY 2019 and FY 2020, the number of full-time equivalent employees 
authorized for the Veterans Benefits Administration (VBA) and the new 
administration would not be allowed to exceed 23,692.
    While VA appreciates the Committee's focus on improving services 
and resources offered by these programs, we do not support this bill. 
The current VBA structure appropriately reflects the Under Secretary 
for Benefits' overall responsibility for Veterans benefit programs to 
support economic opportunity and transition, by providing vocational 
rehabilitation, education assistance, and housing programs, as well as 
compensation, pension, survivors' benefits, and insurance.
    In 2018, VBA created the Office of Transition and Economic 
Development (TED) to support seamless transition from military service 
to civilian life and accelerate economic empowerment and development 
for transitioning Servicemembers, Veterans, and their families. TED is 
leveraging enterprise-wide programs and services to prioritize military 
to civilian transition and has oversight and management responsibility 
for VA's transition services, including VA's portion of TAP.
    Further, VA underwent modernization through the entire 
organization. VBA accomplished organizational restructuring that 
fundamentally changed the way it operates. This included delayering 
oversight offices and concentrating resources on front line Veteran 
facing and Veteran serving positions. The addition of another 
administration would increase oversight for programs that are currently 
in place, contrary to the modernization efforts that took place.
    The Office of Small and Disadvantaged Business Utilization (OSDBU) 
currently reports directly to the Secretary or Deputy Secretary. 
OSDBU's mission is to advocate for the maximum practicable 
participation of small, small-disadvantaged, Veteran-owned, women-
owned, and Historically Underutilized Business Zone businesses in 
contracts awarded by VA and in subcontracts awarded by VA's prime 
contractors. This bill would move OSDBU's Center for Verification and 
Evaluation (CVE) program to the new administration. CVE administers the 
verification program required for service-disabled Veteran-owned small 
businesses and Veteran-owned small businesses and maintains the Vendor 
Information Pages database. We are concerned that moving this major 
aspect of the program from OSDBU to a new administration may result in 
a redundancy of efforts.
    Section 3(a) of the bill would add a new section 306A titled 
``Under Secretary for Veterans Economic Opportunity and Transition'' to 
title 38, United States Code. New section 306A(a) would make the Under 
Secretary for Veterans Economic Opportunity and Transition a 
Presidential appointee position, requiring the advice and consent of 
the Senate. The Under Secretary would be appointed without regard to 
political affiliation and solely based on demonstrated ability in 
information technology and the administration of programs within VEOTA 
or similar programs.
    New section 306A(b) would state that the Under Secretary for 
Veterans Economic Opportunity and Transition is directly responsible to 
the Secretary of Veterans Affairs for the operations of VEOTA.
    New section 306A(c) would state that the Secretary of Veterans 
Affairs shall establish a commission to recommend individuals to the 
President for appointment to the new Under Secretary position when a 
vacancy arises. The commission would recommend to the Secretary at 
least three individuals for appointment to the position. The Secretary 
would forward the recommendations to the President and the Committees 
on Veterans' Affairs of the House of Representatives and Senate with 
any comments. The Assistant Secretary or Deputy Assistant Secretary of 
Veterans Affairs who performs personnel management and labor relations 
functions would serve as the executive secretary of the commission.
    Section 3 would establish the same procedure used to fill the 
positions of Under Secretary for Benefits, Under Secretary for Health, 
and Under Secretary for Memorial Affairs. If this bill is enacted, VA 
agrees this should be the procedure for selecting the new Under 
Secretary for Veterans Economic Opportunity and Transition.
    No mandatory costs would be associated with the bill. While there 
would be no benefit costs associated with the bill, the appropriation 
language for the Readjustment Benefits account and the Credit Reform 
account would have to change to reflect the title of the new 
administration.
Discussion Draft, H.R. ----, Jumbo Loans and Waiver of Fees for Purple 
                            Heart Recipients
    Section 1(a) of H.R. ----, Jumbo Loans and Waiver of Fees for 
Purple Heart Recipients, would amend 38 U.S.C. Sec.  3703(a)(1) to 
adjust the maximum guaranty amount available under the VA home loan 
program. It would also make conforming amendments to entitlement 
calculations to ensure the increase in guaranty amount would not 
decrease the amount of entitlement currently available to certain 
Veteran borrowers.
    Under current law, the maximum guaranty amount for certain VA-
guaranteed loans is calculated as a percentage of the Freddie Mac 
conforming loan limit. Lenders typically require VA's guaranty to cover 
at least 25 percent of the loan amount before they will make a zero-
down payment loan. When VA's guaranty is less than 25 percent, lenders 
expect Veterans to make a down payment to cover the difference. In 
effect, the maximum amount a Veteran can borrow without a down payment 
is capped at the Freddie Mac conforming loan limit. This bill would 
eliminate the effective cap and make the maximum guaranty amount 25 
percent of the loan amount, subject to previously-used entitlement.
    A Veteran's entitlement is generally limited to $36,000 for loans 
amounting to $144,000 or less, or to 25 percent of the loan for certain 
loans that exceed $144,000. A Veteran who is using the home loan 
benefit for the first time or who has used the benefit, but has had all 
previous entitlement restored (e.g., the Veteran has sold his/her 
property and repaid the VA-guaranteed loan in full), enjoys the full 
amount of entitlement. One who has an outstanding VA-guaranteed loan or 
who has not otherwise repaid previously-used entitlement must subtract 
from the full amount that which has not been restored. The amount of 
entitlement available to a Veteran is important because it is another 
factor, along with the maximum guaranty amount, in determining whether 
a Veteran must contribute a down payment when obtaining a VA-guaranteed 
loan.
    The zero-down payment loan is a cornerstone of VA's home loan 
program and provides an incentive for Veterans to choose VA's home loan 
product. While VA generally supports efforts to preserve the zero-down 
payment feature, VA has two major concerns with this bill.
    The bill lacks a provision that would set forth how to calculate 
entitlement for certain Veterans. Specifically, there is not any 
instruction for calculating entitlement for Veterans who would use 
their full entitlement to obtain a loan exceeding $144,000. The bill 
does provide how to calculate entitlement for Veterans whose loans 
would not exceed $144,000, both in circumstances where entitlement has 
been used and when it has not. It also provides how to calculate 
remaining entitlement for a ``covered Veteran,'' which would include 
Veterans whose loans would exceed $144,000 and for whom their 
entitlement is currently in use. It leaves a gap, however, with regard 
to Veterans who do not fit into either of these categories, meaning 
those Veterans who (i) are obtaining a loan of more than $144,000 and 
(ii) have never used their benefits or have used them and had their 
full entitlement restored (e.g., a Veteran who has repaid a loan in 
full after selling his or her home). VA would welcome the opportunity 
to assist the Committee with technical edits that could remedy this 
issue.
    VA also has concerns about costing section 1(a)(1) of the bill. Due 
to limited loan data on non-conforming loans, VA's estimate of benefit 
costs ranges anywhere from tens of millions of dollars to hundreds of 
millions of dollars, depending on how quickly Veteran demand for the 
new, higher loan amounts would outstrip the loan fees VA collects as a 
result. A conservative estimate projects new benefit costs of $6.3 
million, $33.6 million, and $77 million over one, five, and ten years, 
respectively, based on loans to 64,594 new borrowers, representing 
additional lending guaranty coverage of $9.3 billion.
    VA also estimates that the coverage expansion could boost average 
default claims by 54 basis points or 0.54 percent, compared with the 
baseline workload of the Fiscal Year (FY) 2020 President's Budget 
Submission. Given the uncertainty of the budgetary impacts, VA cannot 
support the change in this section of the legislation at this time.
    Section 1(a)(2) of the bill would amend 38 U.S.C. Sec.  3762(c) to 
remove the current loan amount limit applicable to Native American 
Direct Loans (NADL). Under current law, VA cannot make a NADL with a 
total loan amount that exceeds the maximum loan amount for VA-
guaranteed loans as set forth by 38 U.S.C. Sec.  3703(a). Under section 
1(a)(1) of the bill, certain VA-guaranteed loans would no longer be 
capped at the Freddie Mac conforming loan limit. Section 1(a)(2) of the 
bill would allow Native American Veterans living on trust land to 
obtain NADLs that exceed the Freddie Mac conforming loan limit, 
provided they can afford the loan. This provision would help ensure 
that Native American Veterans have similar access to zero-down payment 
loans as Veterans participating in the VA-guaranteed loan program.
    Section 1(a)(2) of the bill could slightly expand VA direct loan 
lending, mostly in Hawaii. The expansion could result in approximately 
$6.8 million in loan volume over 10 years, as compared with the 
baseline workload of the FY 2020 President's Budget Submission. This 
legislation would not alter the baseline workload volume or subsidy 
rates in the future. The baseline direct loan program has negative 
subsidy rates from the Budget model. Applying these assumptions to the 
Budget model, section 1(a)(2) could result in first-year cost savings 
of $55,000 and cost savings of $237,000 and $380,000 over 5 and 10 
years, respectively. If Congress were to enact section 1(a)(1) of the 
bill, VA would not oppose removing the loan limit for NADLs, as this 
would align the NADL benefit with the VA-guaranteed loan program.
    Section (b) of the bill would amend 38 U.S.C. Sec.  3729 to exempt 
certain recipients of the Purple Heart from paying the statutory loan 
fee generally required to obtain a housing loan guaranteed, insured, or 
made under VA's home loan program. Under current law, the loan fee, 
which is based on a percentage of the loan amount, is waived for 
certain Veterans and active-duty Servicemembers who have service-
connected disabilities. A loan fee is not required from a Veteran who, 
for example, is receiving compensation as the result of a pre-discharge 
disability examination or rating or based on a pre-discharge review of 
existing medical evidence that results in the issuance of a memorandum 
rating. Additionally, an active-duty Servicemember who is awarded the 
Purple Heart and is eligible for VA home loan benefits can receive a 
waiver of the loan fee if he or she would be in receipt of compensation 
but receiving Active duty pay. The current exemption from the loan fee 
is not available to a recipient of the Purple Heart unless his or her 
injuries result in the receipt of disability compensation.
    If section (b) of the bill were enacted, the Secretary would waive 
the loan fee for a Purple Heart recipient, regardless of whether such 
recipient's injuries are compensable by VA, as long as such recipient 
is serving on Active duty, and the recipient's Purple Heart has been 
awarded at the time the loan is to be guaranteed or insured. VA does 
not oppose enactment of section (b) of the bill.
    One question the bill presents is how to ensure that Purple Heart 
recipients are adequately served when, according to a recent 
Congressional Research Service report, the Purple Heart is sometimes 
awarded without any formal reporting or recordkeeping. The same report 
also states that the Department of Defense does not maintain a 
comprehensive record of Purple Heart recipients. If section (b) of the 
bill were enacted, a rulemaking would be necessary to establish various 
ways a recipient could show eligibility for a loan fee exemption. 
Therefore, unless the bill is amended to address evidentiary standards, 
VA would recommend a delayed effective date to allow time for a 
rulemaking.
    Section (b) of the bill could increase by 2 percent annually the 
number of VA-guaranteed loans that do not require a loan fee, compared 
with the baseline workload of the FY 2020 President's Budget 
Submission. VA estimates that the 2-percent increase of section (b) 
could result in new benefits costs of $482,000 in 2020, $2.7 million 
over 5 years, and $5.9 million over 10 years.
  Discussion Draft, H.R. ----, Justice for Servicemembers Act of 2019
    H.R. ----, the Justice for Servicemembers Act of 2019, would 
clarify the scope of procedural rights of Servicemembers with respect 
to their employment and reemployment rights under the Uniformed 
Services Employment and Reemployment Rights Act of 1994. Because this 
bill concerns procedures and protections that largely fall under the 
purview of the Department of Labor (DOL), VA defers to the views of DOL 
and other agencies on this proposed legislation.
    H.R. ----, Veteran Employment and Child Care Access Act of 2019
    H.R. ----, the Veteran Employment and Child Care Access Act of 
2019, would create a new section, 38 U.S.C. Sec.  3123, that would 
require VA to provide child care assistance to certain Veterans 
receiving certain training or vocational rehabilitation. Section 
3123(a)(2) would limit the provision of child care assistance to once 
per child, and not to exceed 6 months but would also allow the 
Secretary to waive these limitations as appropriate. Section 3123(b) 
would impose limitations on eligibility, including that the Veteran be 
the primary caretaker and family adjusted gross income requirements. 
Section 3123(c) would establish the four options for the provision of 
child care services, and section 3123(d) would require VA to coordinate 
with other agencies and entities when possible. Section 3123(f) would 
define three terms applicable to the section, i.e., ``child,'' 
``licensed child care center,'' and ``primary caretaker.''
    VA does not support this bill, as currently written. VA supports 
efforts to provide access to or reimbursement of child care services to 
Veterans receiving training or vocational rehabilitation. However, the 
bill duplicates services already available to VR&E participants and 
also contains ambiguities.
    38 U.S.C Sec.  3104(a)(16) states VR&E may provide services 
``necessary to accomplish the purpose of a rehabilitation program on an 
individual basis.'' As such, VR&E currently allows reimbursement of 
child care expenses for chapter 31 participants if the Vocational 
Rehabilitation Counselor (VRC) determines child care is necessary for 
the implementation or continuation of the Veteran's rehabilitation 
program. Child care assistance is generally limited to one semester, or 
the equivalent, which is consistent with the language proposed in Sec.  
3123(a). The VRC and Veteran work together to identify appropriate 
long-term child care solutions. Part of this coordination is to explore 
child care options that are available under other Federal, state, or 
local entities, as outlined in Sec.  3123(d). Ordinarily, the cost for 
child care assistance is limited to $1,250 per year, or 5 percent of 
training costs for any 12-month period, based on 38 Code of Federal 
Regulations (CFR) Sec.  21.156. Therefore, the services and practices 
outlined in Sec.  3123(a) and (d) are already available to and in use 
for chapter 31 participants. Additionally, the waiver provision in 
Sec.  3123(b) is also addressed in VR&E regulation and policy as any 
authorization more than this amount requires higher level approval from 
the VR&E Officer in the office of jurisdiction. Lastly, Sec.  
3123(b)(1) would state a Veteran is eligible to receive this service if 
he or she needs training on a full-time basis but cannot participate at 
that level due to the lack of child care services. Since VR&E currently 
can provide direct reimbursement for the cost of child care services on 
a limited basis, it would be difficult to state that the lack of child 
care services is the reason the Veteran is not attending training on a 
full-time basis.
    VA defers to DOL regarding the impact of these provisions on their 
programs under 38 U.S.C. Sec. Sec.  2021, 2021A, and chapter 41.
    VA is unable to estimate the readjustment benefit costs associated 
with this proposal due to the inability to predict either the increased 
utilization of this benefit or the average cost of child care due to 
variance in the array of child care services offered, the number and 
age of children, and the location of facilities. In addition, this 
proposal does not specify whether funds shall be used for full-time 
child care or child care only while the Veterans is attending class.
   H.R. ----, Navy SEAL Chief Petty Officer William ``Bill'' Mulder 
                  (Retired) Transition Improvement Act
    H.R. ----, the Navy SEAL Chief Petty Officer William ``Bill'' 
Mulder (Retired) Transition Improvement Act, would provide additional 
authorities that would help improve the effectiveness of the Transition 
Assistance Program (TAP). Section 3 of the bill would mandate access to 
the National Directory of New Hires for VA and DOL. This access would 
allow the Departments to better track employment outcomes of 
transitioned Servicemembers and understand the effectiveness of TAP. VA 
further supports the other TAP partner agencies getting access as well. 
Section 4 would reauthorize and expand DOL's pilot program for off base 
transition training for Veterans who have already transitioned and 
their spouses. VA defers to DOL with respect to this section of the 
bill. Section 5 would authorize VA to make grants to eligible 
organizations to assist transitioned Servicemembers and their spouses 
in areas related to resume assistance, interview training, and job 
recruitment training. VA notes that grant programs related to 
employment are generally under the purview of the Secretary of Labor; 
therefore, placement of this grant program at DOL would be most 
appropriate. This would help to ensure that services are complementary 
and not duplicative of those available through DOL's workforce system.
    Finally, sections 6 and 7 would mandate studies of TAP. Section 6 
would require a 1 year independent assessment of TAP effectiveness, and 
section 7 would require a 5 year longitudinal study. VA has already 
begun development of a post-transition longitudinal study which will 
survey Veterans over time to gain detailed information about their 
outcomes and their evaluations of how the TAP program helped them to 
prepare for the transition to civilian life.
    VA does not anticipate any cost implications related to sections 3, 
4, and 5. For section 6, VA anticipates a cost of $2.2 million for FY 
2020 based on estimated levels of effort using the existing contract 
vehicle. For section 7, VA anticipates a cost of $2.2 million over 5 
years, based on the total cost of a contract awarded by VA in October 
2018 to conduct VA's 5-year longitudinal study.
              Discussion Draft, H.R. ----, Flight Training
    H.R. ----, Flight Training, would make certain improvements to the 
use of educational assistance provided by VA for flight training 
programs.
    Section 1(a) of the proposed legislation would amend 38 U.S.C. 
Sec.  3034(d) to require that flight training be required for a course 
of education being pursued in order to be approved for use of 
educational assistance and to remove the requirement for an individual 
receiving Montgomery GI Bill-Active Duty (or Chapter 30) benefits to 
possess a valid private pilot certificate and meet the medical 
requirements for a commercial pilot certificate before qualifying to 
receive benefits for flight training. Therefore, individuals who do not 
possess a valid private pilot certificate or meet the medical 
requirement could qualify for flight training under chapter 30.
    Section 1(b) of the proposed legislation would add a new subsection 
(k) to 38 U.S.C. Sec.  3313, which would allow an individual receiving 
Post-9/11 GI Bill benefits to elect to receive accelerated payments for 
tuition and fees for flight training pursued at institutions of higher 
learning (IHL) when the flight training is a requirement for the degree 
being pursued. The amount of each accelerated payment would be equal to 
twice the amount for tuition and fees otherwise payable to an 
individual. The amount of monthly stipends (i.e., monthly housing 
allowance, kickers, etc.) would not be accelerated. Two months of 
entitlement would be charged for each accelerated payment.
    Section 1(c) of the proposed bill would amend subsection (c)(1)(A) 
of 38 U.S.C. Sec.  3313 to limit the benefits paid for pursuit of 
flight-related degree programs at public IHLs. First, it would limit 
the amount of tuition and fees payable for a program that requires 
flight training to the same amount per academic year that applies to 
programs at private or foreign IHLs. Second, it would prohibit the 
payment of tuition and fees associated with non-required (i.e., 
elective) flight training.
    Section 1(d) of the bill would further amend 38 U.S.C. Sec.  
3313(c)(1)(A)(ii)(II), as added by subsection (c)(2)(E) of this bill, 
to add a new item (cc) that would limit the amount of tuition and fees 
payable for certain programs at IHLs, specifically those that involve a 
contract or agreement with an entity (other than another public IHL) to 
provide a program of education, or a portion of a program of education, 
to the same amount per academic year that applies to programs at 
private or foreign institutions.
    VA supports the intent of section 1(a) concerning the requirement 
that flight training be required for a course of education. However, VA 
has concerns about removing the requirement for individuals to possess 
a valid private pilot certificate and meet the medical requirements, as 
this would allow certain individuals to pursue flight training as an 
avocation versus a vocation. VA notes that this provision would also 
apply to individuals pursuing flight training under both Chapter 30 and 
Chapter 33, since the same approval criteria govern both education 
programs.
    VA does not support section 1(b). Under this provision, individuals 
would exhaust their entitlement prior to completing their program of 
education. This would specifically impact individuals who elect to 
receive accelerated payments for flight training while pursuing a 
standard 4-year Bachelor's degree program. Consequently, VA could pay 
more funding than required for certain enrollments. In addition, the 
proposed charge against entitlement is confusing since only payments 
associated with tuition and fee charges may be accelerated. These 
payments, however, are paid in a lump sum, not on a monthly basis.
    This section would require VA to make changes to the current rules 
for determining payment amounts that are programmed into the Long Term 
Solution (LTS). LTS is not currently programmed to process accelerated 
payments. VA estimates that it would require 1 year from the date of 
enactment to make the necessary information technology system changes.
    Lastly, VA supports sections 1(c) and 1(d), which would limit the 
amount of tuition and fee payments for enrollment in flight programs 
and certain programs at IHLs that are a part of a contract agreement 
with other entities (other than another public IHL). However, VA is 
concerned that this limitation would only apply to certain VA 
educational programs and recommends that these sections be extended to 
include programs offered under the authority of Chapter 31. VA is 
concerned about high tuition and fee payments for enrollment in degree 
programs, especially those involving flight training at public IHLs. 
Education benefit payments for flight programs increased tremendously 
with the implementation of Public Law 111-377.
    There has been a significant increase in flight training centers, 
specifically those that offer helicopter training, that have contracted 
with public IHLs to offer flight-related degrees. Sometimes these 
programs charge higher prices than those that would be charged if the 
student had chosen to attend the vocational flight school for the same 
training.
    The proposed legislation would remedy this situation. VA would like 
to note that information technology changes would also be necessary to 
implement section 1(c) and (d). VA estimates that it would require 1 
year from enactment to develop, test, and implement this functionality. 
Manual processing would be needed in the interim. Benefit costs or 
savings that would be associated with this bill have not yet been 
determined.
     Discussion Draft, H.R. ----, Improvements to STEM Scholarship
    H.R. ----, the Improvements to Science, Technology, Engineering, 
and Math (STEM) Scholarship, would amend 38 U.S.C. Sec.  
3320(b)(4)(A)(i) to eliminate the requirement for an individual to be 
enrolled in a program of education leading to a post secondary degree 
that, in accordance with the guidelines of the applicable regional or 
national accrediting agency, requires more than the standard 128 
semester (or 192 quarter) credit hours for completion in a standard 
undergraduate college degree to qualify for additional months of Post 
9/11 GI Bill educational assistance benefits under the STEM Scholarship 
program.
    VA supports, if amended the proposed legislation as a large number 
of states do not have STEM programs greater than 128 semester hours. 
However, as currently written, the proposed legislation would remove 
the credit hour requirement for eligible STEM scholarship programs and 
would open the program to individuals enrolled in a program of 
education leading to a graduate degree instead of being restricted to 
only individuals enrolled in an undergraduate degree. Additionally, the 
proposed legislation would indirectly remove the selection priority 
under section 3320(c)(1), which currently requires VA to select 
eligible individuals to receive additional benefits under this section 
by giving priority to individuals who require the most credit hours. VA 
also has concerns as it relates to the authorized appropriation of 
funding in section 1(b) because it would restrict VA with two-year 
funding for the STEM program. Currently, VA has indefinite carryover 
authority for funding within the STEM program, allowing any unobligated 
balance from one fiscal year to be obligated in addition to the 
statutory funding cap in a subsequent fiscal year, rather than each 
academic year.
    No costs or savings to the Readjustment Benefits account are 
associated with this proposed legislation. However, VA would prefer 
indefinite carryover authority, making funding available for the STEM 
program until expended, rather than 2-year funding. This would greatly 
simplify administration and financial management for the program.
    Under the current statute, VA estimates the cost of the STEM 
program would be equal to the full annual funding limitations currently 
stated in 38 U.S.C Sec.  3320 ($25 million in FY 2019, $75 million for 
FY 2020 through FY 2022, and $100 million for FY 2023 and each 
subsequent fiscal year). While the proposed legislation may expand 
eligibility to individuals whose program would not have otherwise 
qualified, it would not increase the amount VA plans to obligate for 
this program each year.
            H.R. ----, Fry Scholarship Eligibility Expansion
    H.R. ----, Fry Scholarship Eligibility Expansion, would amend 38 
U.S.C. Sec.  3311(b)(9) to expand eligibility for the Marine Gunnery 
Sergeant John David Fry Scholarship to a child or spouse of a member of 
a reserve component of the Armed Forces who dies from a service 
connected disability not later than 4 years after the date of the last 
discharge or release from Active duty. The proposed legislation would 
apply to a quarter, semester, or term beginning on or after August 1, 
2020.
    VA supports the intent of the proposed legislation, subject to 
Congress finding appropriate funding offsets, but notes several 
concerns. First, the proposed legislation does not require the reserve 
member to have served on or after September 11, 2001, which would 
create an inconsistency with the Post 9/11 GI Bill. Second, the 
proposed legislation could create disparate treatment of similarly 
situated Veterans because it does not limit the service-connected 
disability to only those incurred while on reserve status. While the 
proposed bill would grant Fry Scholarship eligibility to children and 
spouses of members of the reserve components of the Armed Forces who 
die from service-connected disabilities, it does not extend this same 
eligibility to dependents of non-reservist Veterans who die from 
service-connected disabilities.
    Therefore, two Servicemembers can sustain the same injury while on 
Active duty and both separate from service at the same time. One 
Veteran continues to serve in a reserve component while the other 
Veteran does not. If, within the next 4 years, both Veterans die due to 
their service-connected disabilities, the reserve Veteran's dependent 
would receive Fry benefits while the non-reservist Veteran's dependent 
would not simply because one Veteran chose to remain in the reserves. 
The practical impact of the law would be an incentive for a Veteran 
with a service-connected disability to remain in the reserves rather 
than the law merely putting an injured member of the reserves on par 
with an injured Active duty member. The proposed legislation would thus 
create substantial inequity between dependents of reservist Veterans 
and dependents of non-reservist Veterans when both Veterans die due to 
conditions related to Active duty service unrelated to reserve duty.
    Benefit costs or savings that would be associated with this bill 
have not yet been determined.
                      H.R. ----, In-State Tuition
    H.R. ----, In-State Tuition, would amend 38 U.S.C. Sec.  
3679(c)(2)(A) to change the definition of ``covered individual'' by 
which VA must disapprove a course of education offered by a public IHL 
if the institution does not charge the in state tuition and fees for 
covered individuals who are training under Chapter 30 or 33. The 
amendment would remove the current requirement that the covered 
individual have been discharged from service less than 3 years before 
the date of enrollment in the subject course. The proposed legislation 
would also require VA to make publicly available online a database 
explaining the residency requirements for each public IHL in order for 
an individual to be charged the in-state tuition and fee rate and allow 
VA to disapprove a course of education provided by a public IHL if the 
institution does not provide VA certain information.
    VA supports the intent of the proposed legislation, subject to 
Congress finding appropriate funding offsets, but notes several 
concerns. First, the bill would only allow VA to disapprove a program 
of education at a public IHL for qualifying covered individuals under 
Chapters 30 and 33. As such, the bill would not allow for the 
disapproval of a program for beneficiaries receiving educational 
assistance under other VA educational assistance programs, such as 
those under Chapters 32 and 35.
    Second, the bill outlines VA's authority to disapprove a course of 
education provided by a public IHL if the institution does not 
initially provide their ``residency requirement'' and update VA of any 
changes or updates to their policy within 90 days. However, as written, 
it does not provide VA the authority to waive the new disapproval 
requirement as the Secretary considers appropriate. Additionally, 
proposed subsection (c)(4)(B) refers to a public IHL having ``residency 
requirements,'' but ``residency requirements'' are inconsistent with 
the provisions of current subsection (c)(4) which limits additional 
requirements to ``demonstrat[ing] an intent to establish residency in 
the State. . . or to satisfy other requirements not relating to the 
establishment of residency.'' The essential principle underlying the 
safeguards in section 3679(c) is the fact that in many states a student 
is prohibited by law from satisfying the residency requirements to be 
charged in-state tuition; however, the current wording of proposed 
subsection (c)(4)(B) implies that a school may require a student to 
become a resident of the state in order to qualify for in-state rates 
under 38 U.S.C. Sec.  3679.
    Benefit costs or savings that would be associated with this bill 
have not yet been determined.

Conclusion

    This concludes my statement, Mr. Chairman. We would be happy now to 
entertain any questions you or the other Members of the Subcommittee 
may have.

                                 <F-dash>
                            ASHLYNNE HAYCOCK
    The Tragedy Assistance Program for Survivors (TAPS) is the national 
nonprofit organization providing compassionate care for the families of 
America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, grief seminars and retreats for 
adults; Good Grief Camps for children; and casework assistance, 
connections to community-based care, online and in-person support 
groups, and a 24/7 resource and information helpline for all who have 
been affected by a death in the Armed Forces. Services are provided 
free of charge.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 85,000 bereaved 
surviving family members. For more information, please visit TAPS.org.
    TAPS receives no government grants or funding.
    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the House Veterans Affairs Committee, the Tragedy Assistance Program 
for Survivors (TAPS) thanks you for the opportunity to make you aware 
of issues and concerns of importance to the families we serve, the 
families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD), the 
Department of Veterans Affairs (VA), Department of Education (DoED), 
Department of Labor, state governments, government contractors, and 
local communities for the families of the fallen - those who fall in 
combat, those who fall from invisible wounds and those who die from 
accidents, illness or disease.
    TAPS was honored to enter into a new and expanded Memorandum of 
Agreement with the Department of Veterans Affairs in 2017. This 
agreement formalizes what has been a long-standing, informal working 
relationship between TAPS and the VA. The services provided by TAPS and 
VA are complementary, and in this public-private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Discussion Draft - Guard & Reserve

    TAPS is excited to see our #2 priority before this committee: 
Providing parity for surviving children and spouses of those whose 
loved ones died while serving in the Guard and Reserves. Their service 
and sacrifices are no different than those serving on Active duty. 
While most survivor benefits are now equal, education benefits are not. 
It's time to make sure Guard and Reserve surviving families have the 
same access to the Fry Scholarship as their Active duty counterparts.
    Some of the stories TAPS has heard from our surviving families 
regarding this issue are absolutely heartbreaking.
    First Sergeant John DuPont served his country honorably for nearly 
30 years. He served in the United States Marine Corps and then the Army 
National Guard. During his National Guard service, he was deployed to 
Afghanistan. Upon his return, he continued with the National Guard but 
lost his battle with Post Traumatic Stress (PTS) when he died by 
suicide in 2011. First Sergeant DuPont took his own life just hours 
after returning home from a drill weekend where he was preparing for an 
upcoming deployment. Had he died a few hours earlier before coming 
home, his children would have been eligible for the Fry Scholarship. 
They were deemed ineligible because he made it home from his Guard 
weekend, and once home was not considered on Active duty status.
    SPC Anthony Tipps was a member of the Texas National Guard. 
Specialist Tipps was activated in 2009 and had to leave his career for 
his deployment to Iraq. When he returned home one year later, he 
learned that his former employer had not held his job. He was unable to 
find employment. Specialist Tipps died by suicide less than 3 months 
after returning from Iraq. Because he was not considered on ``Active 
duty status'' at the time of his death, his daughter Brittany was 
deemed ineligible for the Fry Scholarship, even though his death was 
service-connected.
    Colonel David McCracken served honorably in the Army and Army 
Reserves for over 20 years. During his military career he was deployed 
multiple times. On his last tour he was activated as a reservist and 
deployed to the Middle East. Upon return from his deployment, he was 
diagnosed with brain cancer which was found to be service-connected due 
to burn pit exposure in Iraq. Because he was not on active-duty orders 
or training at the time of his death, his children are not eligible for 
the Fry Scholarship.
    These are just three of the stories TAPS has heard from surviving 
families regarding eligibility for the Fry Scholarship. In the case of 
First Sergeant DuPont, literally hours differentiate what benefits his 
children receive. The families have no say in the duty status of the 
service member, therefore they should not be treated differently. TAPS 
firmly believes that we must honor the service and sacrifice of all 
surviving families.
    Six months ago, TAPS spoke with Former Congressman Chet Edwards who 
wrote and introduced the original Fry Scholarship in 2009. When we 
informed him of this issue he was stunned. His original intent was to 
include all surviving families. He had no idea that some Guard and 
Reserve families were being excluded, and has offered his support in 
fixing this inequity.
    TAPS estimates 1,000-1,500 surviving children and spouses would 
benefit from this expansion. A vast majority are surviving families 
whose loved ones died from service-connected illnesses or by suicide. 
These families are in receipt of Dependency and Indemnity Compensation 
(DIC) at the same rate as Active duty losses, receive TRICARE and 
almost all of the same benefits as Active duty losses.
    Providing parity in education is long overdue and we look forward 
to seeing this bill passed and implemented. This is part of a long-term 
TAPS goal to bring all survivors into the Fry Scholarship and phase out 
the Vietnam Era Dependents Education Assistance (Chapter 35).

Discussion Draft - In-State Tuition

    TAPS is excited to see an expansion of In-State Tuition as a 
priority for the committee. While all Fry Scholarship recipients 
currently receive in-state tuition, thanks to the Choice Act, TAPS 
recommends the inclusion of Chapter 35 recipients.
    Chapter 35 recipients are often forgotten from legislation. The 
$200 increase provided by the Forever GI Bill, is still not comparable 
with the Montgomery GI Bill. If we are going to provide in-state 
tuition across the board, we should include survivors whose benefits 
are not enough to cover tuition at a state school. Since the financial 
burden for in-state tuition falls on individual states, this should be 
an easy fix for the committee.

Discussion Draft - Transition Assistance

    Military-to-Civilian transition is a psychological and cultural 
evolution that requires a new definition of wellness as service members 
shift from a collectivist community into an individualistic one. VA 
research indicates that veterans who are engaged in care are far less 
likely to die by suicide. Such support increases the likelihood of a 
positive transition into civilian life and is a significant protective 
factor which reduces potential risks for serious issues facing this 
population, such as suicide. Conversely, 14 of the 20 veterans who die 
by suicide each day are not engaged in VA care.
    Given the high stakes of helping our nation's service members make 
a successful transition, TAPS is grateful to see such effort put into 
overhauling the Transition Assistance Program. Our team of suicide 
prevention and postvention subject matter experts is available to 
support strategic planning efforts as the TAP program is re-envisioned. 
While many key aspects were updated by the 2019 NDAA, there is still 
much work to do. TAPS supported the Navy Seal Chief Petty Officer Bill 
Mulder Transition Improvement Act last year, and we look forward to 
seeing it pass this year.

Discussion Draft - Definition of dependents

    TAPS supports the draft text to make sure the definition of 
``dependents'' is the same for the Department of Defense (DoD) and the 
Department of Veterans Affairs (VA). At TAPS, we know that not all 
family is blood related and applaud the committee for including this 
definition.

Discussion Draft - 4th Administration, VETOPP Act

    TAPS continues to support the creation of a 4th Administration 
under the Department of Veterans Affairs. We understand and respect 
that VA has concerns about this issue. TAPS agrees with our partner 
organizations, Student Veterans of America and the Veterans of Foreign 
Wars, that it is imperative that Economic Opportunity have its own 
under secretary.
    Responsibilities of this new division at VA would include the 
administration of housing loan guaranty and related programs, 
vocational rehabilitation and employment (VR&E), education assistance 
programs, and transition programs.
    At present, these programs are buried within the bureaucracy of VA 
and lack a true champion at the level of leadership these programs 
warrant. Over the past century, VA has evolved to focus on compensating 
veterans for loss. Yet realities and advances of the 21st century and 
beyond demands the additional goal of empowering veterans to excel 
post-service. Importantly, this will also advance our nation's goals of 
enhancing economic competitiveness by focusing on veteran contributions 
to be future economy, it is imperative we afford VA the opportunity to 
enrich the lives of veterans through the primacy of VA's economic 
opportunity programs.
    The implementation of the Forever GI Bill last year highlighted 
many concerns. With the passage of the VETOPP Act, the VA may be better 
prepared for other improvements to EO programs and allow these 
important programs to be a priority for the VA.

    TAPS thanks the committee and the original sponsors of all this 
important legislation. We greatly appreciate your thoughtful 
consideration of the needs of our nation's veterans and surviving 
families.

    It is the responsibility of the nation to provide for the support 
of the loved ones of those who have paid the highest price for freedom. 
Thank you for allowing us to speak on their behalf.

                                 <F-dash>
                             PATRICK MURRAY
    Chairman Levin, Ranking Member Bilirakis, and members of the 
Subcommittee, on behalf of the men and women of the Veterans of Foreign 
Wars of the United States (VFW) and its Auxiliary, thank you for the 
opportunity to present our views on legislation being considered today.

H.R. 95, Homeless Veteran Families Act

    Veterans with dependent children face diverse burdens with access 
to homelessness benefits. The VFW supports this legislation, which 
would ensure Grant and Per Diem providers are better able to provide 
much needed housing to homeless veterans with dependent children. The 
brave men and women who have worn our nation's uniform should never 
have to worry about whether their children will have a roof over their 
heads or food on the table. Providing additional per diem for the 
children of homeless veterans in the Grant and Per Diem Program would 
expand housing options for veterans and enable the Department of 
Veterans Affairs (VA) and the Department of Housing and Urban 
Development (HUD) to reduce the rate of veterans who face homelessness.

H.R. 444, Reduce Unemployment for Veterans of All Ages Act of 2019

    The VFW supports this proposal to remove the twelve-year limit on 
utilizing the Vocational Rehabilitation & Employment (VR&E) program. 
Arbitrary cut-off dates for VA benefits and programs do not help 
veterans who need to use these programs later on in life. Just like the 
lessons learned from the removal of the delimitating date with the 
Forever GI Bill, doing the same with VR&E removes a potential barrier 
for veterans to acquire meaningful employment.

Discussion Draft, to amend title 38, United States Code, to make 
    certain improvements to the educational assistance programs of the 
    Department of Veterans Affairs with respect to flight training 
    programs and certain other programs of education, and for other 
    purposes.

    The VFW supports this legislation, which would place a cap on the 
amount of tuition and fees that may be paid under the Post-9/11 GI Bill 
for programs of education in which a public institution of higher 
education enters into an agreement with a private entity to provide 
such education. However, the VFW would like to suggest a recommendation 
to improve this legislation.
    Currently, third party training programs that contract with public 
schools are able to charge unlimited tuition and fees because the Post-
9/11 GI Bill covers the full cost of in-state tuition and fees, 
regardless of amount, for public non-profit institutions of higher 
learning. In the past two years, it has come to light that some 
contracted flight training programs have charged exorbitant fees, which 
far exceeded the cost of an average in-state education, to profit from 
exploitation of this loophole. The VFW believes this loophole must be 
closed by placing a reasonable cap on these flight training programs.
    Still, we believe that veterans should have a path to receive the 
training necessary to enter highly technical, high-demand fields like 
aviation, which offer good paying jobs to those who are qualified. We 
also recognize that it may not be realistic for certain flight schools 
to provide that training under the private school cap per academic 
year. To mitigate this concern, this legislation would authorize VA to 
provide accelerated payments of twice the monthly entitlement amount 
for tuition and fees.
    Doing so would enable predatory institutions to continue to gouge 
VA and force veterans to forego eligibility months simply because the 
cap for such programs is not sufficient. For this reason, we urge this 
subcommittee to authorize VA to determine reasonable caps for flight 
training and similarly contracted training in other high-demand fields, 
but ensure such programs offer transparency in their fee schedules and 
cannot simply charge the government an arbitrary rate.
    To ensure VA does not set unreasonable caps on contracted programs, 
the VFW recommends requiring VA to seek congressional approval before 
proposed caps are implemented. The VFW also continues to support strict 
enforcement of standing VA policies, which ensures that third-party 
contractors and their partner schools are charging appropriate fees, 
while continuing to offer high-quality training to veterans.

H.R. 1718, GI Education Benefits Fairness Act

    A discrepancy between VA and the Department of Defense (DOD) 
definition of children precludes service members from transferring 
their VA education benefits to their foster or ward children. DOD and 
VA having separate eligibility requirements for the same benefit is an 
unfair and confusing practice that must end.
    While we support this bill, which would align the definitions of 
children for the purpose of transferring VA educational benefits, the 
VFW urges the subcommittee to consider changing VA's overall definition 
of children to include foster and ward children. Making such a change 
would be more comprehensive and could impact other beneficiaries who 
might unintendedly be affected by these differing definitions.

Discussion Draft, Justice for Servicemembers Act

    The VFW supports this bill, which would end the practice of making 
service members waive protections in order to attain employment. The 
Uniformed Services Employment Rights Act of 1994 was created to protect 
service members' employment status, and we fully endorse any actions to 
prevent employers from circumventing those protections.

Discussion Draft, to amend the United States Housing Act of 1937 and 
    title 38, United States Code, to expand eligibility for the HUD-
    VASH program, to direct the Secretary of Veterans Affairs to submit 
    annual reports to the Committees on Veterans' Affairs of the Senate 
    and House of Representatives regarding homeless veterans, and for 
    other purposes.

    Veterans with Other Than Honorable (OTH) discharges are at higher 
risk of dying by suicide and experience higher rates for homelessness 
than those who receive an honorable discharge. The VFW supports this 
bill, which would rightfully ensure OTH veterans have access to the 
HUD-VA Supportive Housing (VASH) program.

Discussion Draft, Homes for Our Heroes Act of 2019

    Veterans fortunate enough to obtain HUD-VASH vouchers often face 
difficulty finding homes in safe neighborhoods. VFW service officers in 
various cities have reported that homeless veterans sometimes prefer 
sleeping under a bridge rather than living in the unsafe neighborhoods 
for which their vouchers are eligible. The VFW supports this bill which 
would review the HUD-VASH program to ensure vouchers put veterans in 
safe and secure housing.

Discussion Draft, Veteran Employment and Child Care Access Act

    Homeless veterans with dependent children often forego their earned 
benefits because they have no means to afford child care. Currently, VA 
has four pilot programs which offer on-site child care. These programs 
have been successful in increasing access to services for veterans. The 
VFW supports this bill, which would provide child care so homeless 
veterans have the opportunity to complete the training they need to 
obtain meaningful employment.

Discussion Draft, BRAVE Act (Boosting Rates of American Veteran 
    Employment Act)

    The VFW supports this proposal to incentivize and reward companies 
for employing veterans. We also support the proposed debarment of 
companies contracting with VA that willfully and intentionally 
misrepresent the percentage of veteran employees. Employing veterans 
and working to serve veterans through VA should be a privilege and not 
something to be taken advantage of.

Discussion Draft, to clarify seasoning requirements for certain 
    refinanced mortgage loans, and for other purposes.

    The VFW understands there were unintended consequences affecting 
upwards of 2,500 users of VA's home loan program who were seeking to 
refinance their mortgages. We feel this correction should be made in 
order to not unintentionally hurt those Ginnie Mae was trying to 
protect.

Discussion Draft, Navy SEAL Chief Petty Officer William ``Bill'' Mulder 
    (Ret.) Transition Improvement Act

    The VFW proudly supports this proposal which would ease the burden 
of transition for service members. The period of moving from Active 
duty to civilian life can be challenging for transitioning service 
members (TSMs). Leaving a structured life in the military and moving to 
an entirely different atmosphere brings with it many difficulties. 
Finding a new job, moving away from base, going to school, or leaving 
friends and comrades are just some of the issues service members face 
during the military to civilian transition.
    Through the Transition Assistance Program (TAP), the Department of 
Defense in cooperation with the Department of Labor, the Department of 
Veterans Affairs and the Small Business Administration, ensures service 
members have a seamless path to civilian life. TAP has improved 
drastically over the past few years, but there are still many ways to 
further improve this vital program.
    The John S. McCain National Defense Authorization Act for Fiscal 
Year 2019 revised the structure of the TAP program to make sure TSMs 
could attend the career track program they want, instead of providing 
it as an additional option. The start date for beginning TAP class was 
also revised so TSMs could take the class earlier and, if possible, 
more than once before separation.
    Connecting TSMs to resources in the communities where they are 
relocating is an important step that should happen during TAP classes. 
Providing connections to organizations that offer employment training, 
education information, and financial or legal assistance is beneficial 
in a seamless transition, and must be part of the TAP class so TSMs can 
begin to make these connections before they separate.
    Another key area that needs to be addressed is the ability for 
veterans to access TAP-style information and resources after they leave 
military service. Reopening a pilot program to offer TAP in the 
community for veterans is an excellent way to provide such access. Once 
veterans reintegrate into their communities, it is important for them 
to be able to access specific transition resources that apply strictly 
to their local communities. Veterans who participated in TAP in the 
community pilot program were able to access information and resources 
they may have missed during their initial TAP classes.

VET OPP Act

    Currently, the Economic Opportunity (EO) programs are enmeshed with 
the myriad of entities that make up the Veterans Benefits 
Administration (VBA). Compensation, being the largest program, 
dominates the attention of the VBA which makes it difficult for the EO 
programs to get adequate funding, specialized resources, and other 
prioritization. For example, while the VBA has been focused on the 
modernization and streamlining of the claims and appeals process, other 
important programs such as VR&E have seen a stagnation of resources and 
oversight.
    Veterans service organizations (VSOs) agree that an under secretary 
for EO programs would provide VA the ability to better manage EO 
programs. This subcommittee, which focuses exclusively on EO programs, 
further emphasizes the advantage of having a central point of contact 
for accountability and oversight. VA, Department of Defense, and the 
Department of Labor collaborate to manage the Transition Assistance 
Program for out-processing service members, but efforts have been 
hampered by the lack of an under secretary for EO to act as a 
counterpart and coordinate efforts at VA. Since VA does not have the 
primary role in TAP, we believe having an under secretary would help 
ensure that VA's views on TAP initiatives and resources are enhanced.
    This nation should have as much focus on the economic opportunities 
of her veterans as it does on their health care and benefits. In 
reality, not all veterans seek VA health care when they are discharged; 
they do not need assistance from the National Cemetery Administration; 
nor are they all seeking disability compensation. However, the vast 
majority are looking for gainful employment and/or education. Congress 
should recognize the value of these programs by separating them into 
their own administration focused solely on their utilization and 
improvement.
    The VFW supports this proposal to separate from the VBA all 
programs currently in the EO jurisdiction and create a fourth 
administration under VA with its own under secretary whose sole 
responsibility is EO programs. This new under secretary for EO would 
refocus resources, provide a champion for these programs, and create 
that central point of contact for VSOs and Congress.

Discussion Draft, to amend title 38, United States Code, to adjust 
    certain limits on the guaranteed amount of a home loan under the 
    home loan program of the Department of Veterans Affairs, and for 
    other purposes.

    The VFW supports this bill, which would eliminate the current cap 
on the amount VA is authorized to guarantee under the VA Home Loan 
Guaranty Program. Since the 1940s, this excellent benefit has enabled 
veterans to finance a low-cost mortgage to purchase a home and become 
part of America's middle class. The price of real estate has 
significantly increased in recent years, but the amount VA is able to 
guarantee has not. Veterans in high cost-of-living areas are now forced 
to contribute costly upfront down payments to guarantee their home 
loans with VA. This barrier prohibits veterans from achieving their 
dreams of becoming homeowners.
    This bill would rightfully exempt service members who have been 
awarded the Purple Heart from paying requisite VA home loan funding 
fees. Veterans who have service-connected disabilities are exempt from 
paying such funding fees. Service members who have illnesses or 
injuries related to their service must also be offered the opportunity 
to become homeowners without being required to pay a funding fee.

Discussion Draft, to make certain improvements to the Edith Nourse 
    Rogers STEM Scholarship program of the Department of Veterans 
    Affairs.

    The VFW supports removing the specific credit hours language for 
the Edith Nourse Rogers STEM Scholarship. The VFW supported the 
extension of entitlements for STEM students. If this specific 
requirement is a barrier for students to receive the extension, then it 
should be removed. Education for veterans is a top priority for the 
VFW, and we especially want to see veterans succeed in high-demand 
fields like STEM.

Discussion Draft, to expand eligibility for the Marine Gunnery Sergeant 
    John David Fry Scholarship to children and spouses of certain 
    members of the reserve components of the Armed Forces who die from 
    service-connected disabilities, and for other purposes.

    The VFW supports expanded eligibility of this scholarship to 
children and spouses of members of the reserve component of the Armed 
Forces. Any dependent or spouse of a service member who dies from 
service-connected injuries or illness, regardless of activation status, 
should be treated equally.
    Discussion Draft, to improve the ability of veterans to receive in-
state tuition using educational assistance administered by the 
Secretary of Veterans Affairs.
    The VFW supports this proposal to improve the ability of veterans 
to receive in-state tuition. The VFW has called for in-state tuition 
rates for years, and this change is long overdue. Offering in-state 
tuition for all GI Bill users helps remove another barrier for student 
veterans to pursue their educational goals.
    Mr. Chairman, this concludes my testimony. Again, the VFW thanks 
you and the Ranking Member for the opportunity to testify on these 
important issues before this subcommittee. I am prepared to take any 
questions you or the subcommittee members may have.

                                 <F-dash>
                               JOHN KAMIN
ON ``H.R 95, H.R. 444, H.R. 1448, H.R. 1718, AND DRAFT LEGISLATION''


                            EXECUTIVE SUMMARY
 
 
 
H.R. 95, Homeless Veteran Families Act - pg. 2                  Support
------------------------------------------------------------------------
H.R. 444, Reduce Unemployment for Veterans Act                  Support
                                       - pg. 3
------------------------------------------------------------------------
    H.R 1488, To adjust certain limits on the   Support with amendments
    guaranteed amount of a home loan under the
        home loan program of the Department of
                      Veterans Affairs - pg. 4
------------------------------------------------------------------------
 H.R. 1718, GI Education Benefits Act - pg. 4                   Support
------------------------------------------------------------------------
Discussion Draft, To make certain improvements                  Support
    with respect to flight training programs -
                                         pg. 5
------------------------------------------------------------------------
 Discussion Draft, To amend the United States                   Support
      Housing Act of 1937 and title 38, United
    States Code, to expand eligibility for the
                      HUD-VASH program - pg. 6
------------------------------------------------------------------------
Discussion Draft, Homes for Our Heroes Act of                   Support
                                  2019 - pg. 7
------------------------------------------------------------------------
Discussion Draft, Veteran Employment and Child                  Support
                       Care Access Act - pg. 7
------------------------------------------------------------------------
Discussion Draft, Protect Affordable Mortgages                  Support
              for Veterans Act of 2019 - pg. 8
------------------------------------------------------------------------
 Discussion Draft, Boosting Rates of American                    Oppose
        Veteran Employment (BRAVE) Act - pg. 9
------------------------------------------------------------------------
 Discussion Draft, Justice for Servicemembers                   Support
                                   Act - pg. 9
------------------------------------------------------------------------
                   Discussion Draft, Navy SEAL Chief Petty      Support
        Officer William ``Bill'' Mulder (Ret.)
           Transition Improvement Act - pg. 10
------------------------------------------------------------------------
  Discussion Draft, To amend title 38, United                   Support
  States Code, to adjust certain limits on the
    guaranteed amount of a home loan under the
        home loan program of the Department of
    Veterans Affairs, and for other purposes -
                                        pg. 12
------------------------------------------------------------------------
Discussion Draft, to make certain improvements                  Support
   to the Edith Nourse Rogers STEM Scholarship
 program of the Department of Veterans Affairs
                                      - pg. 13
------------------------------------------------------------------------
Discussion Draft, Fry Scholarship Improvement   Support with amendments
                          Act of 2019 - pg. 13
------------------------------------------------------------------------
  Discussion Draft, to improve the ability of                   Support
    veterans to receive in-state tuition using
    educational assistance administered by the
        Secretary of Veterans Affairs - pg. 14
 

    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the committee, on behalf of National Commander Brett P. Reistad and 
our nearly 2 million members, we thank you for the opportunity to 
testify before this committee.
    The American Legion is a resolution-based organization directed and 
driven by active Legionnaires who dedicate their money, time, and 
resources to the continued service of veterans and their families. Our 
positions are guided by 100 years of advocacy and resolutions that 
originate at the grassroots level of the organization - local American 
Legion posts and veterans in every congressional district across the 
United States. The headquarters staff of The American Legion works 
daily on behalf of veterans, military personnel, and our communities 
through our roughly 20 national programs and thousands of outreach 
programs led by our posts across the country.
              H.R. 95: THE HOMELESS VETERANS FAMILIES ACT
    To amend title 38, United States Code, to ensure that children of 
homeless veterans are included in the calculation of the amounts of 
certain per diem grants

    The Homeless Veteran Families Act provides the Secretary of the 
Department of Veterans Affairs (VA) the authority to reimburse Homeless 
Providers Grant and Per Diem (GPD) Program providers at a 50% rate for 
the costs of housing minor dependent(s) of homeless veterans while the 
veteran is receiving services from the grant recipient. Currently, 38 
C.F.R. Sec. 61.33 only authorizes per diem payments to individual grant 
recipients. \1\ Consequently, service providers are not reimbursed for 
housing services provided to the veteran's dependents. The American 
Legion supports the intent of this legislation to address the 
unintended consequence of creating a disincentive for GPD providers to 
serve homeless veterans with children.
---------------------------------------------------------------------------
    \1\ 38 C.F.R. Sec. 61.33
---------------------------------------------------------------------------
    The GPD program allows VA to award grants to community-based 
agencies to create transitional housing programs and offer per diem 
payments. The purpose of the program is to promote the development and 
provision of supportive housing and supportive services with the goal 
of helping homeless veterans achieve residential stability, increase 
their skills levels, income, and obtain greater self-management.
    Through Resolution No. 24: Supporting Funding and Changes to the 
Department of Veterans Affairs Grant and Per Diem Program, The American 
Legion supports legislation that expands the criteria of per diem 
payments for homeless veterans with specialized needs and veterans with 
dependents. \2\
---------------------------------------------------------------------------
    \2\ American Legion Res. No. 24 (2018): Supporting Funding and 
Changes to the Department of Veterans Affairs Grant and Per Diem 
Program

The American Legion supports H.R. 95.
   H.R. 444: REDUCE UNEMPLOYMENT FOR VETERANS OF ALL AGES ACT OF 2019
    To amend title 38, United States Code, to eliminate the period of 
eligibility for the Vocational Rehabilitation and Employment program of 
the Department of Veterans Affairs

    The deployment of active-duty servicemembers, national guardsmen, 
and reservists, in support of Operation Iraqi Freedom and Operation 
Enduring Freedom, led to an increase of service-connected disabilities 
after servicemember separation. VA's Vocational Rehabilitation and 
Employment (VR&E) Program provides comprehensive services and 
assistance to veterans with service-connected disabilities and 
employment handicaps. The goal of the program is to enable the service-
disabled veteran to achieve maximum independence in daily living, 
become employable, and obtain and maintain suitable employment.
    The standard period of eligibility for VR&E benefits is limited to 
12-years from the date of separation from military service or the date 
of notification by VA of a service-connected disability rating. 
Unfortunately, not all disabled veterans are aware of their possible 
eligibility when separating from their service and some may not need 
VR&E until later in their career. This legislation eliminates the 12-
year limitation to participate in the program and extends opportunities 
and resources to deserving veterans.
    The American Legion recognized this in 2016 when it passed a 
resolution asking Congress to lift the delimiting date for 
participation in the program.

    Through Resolution No. 336: Support Legislation that Would Change 
the 12-Year Delimiting Date for Eligibility to Chapter 31 Benefits, The 
American Legion supports eliminating the 12-year expiration date for 
chapter 31 benefits. \3\
---------------------------------------------------------------------------
    \3\ American Legion Res. No. 336 (2016): Support Legislation that 
Would Change the 12-Year Delimiting Date for Eligibility to Chapter 31 
Benefits

---------------------------------------------------------------------------
The American Legion supports H.R. 444.

                               H.R. 1448
    To amend title 38, United States Code, to waive fees for Purple 
Heart recipients serving on Active duty for loans guaranteed under the 
home loan program of Department of Veterans Affairs

    The Purple Heart is a symbol of the sacrifice made by a 
servicemember to their country. Active duty Purple Heart recipients who 
meet the 90-day continuous service requirement are eligible for the VA 
Home Loan Guaranty Program. Current law waives the VA funding fee for 
veterans with a VA rating for a service-connected disability. However, 
Active duty Purple Heart recipients who have not initiated or received 
their VA disability claim are required to pay the funding fee.
    This legislation makes technical changes to the VA Home Loan 
Guaranty Program. The American Legion supports legislation that closes 
the loophole that requires payment of the funding fee for Purple Heart 
recipients and their surviving spouses. The proposed legislation 
further extends the VA home loan funding fee waiver to Active duty 
Purple Heart recipients that have not received a VA disability rating.
    The American Legion believes Active duty Purple Heart recipients 
should not be penalized and required to pay the funding fee because 
they continue to serve on Active duty. Furthermore, this draft 
legislation also includes language that changes the characterization of 
surviving spouses as stand-alone and independent recipients of the 
funding fee waiver, thus removing additional explanations and ambiguity 
related to their funding fee waiver eligibility.
    While The American Legion applauds waiving this fee for Purple 
Heart recipients, it holds that the VA Home Loan funding fee should be 
removed for all veterans.

    Through Resolution No. 314: Support Elimination of the VA Home Loan 
Funding Fee, The American Legion strongly urges this committee to 
remove the VA Home Loan funding fee requirement. \4\
---------------------------------------------------------------------------
    \4\ Resolution No. 314 (2016): Support Elimination of the VA Home 
Loan Funding Fee

The American Legion supports this Draft Bill but requests the removal 
    of funding fee requirements for all veterans.
             H. R. 1718: GI EDUCATION BENEFITS FAIRNESS ACT
    To amend title 38, United States Code, to provide for clarification 
regarding the children to whom entitlement to educational assistance 
may be transferred under the Post-9/11 Educational Assistance Program

    One of the many innovations of the Post-9/11 GI Bill is the ability 
for servicemembers to transfer their earned education benefits to their 
spouses or children. However, incongruent statutory language resulted 
in ward and foster children being denied the same privileges of 
transferability as adopted child or biological children.
    This policy on transferability is not explicitly stated in any VA 
literature or guidance and only recently articulated in 2018 in The 
Department of Defense's (DOD) Transfer of Education Benefits (TEB) 
Beneficiary Guide. The guidelines state, ``wards and foster children 
are not considered dependents by the Department of Veterans Affairs.'' 
\5\
---------------------------------------------------------------------------
    \5\ Transfer of Education Benefits (TEB) Beneficiary Guide, 
milConnect TEB Version 1.09, Pg. 27, Department of Defense Manpower 
Data Center, November 9, 2018 https://milconnect.dmdc.osd.mil/
milconnect/help/pdf/teb--beneficiary--guide.pdf (accessed March 28, 
2019)
---------------------------------------------------------------------------
    DOD clarified the statutory discrepancy as under U.S.C. Title 10 
authority, wards, and foster children meet the definition of an 
eligible child for education benefits, however under 38 U.S.C. Sec.  
101(4)(A), wards and foster children are excluded from the VA's 
definition of the term ``child'' for the purpose of benefits delivery.
    The American Legion urges Congress to correct the misalignment, and 
H.R. 1718 would accomplish this by clarifying the definition of 
``children'' to be consistent with DOD's statutory language.

    Through Resolution 308: Amending the Eligibility for the Transfer 
for the Post-9/11 GI Bill Educational Benefits, The American Legion 
supports legislation that would authorize servicemembers to use 
transferability entitlements towards their children, regardless if they 
are wards, foster, or biological. \6\
---------------------------------------------------------------------------
    \6\ American Legion Res. No. 308 (2016): Amending the Eligibility 
for the Transfer for the Post-9/11 GI Bill Educational Benefits

The American Legion supports H.R. 1718.
                            DISCUSSION DRAFT
    To make certain improvements to the educational assistance programs 
of the Department of Veterans Affairs concerning flight training 
programs and certain other programs of education, and for other 
purposes

    The American Legion supports legislation to improve cost control 
measures for flight programs offered by colleges and universities. In 
2015, The Los Angeles Times exposed how some institutions of higher 
learning had instituted extreme costs for flight fees. Presently, no 
caps exist for public schools. \7\ After exposure by the LA Times, VA 
and State Approving Agencies (SAAs) increased oversight resulting in 
lowered overall expenditures for flight training to $48.4 million in 
2016, from a height of $79.8 million in 2014.
---------------------------------------------------------------------------
    \7\ U.S. taxpayers stuck with the tab as helicopter flight schools 
exploit GI Bill loophole - March 15, 2015 http://www.latimes.com/
nation/la-me-adv-gibill-20150315-story.html#page=1
---------------------------------------------------------------------------
    Among the external factors responsible for this reduction was a 
100% compliance survey conducted by SAAs in 2015. The survey resulted 
in 12 suspensions and withdrawals; largely due to violations of the 85-
15 rule requiring that no more than 85 percent of flight-training 
students at public schools can attend using GI Bill funds. However, the 
mandate to micromanage flight programs is unsustainable, even as 
institutions learn to adjust to requirements while hedging veteran 
credit enrollment. For these reasons, The American Legion believes a 
solution is still necessary to ensure Post-9/11 GI Bill dollars remain 
an honorable investment by the public.
    The obligation to protect from abuse must be measured against the 
responsibility our nation has to veterans who aspire to careers in 
aviation using the GI Bill. Legislation capping the maximum GI Bill 
amount per year for flight schools would have the inevitable 
consequence of discouraging pursuit of this vocation, with greater debt 
incurred by veterans and servicemembers who remain committed to the 
vocation.
    This draft legislation accounts for both of these considerations. 
The language sets specific caps, and provides the option for veterans 
to elect to spend remaining months of entitlement to accelerate 
payments at a rate of up to twice the amount for tuition and fees.
    As a practical example: if a veteran enrolls in a flight program 
costing $45,700 in tuition and fees, this draft legislation would cap 
GI payment at $23,672 (the maximum 2018-2019 tuition reimbursement for 
private schools). The veteran than has to pay half, but can then elect 
to have the GI Bill cover the remaining tuition by accelerating GI Bill 
payments for 12 additional months, covering the full cost of tuition.
    This solution appears to alleviate concerns of discouraging 
veterans from pursuit of a career in aviation, while putting the choice 
in the hands of the veteran for how to appropriately allocate their GI 
Bill. The American Legion commends the Committee for this measured 
approach, and is encouraged by the cost savings made in aviation 
programs.
    Through Resolution No. 23: Close the GI Bill Flight School 
Loophole, The American Legion supports legislation that aligns the cost 
of Post-9/11 GI Bill Chapter 33 tuition and fees allowable for flight 
training at a public institution of higher learning, provided that all 
cost-savings projected by these measures be reallocated to Department 
of Veterans Affairs education programs. \8\
---------------------------------------------------------------------------
    \8\ American Legion Res. No. 23 (2018): Close the GI Bill Flight 
School Loophole

The American Legion supports this Draft Bill.
                            DISCUSSION DRAFT
    To amend the United States Housing Act of 1937 and title 38, United 
States Code, to expand eligibility for the HUD-VASH program

    Currently, HUD-VASH provisions in 42 U.S.C. Sec. 1437 do not define 
the term `veteran.' As a result, the Department of Housing and Urban 
Development's interpretation of the statute limits the Department's 
ability to provide the services expected of the HUD-VASH program. This 
draft legislation defines the term `veteran' as it relates to the 
staffing of VA Case Managers responsible for housing program services 
set forward in 38 U.S.C. Sec. 2003. Moreover, this draft legislation 
increases oversight and promotes accountability for homeless veteran 
programs.
    Further, it removes 42 U.S.C. Sec. 1437 and 38 U.S.C. Sec. 2003 
`zone of ambiguities' thereby aligning the intent of the HUD-VASH 
Program with the expected outcomes, and establishes the minimum 
frequency and mandated reporting requirements of homeless veteran 
program updates to the Committee on Veterans' Affairs of the Senate and 
the House of Representatives. \9\
---------------------------------------------------------------------------
    \9\ Matthew C. Stephenson, ``Statutory interpretations by 
agencies,'' Research handbook on public choice and public law, ed. 
Daniel A Farber and Anne O'Connell, 288. http://www.law.harvard.edu/
faculty/mstephenson/2011PDFs/
Statutory%20Interpreation%20by%20agencies.pdf
---------------------------------------------------------------------------
    Through Resolution No. 332: Support Funding for the Department of 
Housing and Urban Development (HUD) and Veterans Affairs (VA) 
Supportive Housing (HUD-VASH) Homeless Program \10\, The American 
Legion supports legislation that expands the criteria for HUD-VASH 
eligibility.
---------------------------------------------------------------------------
    \10\ Resolution No. 332 (2016) Support Funding for the Department 
of Housing and Urban Development (HUD) and Veterans Affairs (VA) 
Supportive Housing (HUD-VASH) Homeless Program

---------------------------------------------------------------------------
The American Legion supports this Draft Bill.

    DISCUSSION DRAFT: HOMES FOR OUR HEROES ACT OF 2019

    To provide for greater transparency in the HUD-VASH supported 
housing program for homeless veterans, and for other purposes

    Current law allows VA and HUD to authorize and determine the 
formula and criteria used to allocate HUD-VASH vouchers in a given 
geographical area. ``Other factors'' is the term used to characterize 
the variables used to make voucher allocations. This legislation 
increases legislative oversight and federal agency accountability for 
the HUD-VASH program by requiring reports and hearings covering the 
program's discretionary policies and priorities.
    Through Resolution No. 332: Support Funding for the Department of 
Housing and Urban Development (HUD) and Veterans Affairs (VA) 
Supportive Housing (HUD-VASH) Homeless Program \11\, The American 
Legion supports legislation that improves HUD-VASH transparency.
---------------------------------------------------------------------------
    \11\ American Legion Res. No. 332 (2016) Support Funding for the 
Department of Housing and Urban Development (HUD) and Veterans Affairs 
(VA) Supportive Housing (HUD-VASH) Homeless Program

The American Legion supports the Homes For Our Heroes Act of 2019.
     DISCUSSION DRAFT: VETERAN EMPLOYMENT AND CHILD CARE ACCESS ACT
    To amend title 38, United States Code, to require the Secretary of 
Veterans Affairs to provide child care assistance to veterans receiving 
certain training or vocational rehabilitation, and for other purposes

    In 2010, Congress established a childcare pilot program as part of 
the Caregivers and Veterans Omnibus Health Services Act of 2010, signed 
into law in 2011. The program established childcare for veterans while 
receiving health care services at a VA facility.
    The American Legion continues to advocate for making the child care 
pilot program permanent through the Veterans' Access to Child Care Act 
in the Senate. It is with the same conviction that we believe access to 
childcare services must be granted to veterans participating in 
workforce programs.
    Many veterans possess the skillsets and experience to meet a wide 
array of critical workforce requirements. The Vocational Rehabilitation 
and Employment (VR&E) program provides a training pathway to meet these 
requirements. However, a lack of childcare often inhibits pursuit of 
education and training by eligible veterans. Too often veterans settle 
for low paying jobs to make ends meet because childcare is expensive 
and subsidies are limited. Further, this lack of childcare 
disproportionately disenfranchises women veterans as the primary 
caretakers of dependent children.
    The Veterans Employment and Child Care Access Act will provide 
access to child care services to a veteran who is the primary caretaker 
of a child; and participates in VA or DOL workforce or job training 
program, to include VR&E. Eligible veterans will be provided a stipend 
for payment of child care at a licensed provider or receive direct 
childcare at an on-site facility at VA.
    Through Resolution No. 43: Department of Veterans Affairs Child 
Care Program \12\, The American Legion supports legislation to provide 
child care services to veterans with children for the veteran to 
receive access to the quality care they have earned.
---------------------------------------------------------------------------
    \12\ American Legion Res. No. 43 (2016): Department of Veterans 
Affairs Child Care Program

The American Legion supports the Veteran Employment and Child Care 
    Access Act.
DISCUSSION DRAFT: PROTECT AFFORDABLE MORTGAGES FOR VETERANS ACT OF 2019
    To clarify seasoning requirements for certain refinanced mortgage 
loans, and for other purposes

    Predatory and exploitative non-bank lenders are targeting Veterans 
and service-members with questionable home loans and home refinance 
options. This tactic is known as loan churning. The American Legion 
urges Congress to support legislation that will stop misleading and 
illegal mortgage refinance advertisements directed at service-members 
and veterans. This legislation attempts to reduce loan churning by 
specifying a loan age requirement--loan seasoning--before a veteran can 
refinance, thus disincentivizing questionable lenders.
    American Legion Resolution No. 329: Support Home Loan Guaranty 
Program \13\ supports legislation that ends predatory loan churning 
targeting veterans with VA home loans.
---------------------------------------------------------------------------
    \13\ American Legion Res. No. 329 (2016): Support Home Loan 
Guaranty Program

The American Legion supports the Protect Affordable Mortgages for 
    Veterans Act of 2019.
DISCUSSION DRAFT: BOOSTING RATES OF AMERICAN VETERAN EMPLOYMENT (BRAVE) 
                                  ACT
    To authorize the Department of Veterans Affairs (VA), in awarding a 
contract for the procurement of goods or services, to give preference 
to offerors based on the percentage of the offeror's full-time 
employees who are veterans

    The American Legion supports veteran entrepreneurship programs 
because small businesses form the backbone of the US economy. According 
to SBA, small businesses were responsible for about 1.9 million new 
jobs in 2018. \14\ One reason for outsourcing some federal functions to 
the private sector is to create jobs. While The American Legion 
supports programs that encourage federal contractors to hire veterans, 
we refrain from supporting the proposed language, at this time.
---------------------------------------------------------------------------
    \14\ ``Small Businesses Drive Job Growth in the U.S. / The U.S. 
Small Business Administration.'' Small Business Administration, 
www.sba.gov/advocacy/small-businesses-drive-job-growth-us.
---------------------------------------------------------------------------
    The inclusion of the proposed Sec. 8129 potentially gives higher 
preference to large businesses over small veteran owned businesses when 
a solicitation is released on an unrestricted basis. By sheer size and 
capacity, large corporations with national footprint will always be 
able to employ more veterans than small businesses. The American Legion 
does not want veteran small businesses to be permanently disadvantaged 
when competing against large corporations in the federal market space. 
Until the impact to small businesses is clarified and this issue is 
resolved, The American Legion withholds our support.

The American Legion does not support the BRAVE Act as currently 
    written.
       DISCUSSION DRAFT - JUSTICE FOR SERVICEMEMBERS ACT OF 2019
    To amend title 38, United States Code, to clarify the scope of 
procedural rights of members of the uniformed services with respect to 
their employment and reemployment rights, and for other purposes

    As currently drafted, the Uniformed Services Employment and 
Reemployment Rights Act of 1994 fails to adequately support military 
personnel returning to civilian employment. Countless employers violate 
rules laid out in U.S.C. Title 38. This draft legislation strengthens 
the protections in current law to ensure servicemembers' employment and 
reemployment rights are effectively enforced under the Uniformed 
Services Employment and Reemployment Rights Act of 1994.
    A notable lawsuit filed by Michael T. Garrett, a Lieutenant Colonel 
in the Marine Corps Reserve, stated his employer violated the Uniformed 
Services Employment and Reemployment Act (USERRA), 42 U.S.C. Sec. 4301, 
by wrongfully terminating his employment. Lt. Col. Garrett chose to 
file because his employer did not respond to his initial complaint. On 
the contrary, the employer filed a motion to compel arbitration.
    Servicemembers struggle daily to balance their dual military and 
civilian lives, only to return and find their employers did not uphold 
the same balance. The Justice for Servicemembers Act of 2019 is a 
critical improvement to a ensure remedy for heroes such as Lt. Col. 
Garrett.
    Through Resolution No. 85: Support Employment and Reemployment 
Rights of National Guard and Reservists Returning from Deployment, The 
American Legion supports amending and strengthening USERRA to ensure 
the National Guard and reservists receive the employment and 
reemployment rights afforded to them through their dedicated service to 
the country and as required under law. The American Legion supports 
explicitly stating USERRA supersedes the Federal Arbitration Act of 
1924, so servicemembers cannot be blocked from utilizing the court 
system by arbitration agreements. \15\
---------------------------------------------------------------------------
    \15\ American Legion Res. No. 85 (2017): Support Employment and 
Reemployment Rights of National Guard and Reservists Returning from 
Deployment

The American Legion supports the Justice for Servicemembers Act.
  DISCUSSION DRAFT: THE NAVY SEAL CHIEF PETTY OFFICER WILLIAM `BILL' 
            MULDER (RET.) TRANSITION IMPROVEMENT ACT OF 2019
    To amend the Social Security Act, to amend the Dignified Burial and 
Other Veterans' Benefits Improvement Act of 2012, and to direct the 
Secretaries of Veterans Affairs, Defense, Labor, and Homeland Security, 
and the Administrator of the Small Business Administration, to take 
certain actions to improve transition assistance to members of the 
Armed Forces who separate, retire, or are discharged from the Armed 
Forces, and for other purposes

    This legislation would make improvements to the Transition 
Assistance Program (TAP) and the overall transition process for 
servicemembers to include an increased focus on career opportunities 
and entrepreneurship. This bill would represent the largest 
reorganization of TAP since 2011.
    The restructure would require servicemembers to choose specific 
career-oriented tracks that best suit their post-service plans and 
would require servicemembers take part in one-on-one counseling a year 
before separation to evaluate which transition pathway suits them best. 
It would authorize a five-year pilot program that grants funds to 
community providers offering wraparound transition services to veterans 
and transitioning servicemembers. Finally, the legislation would 
require a third-party entity to conduct an independent assessment of 
the TAP curriculum and require a separate longitudinal study on the 
efficacy of TAP and long-term outcomes for veterans.
    TAP is a joint program administered by the U.S. Departments of 
Defense (DoD), Department of Labor (DOL), and Veterans Affairs (VA) 
charged with providing veterans a successful transition from military 
to civilian life.
    The goal of TAP is to ease the adjustment of separating 
servicemembers during the difficult transition from Active duty into 
civilian life by offering job search assistance, medical/health 
services, the advising of available benefits, and other related 
counseling. The American Legion believes TAP represents an important 
step towards providing transitioning servicemembers, and their 
families, with the information they need to transition into civilian 
life successfully.
    Servicemembers are now mandated to attend TAP with an option for 
their spouses. However, TAP provides a tremendous amount of 
information, which at times can be extremely intricate, overwhelming, 
or even excessive to a participant. DOL's portion is three-days long 
and is responsible for most of that information. The American Legion 
recommends the course be mandated for servicemembers at different 
intervals of their careers prior to separation or transitioning into 
the civilian sector, along with pre-counseling for servicemembers 
intending to leave the military.
    The American Legion supports the independent assessment of the 
effectiveness of TAP. The purpose of this assessment is to ensure 
transitioning servicemembers are receiving the adequate skills and 
training needed to complete a seamless transition from the military to 
the civilian sector.
    There is a vast difference between a transitioning servicemember 
who served one enlistment in contrast to a transitioning servicemember 
who is retiring after 20 years of service. Differences include, but is 
not limited to, servicemembers who separate for medical reasons and/or 
other unexpected reasons.
    Additionally Congress should require DoD and DOL to submit a report 
of servicemembers who have attended TAP, branched into three cohorts: 
1) attended TAP counseling as implemented on the date of this Act; 2) 
attended TAP after the Secretaries of Defense and Labor implements 
recommended changes; and 3) those who have not attended TAP counseling. 
It is imperative this longitudinal study be conducted after each cohort 
in order to assess the efficacy and effectiveness of each change made 
to TAP.
    Furthermore, The American Legion is pleased to see language from 
H.R. 4835 included in this bill. In 2012, The American Legion helped 
push for expansion of TAP to those who had already separated from 
service. In response, Congress passed the Dignified Burial and Other 
Veterans' Benefits Improvement Act of 2012. Provisions in the act 
authorized an Off-Base Transition Training (OBTT) pilot program 
extending the TAP programs to veterans and their spouses in a 
community-based setting. The law required the pilot program be 
established by DOL in a minimum of three states, with selection 
favoring states with ``high rates of unemployment among veterans.'' DOL 
ultimately conducted 21, three-day workshops in Georgia, Washington, 
and West Virginia. Overall course ratings by participants were high. 
The OBTT pilot program expired in January of 2015.
    The inclusion of language from H.R. 4835 provides for a new five-
year pilot program and establishes 50 centers across the country to 
expand access to job resources and ensure DOL provides classes with 
job-training information. The expansion of this program will give our 
veterans and their spouses the support they deserve.
    Through Resolution No. 70: Improve Transition Assistance Program, 
The American Legion supports legislation urging Congress to thoroughly 
review TAP for maximum effectiveness in helping servicemembers 
transition to civilian life and find gainful employment, while 
encouraging cooperation and the inclusion of nationally accredited 
service organizations in their program. \16\
---------------------------------------------------------------------------
    \16\ American Legion Res. No. 70 (2016): Improve Transition 
Assistance Program

The American Legion supports the Navy SEAL Chief Petty Officer William 
    `Bill' Mulder (Ret.) Transition Improvement Act of 2019.
                            DISCUSSION DRAFT
    To amend title 38, United States Code, to adjust certain limits on 
the guaranteed amount of a home loan under the home loan program of the 
Department of Veterans Affairs, and for other purposes

    Current loan regulations contain language lowering the guaranteed 
amount of jumbo loans. Veterans purchasing homes in designated high-
cost areas receive less loan guarantee, resulting in stringent 
underwriting criteria. In addition, Native American veteran home loans 
require a memorandum of understanding with the tribal organization 
before receiving a direct VA backed home loan. Purple Heart recipients 
are required to pay the VA funding fee if they have not received a VA 
disability rating.
    Section 1 submits language that increases the amount of VA home 
loan guaranteed by removing provisions permitting the government to 
lower its liability to the maximum guaranteed amount if that amount is 
less than 25 percent of the loan. The bill eliminates restrictions to 
Native American veterans utilizing their VA home loan benefits. This 
bill includes language that eliminates the VA home loan funding fee for 
Purple Heart recipients.
    The new bill increases the government's guarantee amount to 25 
percent of the conforming loan amount, instead of, the guaranteed 
amount limit. For example, a veteran purchasing a 1 million dollar home 
would have 25% ($181,631.25) of the maximum guaranteed amount of 
$726,525 backed by the government. This new bill introduces language 
that removes the ``lesser of the maximum guarantee amount'' and 
increases the guaranteed portion to 25% of the loan. In this example, 
the guaranteed amount of a 1 million dollar home loan would be 
$250,000.
    The Veteran thus gets more of his/her loan guaranteed making them a 
more attractive customer to lenders. Lenders get more money guaranteed 
from the government minimizing risk. This bill reduces the guidelines 
of the VA guarantee. Data suggests more expensive VA home loans have a 
smaller default rate. \17\
---------------------------------------------------------------------------
    \17\ Ben Lane, ``Adding this one test could cut FHA default rates 
in half,'' Housing Wire, July 2017, https://www.housingwire.com/
articles/30672-adding-this-one-test-could-cut-fha-default-rates-in-half
---------------------------------------------------------------------------
    The bill also removes provisions in 38 U.S.C. Sec. 3762 that 
requiring VA establish a memorandum of understanding with tribal 
organizations before making a direct loan to a veteran. This 
legislation also adds language to waive fees for Purple Heart 
Recipients.
    Through Resolution No. 329: Support Home Loan Guaranty Program, The 
American Legion supports legislation ending predatory loan churning 
targeting veterans with VA home loans, and American Legion Resolution 
No. 314: Support Elimination of the VA Home Loan Funding Fee \18\, 
supports the removal of the VA Home Loan funding fee requirement.
---------------------------------------------------------------------------
    \18\ American Legion Res. No. 314 (2016): Support Elimination of 
the VA Home Loan Funding Fee

The American Legion supports this Draft Bill.
                            DISCUSSION DRAFT
    To make certain improvements to the Edith Nourse Rogers STEM 
Scholarship program of the Department of Veterans Affairs

    The American Legion wants all veterans to succeed and would like to 
see more veterans enter Science, Technology, Engineering and Math 
(STEM) fields. To support this, we successfully supported the creation 
of the Edith Nourse Rogers STEM Scholarship program, extending the GI 
Bill for up to nine additional months of eligibility for eligible 
veterans.
    Unfortunately, feedback from schools indicates provisions of this 
scholarship preclude the majority of education programs from 
participation due to the requirement that eligible programs of study be 
at least 128 semester credit hours. While 128 credit hours are a common 
requirement to earn many Bachelor of Science Degrees, it is 
exceptionally rare that the entireties of these credits are within one 
course of study. This bill eliminates this arbitrary goal post by 
striking the requirement for credit hours for completion in a standard 
undergraduate college degree.
    Through Resolution No. 318: Ensuring the Quality of Servicemember 
and Veteran Student's Education at Institutions of Higher Education, 
The American Legion supports any legislative proposal that improves the 
Post-9/11 GI Bill. \19\
---------------------------------------------------------------------------
    \19\ American Legion Res. No. 318 (2016): Ensuring the Quality of 
Servicemember and Veteran Student's Education at Institutions of Higher 
Education

The American Legion supports this Draft Bill.
       DISCUSSION DRAFT - FRY SCHOLARSHIP IMPROVEMENT ACT OF 2019
    To expand eligibility for the Marine Gunnery Sergeant John David 
Fry Scholarship to children and spouses of certain members of the 
reserve components of the Armed Forces who die from service-connected 
disabilities, and for other purposes
    Under current law, if an Active duty servicemember attends a 
training exercise, becomes ill, returns home, and then passes away, the 
branch of service considers this loss ``in the line of duty'' and 
service-connected by VA. Fry affords the family much-needed death 
gratuity benefits including the Fry Scholarship and Survivor Benefit 
Plan (SBP).
    If a reserve servicemember attends the same training exercise and 
suffers the same fate, the branch of service does not consider the loss 
``in the line of duty'', and the surviving family is ineligible for a 
line-of-duty investigation. This arbitrary difference eliminates the 
eligibility for the Fry Scholarship, and while in some cases the death 
may be deemed service connected for the purpose of SBP they are set up 
to fail.
    The Fry Scholarship Improvement Act of 2019 would establish long-
deserved parity between Active duty and reserve death gratuity 
benefits, by amending the eligibility for Fry Scholarship to include 
the child or spouse of a member of the select reserve who died not 
later than four years after the date of the last discharge, or release 
of that member from Active duty or Active duty training.
    While The American Legion applauds this effort, it is concerned 
that the statutes may be interpreted to exclude Reserve servicemembers 
who die after attending inActive duty training (IDT) under Title 10 
U.S.C. 10147 authority.
    Resolution No. 318: Ensuring the Quality of Servicemember and 
Veteran Student's Education at Institutions of Higher Education, The 
American Legion supports any legislative proposal that improves the 
Post-9/11 GI Bill. \20\
---------------------------------------------------------------------------
    \20\ American Legion Res. No. 318 (2016): Ensuring the Quality of 
Servicemember and Veteran Student's Education at Institutions of Higher 
Education

The American Legion supports the Fry Scholarship Improvement Act of 
    2019 but requests additional amendments to cover survivors of 
    persons who dies within 4 years of discharge or release from 
    inactive-duty training.
                            DISCUSSION DRAFT
    To improve the ability of veterans to receive in-state tuition 
using educational assistance administered by the Secretary of Veterans 
Affairs.

    The American Legion believes that the commitment servicemembers 
make to protect our country affords them the right in-state college 
tuition rates at public universities for VA education benefits.
    In 2014, the VA mandated that all student veterans be eligible for 
in-state tuition at public colleges and universities regardless of 
their residency status, eliminating the need for veterans seeking a 
post-secondary credential to accrue student loan debt while attending a 
public institution. While this was welcomed, it came with several 
caveats:

    <bullet>  Only applied to veterans who enroll in school within 3 
years of discharge or their dependents
    <bullet>  Fry Scholarship recipients must enroll within 3 years of 
their parent's date of death
    <bullet>  GI Bill recipients who were originally within the 3 year 
time period when they started school before July 2, 2015, but are now 
past their 3 year eligibility are not covered

    In 2016 Public Law 114-315, also known as the ``Jeff Miller and 
Richard Blumenthal Veterans Health Care and Benefits Improvement Act'' 
expanded these provisions further to:

    <bullet>  Dependents using transferred Post-9/11 GI Bill benefits 
who lives in the state where the school is located and the transferor 
is an active-duty member of the military
    <bullet>  Survivors using benefits under the Fry Scholarship who 
lives in the state where the school is located (regardless of their 
formal state of residence).

    Now, we believe that it is time to amend statutes to recognize a 
core truth: that veterans, military dependents and survivors are a 
value-add to campuses regardless of their date of separation. Just as 
the Harry W. Colmery Veterans Educational Assistance Act ushered in a 
Forever GI Bill, forever in-state tuition should follow. This Draft 
Bill assures this by striking the three-year separation cap from Title 
38.
    American Legion Resolution No. 318 supports legislation that 
improves the GI Bill so servicemembers veterans, and their families can 
maximize its usage. \21\
---------------------------------------------------------------------------
    \21\ American Legion Res. No. 318 (2016): Ensuring the Quality of 
Servicemember and Veteran Student's Education at Institutions of Higher 
Education

The American Legion supports this Draft Bill.
                               CONCLUSION
    The American Legion thanks this subcommittee for the opportunity to 
elucidate the position of the over 2.2 million veteran members of this 
organization. For additional information regarding this testimony, 
please contact Mr. Jonathan Espinoza, Policy Associate of the 
Legislative Division at The American Legion, at (202-263-5756 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="367c7345465f58594c57765a53515f59581859445118">[email&#160;protected]</a>

                                 <F-dash>
                            Rebecca Burgess
From a Social Deficit to a Social Asset Model

How Congress and the VA Can Empower Veterans and Reverse the ``Broken 
    Veteran'' Narrative

    Chairman Levin, Ranking Member Bilirakus, and distinguished members 
of this subcommittee: Thank you for the opportunity to appear here 
today, as you consider how to leverage the tremendous power of Congress 
and the United States toward uplifting our veterans in their transition 
from war to work and successful civilian lives. It is an honor.
    Caring for military veterans' well-being has been the genuine 
concern of the American public, lawmakers, and veterans' advocates 
following every armed conflict in which the US has engaged. Recognizing 
how the nation ought to deliver that care has simultaneously been its 
most consistent challenge.
    America's veterans face three significant challenges in their post-
service transition: procuring employment, accessing the education or 
training associated with particular civilian occupations, and 
overcoming the ``broken veteran'' narrative.
    Veterans' transition stress is often mistaken and mischaracterized 
as a grave mental health disorder, feeding the ``broken veteran'' 
narrative. Legislation geared only toward veteran suicide unconsciously 
perpetuates this image. Reformulating veteran legislation in the 
positive language of economic opportunity, however, emphasizes post-
service growth. Congress can instigate this through creating a Veterans 
Economic Opportunity Administration, which would benefit veterans, the 
Department of Veteran Affairs (VA), Congress, military recruitment 
efforts, and all of society.

A Public Trust, Challenged

    I would like to share two quotes with you, separated by nearly a 
century, one from a US president and one from a Veterans Board of 
Appeals lawyer. They express two distinctive but accurate sentiments 
about America's enduring attitude toward veterans and the system of 
laws that shape how America actually cares for veterans through the VA 
and other related agencies.
    In 1918, in a Christmas letter to soldiers at Walter Reed hospital, 
President Woodrow Wilson echoed a long line of American sentiment, 
stretching back to Abraham Lincoln's words in his Second Inaugural 
(which later became the VA's motto) to ``care for him who shall have 
born the battle, and for his widow and his orphan.'' Wilson intoned: 
``The nation has no more solemn obligation than healing the hurts of 
our wounded.'' \1\ Americans are conscientious-some may say even 
sentimental-about the nation's duty and obligation to care for 
veterans.
---------------------------------------------------------------------------
    \1\ ``President Wilson's Message on Healing the Hurts of Our 
Wounded,'' Come-Back, December 24, 1918, as recounted in Jessica L. 
Adler, Burdens of War: Creating the United States Veterans Health 
System (Baltimore: Johns Hopkins University Press, 2017), 77.
---------------------------------------------------------------------------
    Almost as a corrective to that soaring rhetoric, in 2011, scholar 
James Ridgeway observed in the Veterans Law Review: ``It should not be 
assumed that historical artifacts of veterans' law-no matter how 
entrenched-exist to benefit veterans. Rather every piece must be 
examined in a historical context.'' \2\
---------------------------------------------------------------------------
    \2\ James D. Ridgway, ``The Splendid Isolation Revisited: Lessons 
from the History of Veterans' Benefits Before Judicial Review,'' 
Veterans Law Review 3 (2011): 145.
---------------------------------------------------------------------------
    There are no two better quotes to illustrate how the American 
public in general, and its elected politicians in particular, genuinely 
feel about veterans-but also how and why that care seems so often to 
fall short of the noble ideal in practice.
    At the American Enterprise Institute here in DC, I work with the 
Program on American Citizenship, which is focused on the fundamental 
principles and challenges of a free society. We believe, in the words 
of Walter Berns, one of our late, great scholars of the Constitution 
(and a veteran), that, among other things:

    Citizenship is an awareness of sharing an identity with others . . 
. a sense of belonging to a community for which one bears some 
responsibility. In a word, citizenship implies public-spiritedness, 
which is akin to patriotism, and has to be cultivated. \3\
---------------------------------------------------------------------------
    \3\ Walter Berns, Making Patriots (Chicago: University of Chicago 
Press, 2001), II.

    Understanding how public sentiment and public policies can go hand 
in hand but so often be at loggerheads is something we investigate 
deeply. We look at both the formal and informal institutions of 
government, as well as how individuals are educated about them and how 
they understand them, to grasp the dynamics of our cultural and public 
policy challenges and to present solutions with ``teeth in them'' that 
truly improve the lives of flesh-and-blood human beings.
    We research civic education and the status of that in our schools, 
but we also research civil society; the professions and civil society-
such as the medical, law, military, and musical professions-and how 
they strengthen democracy; what they contribute to the virtues of a 
free society whose disparate parts must still communicate with each 
other; the civil-military divide; and, thus importantly, veterans and 
society. This multidisciplinary approach gives us a wealth of insight 
into the challenges of maintaining a professional all-volunteer force 
in a diverse society, which increasingly has no connection to even the 
idea of military service (because of the lack of K-12 civic education 
and a geographically sparse ROTC presence), let alone know a current or 
former member of the Armed Services.

A Damaging Veteran Narrative in Need of Reversal

    What we see is well-known-but only in part-to this audience: After 
40 years of the all-volunteer force, and despite nearly two decades of 
war post-9/11, the American public respects the military and those who 
serve in the aggregate, but they do not know anything about them. They 
call veterans ``heroes'' but believe they are ``broken.'' \4\ Even the 
best-intentioned employers and educators labor under the false 
impression that veterans are not experienced and educated candidates, 
that veterans do not pursue a college degree or vocational training, or 
that veterans do not have successful careers after the military. \5\
---------------------------------------------------------------------------
    \4\ Rebecca Burgess, ``Beyond the `Broken Veteran': A History of 
America's Relationship with its Ex-Soldiers,'' War on the Rocks, March 
7, 2018, https://warontherocks.com/2018/03/beyond-the-broken-veteran-a-
history-of-americas-relationship-with-its-ex-soldiers/.
    \5\ See, for example, Natalie Gross, ``Study: Companies Still Don't 
Understand Veterans,'' Military Times RebootCamp, July 26, 2018, 
https://rebootcamp.militarytimes.com/news/employment/2018/07/26/study-
companies-still-dont-understand-veterans/
---------------------------------------------------------------------------
    Additionally, the American public erroneously believes that the 
overwhelming majority of veterans suffer from post-traumatic stress 
disorder (PTSD) or other severe mental health conditions because of 
their military experience and that veterans therefore may never be able 
to take their place as healthy, happy, contributing members of society. 
A majority of the public-71 percent-acknowledge that civilians do not 
understand the problems faced by those in the military or by their 
families; 84 percent of post-9/11 veterans agree. The cultural 
narrative about veterans, compounded by Hollywood and the media, is so 
strong that even veterans describe their transition stresses as mental 
health disorders, for lack of any other narrative about the 
difficulties inherent in returning to the civilian sphere. \6\
---------------------------------------------------------------------------
    \6\ Meaghan C. Mobbs and George A. Bonanno, ``Beyond War and PTSD: 
The Crucial Role of Transition Stress in the Lives of Military 
Veterans,'' Clinical Psychology Review 59 (2018): 137-44.
---------------------------------------------------------------------------
    And yet, we have extensive, empirical documentation that ``PTSD 
typically occurs in only a relatively small population of returning 
veterans'' and that the range of PTSD prevalence in Operating Iraqi 
Freedom and Operation Enduring Freedom veterans is actually between 4.7 
and 19.9 percent. \7\
---------------------------------------------------------------------------
    \7\ Mobbs and Bonanno, ``Beyond War and PTSD.''
---------------------------------------------------------------------------
    The general instinct that contemporary war veterans are a 
population that requires services to function in civil society, rather 
than a population that has any valuable services to offer back, is 
particularly damaging to veterans themselves, as I have written about 
in the attached report, ``Economic Opportunity, Transition Assistance, 
and the 21st-Century Veteran: The Case for a Fourth VA 
Administration.'' Psychologically, this is bound up in questions of 
identity, described by researchers as social identity theory and 
involving concepts of identity fusion, contingent self-worth, and 
``stereotype threat,'' but complicated by the modern phenomenon of a 
delayed ``emerging adulthood.'' \8\ Socially and culturally, this 
public instinct damages veterans in how it shapes public policy and the 
organs of government that deliver policy to veterans-the VA-by 
reemphasizing (however well-intentioned) the supposed brokenness of all 
veterans.
---------------------------------------------------------------------------
    \8\ See Mobbs and Bonanno, ``Beyond War and PTSD.'' See also Claude 
M. Steele, ``A Threat in the Air: How Stereotypes Shape Intellectual 
Identity and Performance,'' American Psychologist 52 (1997): 613-29; 
Dan Pronk, ``Abandoning the Tribe: The Psychology Behind Why Veterans 
Struggle to Transition to Civilian Life,'' NewsRep, January 10, 2019, 
https://thenewsrep.com/112569/abandoning-the-tribe/; and Dan Pronk, 
``Filling the Void: Maslow and Transitioning out of the Military,'' 
NewsRep, January 11, 2019, https://thenewsrep.com/112572/filling-the-
void-maslow-and-transitioning-out-of-the-military/.
---------------------------------------------------------------------------
    While not all who have served in uniform qualify for health or 
other benefits from the VA, the millions who do qualify drive the 
public narrative about veterans because the VA is the nation's most 
prominent recognition of military service. Additionally, the highly 
visible and historic Veterans Service Organizations (VSOs) place the VA 
at the center of the veteran-federal government relationship. The VA-
VSO-veteran dynamic translates to the public assuming that the VA 
serves any veteran and that each veteran is equally in need of those 
services. Over time, this has adversely constructed a veteran-as-
deficit model, visible in how the federal government treats veterans 
through the instrument of the VA and how legislators craft veterans 
legislation in light of advocacy demands and agency dynamics.
    A note about these dynamics: The VA has expanded haphazardly due to 
political pressures for more than a century, to deliver financial 
benefits or pensions to veterans, calculated from the premise that the 
injured veteran will never enter the economy again. Despite broad 
innovations that have shifted the economy from its 1917 Industrial Age 
model to its current information age model, the VA continues to think 
in Industrial Age terms about especially injured and disabled veterans.
    As society enlarges its definition of disability in pace with 
medical discoveries and politically advantageous welfare programs, the 
VA has grown to be the second-largest federal agency, while the 
Veterans Benefits Administration (VBA) now makes its largest financial 
outlays. Between 2008 and 2016, VBA compensation outlays increased by 
114 percent-according to the VA itself, because post-9/11 veterans have 
a tendency to apply for their benefits and care before they transition 
out of the military, in addition to their being awarded higher 
percentages of disability compensation than previous cohorts of war 
veterans. \9\
---------------------------------------------------------------------------
    \9\ US Department of Veterans Affairs, Department of Veterans 
Affairs: FY 2018-2024 Strategic Plan, February 12, 2018, https://
www.va.gov/oei/docs/va2018-2024strategicplan.pdf.
---------------------------------------------------------------------------
    This increase of high disability awardees could be entirely 
warranted. But the current disability schedule is also problematic, as 
it appears to be acting as a disincentive to veterans to enter the 
workforce and engage with society. The level of veterans' sense of 
isolation from society, not to mention rates of suicide, are 
unacceptable outcomes for this policy model.
    These outcomes point to the fact that, for all its $200 billion 
dollar budget, the VA does not track its programs' outcomes. At the 
very least, it haphazardly documents outputs. It has hamstrung its own 
ability to serve veterans by not measuring its programs. As the slate 
of recent congressional hearings over VA programs and failed or 
``delayed'' implementations illustrates, this undermines public 
confidence in the VA. When the VA has bungled and delayed payments for 
one program alone, the GI Bill, five times in only 10 years-2009, 2013, 
2014, 2017, and 2018-it directly hurts veterans and contributes to 
young men and women deciding against joining the military and against 
being under the VA's care in the future.
    This is a terribly worrisome cycle. Fortunately, it has also 
created the historic opportunity present before us, to harness the 
power of congressional legislation to reshape the veteran narrative. By 
rethinking the tremendous ability the VA has to be an active partner 
with Congress, and understanding veterans as investments that can be 
leveraged toward greater individual growth with positive societal 
impact, the proposed Veterans' Education, Transition, and Opportunity 
Prioritization Plan Act of 2019 (VET OPP Act) can champion the veteran-
as-asset model. It recognizes that having a fourth high-level, 
prominent institutional VA mechanism-a Veterans' Economic Opportunity 
and Transition Administration, headed by its own under secretary-can 
light the pathway to success for post-service veterans, similarly to 
how Department of Defense mechanisms involving training, a sense of 
purpose, and a shared community shape young civilians into successful 
soldiers.

Identity, Education, and Employment: Pathway to Veteran Success

    Currently, approximately half (50.3 percent) of active-duty 
enlisted personnel are 25 years old or younger. Of the entire military 
force, somewhat fewer (43.8 percent) are in that age bracket. \10\ 
Developmentally speaking, this is the ``emerging adulthood'' period-a 
period of rapid development involving key struggles surrounding 
personal identity. The military offers concrete answers to common 
existential questions, reinforcing them through experience, during this 
normative period.
---------------------------------------------------------------------------
    \10\ US Department of Defense, Office of the Deputy Assistant 
Secretary of Defense for Military Community and Family Policy, 2015 
Demographics: Profile of the Military Community, 2015, http://
download.militaryonesource.mil/12038/MOS/Reports/2015-Demographics-
Report.pdf.
---------------------------------------------------------------------------
    The positive self-regard cultivated during military service becomes 
a focal point of the psychological changes that often distinguish the 
period of transition out of the military. Research from Columbia 
University reveals that veterans experience grief-like symptoms at the 
loss of their previous military identity, which in turn augments all 
the stressors of a life transition, when facing the initial instability 
of civilian life and lacking the order and purpose that characterized 
their service. \11\
---------------------------------------------------------------------------
    \11\ Mobbs and Bonanno, ``Beyond War and PTSD.''
---------------------------------------------------------------------------
    The media and the public overwhelmingly call this experience of 
veteran transition stress PTSD and erroneously believe that the 
majority of all post-9/11 veterans have a mental health disorder. 
Unfortunately, since funded research at the VA's military treatment 
facilities prioritizes PTSD research, and since the preponderance of 
well-intentioned veteran legislation post-9/11 emphasizes mental health 
disorders, the public, potential employers, and veterans themselves are 
trapped in the inaccurate and harmful ``broken veteran'' narrative 
cycle.
    As previously mentioned, currently, over half of employers believe 
that veterans do not have successful careers after leaving the 
military. Half do not think that veterans pursue a college or 
vocational school degree, but 62 percent believe veterans need to 
acquire more hard and soft skills before they are ready for nonmilitary 
roles. \12\
---------------------------------------------------------------------------
    \12\ Edelman Insights, ``2017 Veterans' Well-Being Survey: Focus on 
Employment, Education, and Health,'' October 27, 2017, https://
www.slideshare.net/EdelmanInsights/2017-veterans-wellbeing-survey.
---------------------------------------------------------------------------
    Veterans themselves tend to agree that they need ``soft,'' or 
communication, skills. Both veterans and employers nearly unanimously 
agree on the benefit of internship or apprenticeship programs for 
veterans as they seek to reenter the civilian workforce. And post-9/11 
veterans especially see education as crucial to their continued 
success.
    The VA has a suite of educational assistance, vocational 
rehabilitation and employment, and education and career counseling 
programs, as well as broadly defined shared transition assistance 
programs (with the Departments of Labor, Defense, and Homeland 
Security), which make accessible all the tools veterans need to 
progress from war to work. But these are at the bottom of the program 
pyramid within the VBA.
    The VA's nearly century-old structural design impedes its own 
ability to help veterans achieve that success. Its outdated 
manufacturing-economy outlook, which informs the VBA's 1917-based 
disability model, sees a service-connected condition only through the 
terms of a permanent earnings loss and works as a perverse incentive 
against veterans entering the workforce. With all the VBA's energies 
directed toward its backlog of hundreds of thousands of disability 
claims, its institutional resources are concentrated on the disability 
system to the unsurprising neglect of its education and economic 
programs. This is one systemic reason why we consistently see the VA's 
failure to implement the GI Bill, no matter who the VA secretary is at 
the time or who sits in the White House.
    One other small but illustrative example: If you visit the VA's 
Office of Employment and Economic Impact website, within the VBA, it 
tells you that ``it is no longer available'' and to maybe check out the 
Department of Labor.
    Coincidentally, a majority of veterans report that navigating the 
VA's administrations and benefits is their top challenge in transition 
to civilian life. \13\ The very VA economic opportunity programs 
veterans stand most to profit by are operating with the proverbial 
millstone around their necks.
---------------------------------------------------------------------------
    \13\ Corri Zoli, Rosalinda Maury, and Daniel Fay, Missing 
Perspectives: Servicemembers' Transition from Service to Civilian Life, 
Institute for Veterans and Military Families, Syracuse University, 
November 2015.

---------------------------------------------------------------------------
Conclusion

    In the 21st-century information age, education is key to 
employment, and employment is the door to a successful transition to 
civilian life. Education and employment combined give veterans the 
crucial tools to reforge civilian identities stronger even than their 
military ones. The psychic rewards of work, productivity, and a career 
cannot be underestimated, which is corroborated by the true veteran 
narrative: Veterans, it turns out, are immensely successful. Empirical 
data shore that up by showing how veterans with increased levels of 
education are wealthier, healthier, and more civically engaged than 
even their civilian peers over the life course. Additional research 
establishes the links between these outcomes and reduced rates of 
dependence, disability, and criminality. \14\
---------------------------------------------------------------------------
    \14\ Zoli, Maury, and Fay, Missing Perspectives.
---------------------------------------------------------------------------
    This is the veteran narrative that should predominate. The goal of 
the nation's veteran economic opportunity programs should be to enable 
soldiers to be fully functional members of society, animated by a 
strong civilian identity. As early as the Revolutionary War, Gen. 
George Washington had felt intuitively that veterans needed to maintain 
a sense of self after military service, recommending in his Farewell 
Orders to the Armies of the United States that veterans funnel their 
energies as soon as possible into active pursuits and ``prove 
themselves not less virtuous and useful as Citizens, than they [were] 
persevering and victorious as soldiers.'' \15\
---------------------------------------------------------------------------
    \15\ George Washington, ``George Washington to Continental Army, 
Farewell Orders,'' November 2, 1783, Library of Congress, https://
www.loc.gov/resource/mgw3b.016/?sp=338&st=text.
---------------------------------------------------------------------------
    The VET OPP Act can trigger this shift, as Congress elevates and 
frees already existing VA economic opportunity and transition 
assistance programs through shifting them structurally into a fourth VA 
administration. The VA's education and employment programs are truly 
different in kind from the other operations the VBA manages. Separating 
out the management of the VA's economic opportunity programs not only 
honors that difference but also creates greater accountability, 
attention, and leadership over what should be publicly acknowledged as 
the VA's most important instrument in partnering with veterans in their 
civilian success.
    Veterans are the unacknowledged permanent ambassadors of national 
service. How we publicly portray veterans directly relates to how 
society conceptualizes military service, including what happens to an 
individual during that service. In an all-volunteer force, reputation 
is key to the attractiveness of joining a profession that can end in 
death or permanent disability. Those who choose to wear the nation's 
uniform, as well as those who choose not to, are influenced by how well 
Congress and the VA care for veterans' post-service reputations and for 
their physical bodies.
    Our nation ought to provide transitioning service members with the 
means and opportunity to succeed in their civilian lives and to invest 
their talent and ability in the American economy.
    Empowering VA itself to invest in veterans, through creating a 
fourth administration for economic opportunity and transition 
assistance, directly benefit every veteran, present and future.
    Thank you again for the honor of this opportunity. I look forward 
to answering any questions from the committee.

                                 <F-dash>
                       Statements For The Record

      American Federation Of Government Employees, AFL-CIO (AFGE)
    Chairman Levin, Ranking Member Bilirakis, and Members of the 
Subcommittee:
    The American Federation of Government Employees, AFL-CIO (AFGE) and 
its National Veterans Affairs Council (NVAC) appreciate the opportunity 
to submit a statement for the record for the April 9, 2019 hearing on 
pending legislation. AFGE represents more than 700,000 employees in the 
federal and D.C. governments, including over 250,000 front line 
employees at the Department of Veterans Affairs (VA) who provide vital 
care and services for our veterans.
    This includes serving as the representatives of staff who work 
throughout the Veterans Benefits Administration (VBA) serving veterans 
every day.
    AFGE has serious concerns regarding H.R. 2045, the ``Veterans' 
Education, Transition, and Opportunity Prioritization Plan Act of 
2019'' (VET OPP Act) and cannot support it in its current form. AFGE 
understands the intention of the legislation, but the bill as presently 
constructed raises significant questions about the potential impact and 
unintended consequences of shifting VBA employees into the proposed 
``Veterans Economic Opportunity and Transition Administration,'' 
(VEOTA). AFGE would like to take this opportunity to raise some of 
these issues and hopes to work with the Committee to produce a 
legislative solution that helps America's veterans and VA workers, many 
of whom are veterans themselves. A critical part of the VA's mission is 
assisting service members in making a successful transition out of the 
military. Through critical programs including vocational rehab, the 
Forever GI Bill, Home Loan Benefits and other programs, the VA plays an 
essential role in helping veterans in their post military career. AFGE 
agrees with Chairman Levin's statement upon the introduction of H.R. 
2045, that ``We have a responsibility to provide America's 
servicemembers with the best possible resources and opportunities as 
they transition back to civilian life, and we must do more to meet that 
responsibility.''

Labor Relations

    AFGE has serious concerns on how this bill will impact the VA 
workforce. The bill is silent on how employees who currently work for 
VBA would be transferred to VEOTA and how their collective bargaining 
rights would be affected. In AFGE's view, several questions must be 
answered. Would existing collective bargaining agreements continue to 
apply to all the employees currently in the bargaining unit 
transferring from VBA to VEOTA? Would VA use this transition as a way 
to reclassify workers to a lower grade and make other changes affecting 
their compensation? Similarly, would the VA use this transition as an 
opportunity to impose harsher performance standards that would be even 
more difficult for employees to meet? AFGE strongly encourages that 
text be added to the bill to protect VA workers, and make sure that any 
potential transition interferes with their work as little as possible. 
To this point, there is relevant and useful precedent for protecting 
employees during a VA reorganization: AFGE was successful in winning 
protections for employees affected by a workforce reorganization that 
occurred as part of Navy and VA facilities in North Chicago, IL (See: 
Pub.L. 111-84, Sec. 1703).

Cap on the Number of Full Time Employees

    AFGE opposes any arbitrary cap that would limit the number of 
employees in a federal agency without taking into consideration agency 
resources and how such caps would affect mission fulfillment. H.R. 2045 
calls for a Full Time Employee (FTE) Cap cited in the legislation as an 
addition to Title 38, Chapter 80, Section 8003 (Page 4, Line 21). The 
bill as currently drafted caps the number of FTE's at 23,692 through 
the end of Fiscal Year 2020. AFGE strongly opposes any legislation that 
will potentially limit the ability for the VA to hire the staff it 
requires to fulfill its mission. Moreover, this provision is further 
objectionable as the legislation is proposing to add significant 
numbers of management positions to support the new Undersecretary. The 
bill makes no mention of increasing the number of non-management 
employees to perform the substantial work of this new administration. 
This exacerbates the problem of the cap and could result in short 
staffing for VEOTA. Lastly, while the cap in the bill may be temporary, 
setting the precedent of artificially limiting the number of employees 
that may work in a governmental department is shortsighted, and AFGE is 
firmly opposed to such arbitrary limitations.

VA Infrastructure

    Finally, AFGE is concerned with the lack of specific language in 
the bill involving infrastructure changes that will be made to set up 
the new administration. Important questions remain unanswered. Will the 
VA keep all current VBA employees transferring to VEOTA in the same 
location, or will this transition be used as an opportunity for 
consolidation and force employees to relocate or lose their jobs? How 
will Information Technology (IT) systems, which already give many VBA 
employees significant problems, be affected by this realignment?
    Despite all of these unknowns, AFGE can say with certainty from 
past experience that every major change that has occurred within the VA 
has been more successful when front-line employees and their 
representatives have seats at the table alongside the VA and other 
stakeholders.
    AFGE appreciates the House Committee on Veterans' Affairs and its 
Subcommittee on Economic Opportunity giving careful consideration to 
the potential impact of this legislation and the issues raised here 
today. We look forward to working with the committee to address these 
problems.
    Thank you for the opportunity to provide input on this important 
issue.

                                 <F-dash>
                    Disabled American Veterans (DAV)
    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting DAV (Disabled American Veterans) to submit 
testimony for the record of this legislative hearing of the Economic 
Opportunity Subcommittee of the House Veterans' Affairs Committee. As 
you know, DAV is a non-profit veterans service organization comprised 
of more than one million wartime service-disabled veterans that is 
dedicated to a single purpose: empowering veterans to lead high-quality 
lives with respect and dignity. DAV is pleased to offer our views on 
the bills under consideration by the Subcommittee.
                 H.R. 95, Homeless Veteran Families Act
    This bill would modify the calculation of per diem payments the 
Department of Veterans Affairs (VA) makes to homeless grant providers 
to include partial payment for each of a homeless veteran's minor 
dependents. This would ensure that a homeless veteran does not have to 
choose between treatment and keeping her or his family intact. DAV 
supports this legislation in accordance with DAV Resolution No. 173, 
which calls for a provision of child care services and assistance to 
veterans attending VA health care appointments or other rehabilitative 
programs.
    Each year, the CHALENG (Community Homelessness Assessment, Local 
Education and Networking Groups) report surveys homeless veterans, 
advocates and service providers to identify homeless veterans' greatest 
needs. Once again in 2018, both male and female veterans rated child 
care as one of their top 10 unmet needs. VA's Homeless Grant and Per 
Diem (GPD) Program has long been an important source of transitional 
housing for homeless veterans. VA states that, in 2017, 14,500 veterans 
exited GPD to permanent housing. H.R. 95 would allow responsible 
veterans who are parents to obtain the many benefits and services 
available to them under the program while maintaining their duties as 
parents.
   H.R. 444, Reduce Unemployment for Veterans of All Ages Act of 2019
    As stated in title 38, United States Code, Sec.  3100, the purpose 
of the VA's Vocational Rehabilitation and Employment program is to 
provide all services and assistance necessary to enable veterans with 
service-connected disabilities to achieve maximum independence in daily 
living and, to the maximum extent feasible, to become employable and to 
obtain and maintain suitable employment. However, title 38, United 
States Code, Sec.  3103, restricts eligibility into the program to only 
those veterans who apply within 12 years of separation from military 
service, regardless if they are even eligible within that period.
    H.R. 444 would remove the 12-year period of eligibility. Many 
veterans experience new disabilities or an increase of severity of 
their service-connected disabilities throughout their life. By removing 
the limited eligibility period, H.R. 444 would provide veterans the 
flexibility to receive VA Vocational Rehabilitation and Employment 
services when they are actually needed and not based on an arbitrarily 
imposed date.
    In agreement with DAV Resolution No. 310, we support this 
legislation to eliminate the 12-year period of eligibility provision. 
DAV's mission includes the principle that this nation's first duty to 
veterans is the rehabilitation and welfare of its wartime disabled. 
This principle envisions vocational rehabilitation and/or education to 
assist disabled veterans to prepare for and obtain gainful employment 
and enhanced opportunities for employment and job placement so that the 
full array of talents and abilities of disabled veterans are used 
productively. H.R. 444 is in alignment with our mission and we fully 
support its passage.
   H.R. 1718, to amend title 38, United States Code, to provide for 
clarification regarding the children to whom entitlement to educational 
     assistance may be transferred under the Post-9/11 Educational 
                           Assistance Program
    Per title 10, United States Code, Sec.  1072(2)(I), military 
service members and military retirees can claim a dependent child that 
is an unmarried person who is placed in the legal custody of the member 
or former member as a result of an order of a court of competent 
jurisdiction in the United States (or possession of the United States) 
for a period of at least 12 consecutive months; and (ii) either:

    <bullet>  has not attained the age of 21;
    <bullet>  has not attained the age of 23 and is enrolled in a full 
time course of study at an institution of higher learning approved by 
the administering Secretary; or
    <bullet>  is incapable of self support because of a mental or 
physical incapacity that occurred while the person was considered a 
dependent of the member or former member under this subparagraph 
pursuant to subclause (I) or (II);
    <bullet>  is dependent on the member or former member for over one-
half of the person's support;
    <bullet>  resides with the member or former member unless separated 
by the necessity of military service or to receive institutional care 
as a result of disability or incapacitation or under such other 
circumstances as the administering Secretary may by regulation 
prescribe; and
    <bullet>  is not a dependent of a member or a former member under 
any other subparagraph.

    H.R. 1718 would apply this definition of a child to title 38, 
United States Code, Sec.  3319(c), ``Authority to transfer unused 
education benefits to family members'' under the Forever GI Bill. 
Including this definition in the Forever GI Bill would be consistent 
with existing military statutory provisions and provide equity.
    DAV fully supports H.R. 1718 as it is in agreement with DAV 
Resolution No. 185, which supports legislation to amend the definition 
of a child to include those placed into legal custody or guardianship 
of the veteran, even if on a temporary basis.
            Discussion Draft, Justice for Servicemembers Act
    The Justice for Servicemembers Act would clarify the scope of 
procedural rights of members of the uniformed services with respect to 
their employment and reemployment rights. Under USERRA, veterans and 
service members are protected from discrimination based on their 
military service and given the right to return to their civilian jobs 
once their service ends. In recent years, however, federal courts have 
allowed employers to require service members and veterans to sign 
mandatory arbitration agreements that prohibit them from going to court 
to resolve an employment dispute. Under mandatory arbitration 
agreements, companies can choose the arbiter and venue for a hearing 
while denying an employee any right to appeal. The Justice for 
Servicemembers Act will render null and void any forced arbitration 
agreement between an employer and a current or former member of the 
Armed Forces, consistent with the congressional intent behind USERRA.
    DAV supports this bill in accordance with DAV Resolution No. 072, 
which supports appropriate enforcement against systemic veterans' 
preference discrimination in federal, state, and local employment and 
greater enforcement provisions.
 Discussion Draft, to amend the United States Housing Act of 1937 and 
 title 38, United States Code, to expand eligibility for the HUD-VASH 
program, to direct the Secretary of Veterans Affairs of the Senate and 
          House of Representatives regarding homeless veterans
    This draft bill would amend the United States Housing Act of 1937 
to broaden the definition of homeless veteran to be consistent with the 
definition under Section 2002(b) of title 38, United States Code. 
Veterans eligible for homeless programs, unlike those eligible for 
other veterans' programs, include those with other than honorable 
discharges. VA has also agreed to provide emergency mental health care, 
for a limited time, to veterans with other than honorable discharges.
    DAV supports this draft legislation under DAV Resolution No. 109, 
which calls for a more liberal review of other than honorable 
discharges, particularly in cases of veterans who experienced post-
traumatic stress disorder, traumatic brain injury, military sexual 
trauma, and other trauma for the purpose of eligibility for VA benefits 
and services. DAV understands that there are many veterans with 
administrative discharges who struggle with mental health issues that 
may have contributed to their less than honorable discharge and support 
this legislation that would give them access to VA case management 
support while in HUD-VASH housing.
           Discussion Draft, Homes for Our Heroes Act of 2019
    This draft bill would establish new reporting requirements for HUD 
and VA. DAV recognizes the intent of this legislation is to provide 
effective oversight of HUD-VASH programs. Although we have no specific 
resolution on this issue, we do not object to the bill's favorable 
consideration.
     Discussion Draft, Veteran Employment and Child Care Access Act
    This draft bill would allow eligible veterans to receive short-term 
child care assistance while receiving training or vocational 
rehabilitation. Child care has been identified as one of the top 10 
unmet needs by veterans experiencing homelessness. Likewise, child care 
responsibilities have been identified as a barrier to accessing needed 
care and other services for many women veterans. DAV supports this 
legislation in accordance with DAV Resolution No. 173, which calls for 
a provision of child care services and assistance to veterans attending 
VA health care appointments or other rehabilitative programs.
Discussion Draft, Navy SEAL Chief Petty Officer William ``Bill'' Mulder 
                   (Ret.) Transition Improvement Act
    This bill would make improvements to the Transition Assistance 
Program (TAP) and the overall transition process for service members to 
include a greater focus on career opportunities and entrepreneurship. 
Specifically, the bill would restructure TAP to require service members 
to choose specific career-oriented tracks that best suit their post-
service plans and would require that service members take part in one-
on-one counseling a year prior to separation to evaluate which 
transition pathway suits them best.
    It would also authorize a five-year pilot program that would 
provide matching grant funds to community providers that offer 
wraparound transition services to veterans and transitioning service 
members. Finally, the bill would require a third-party entity to 
conduct an independent assessment of the TAP curriculum and require a 
separate longitudinal study on the efficacy of TAP and long-term 
outcomes for veterans.
    DAV supports this legislation in accordance with DAV Resolution No. 
304, which urges Congress to monitor the Transition GPS program, its 
workshops, training methodology and delivery of services in order to 
confirm the program is meeting its objective; and to follow up with 
participants to determine if they secured gainful employment following 
such training.
                     Discussion Draft, VET OPP Act
    The Veterans' Education Transition, and Opportunity Prioritization 
Plan Act of 2019, or the VET OPP Act, would separate from the Veterans 
Benefits Administration (VBA) programs under the purview of the Office 
of Economic Opportunity and elevate them by creating a new fourth 
administration within VA, with a new Under Secretary for Economic 
Opportunity and Transition. The new Veterans Economic Opportunity and 
Transition Administration (VEOTA) would include critical programs such 
as Vocational Rehabilitation, the Forever GI Bill, and the Transition 
Assistance Program for transitioning service members.
    At present, VA is comprised of three administrations: VBA, the 
Veterans Health Administration (VHA), and the National Cemetery 
Administration (NCA). VBA includes not only compensation and pension 
programs for veterans, but also education, vocational rehabilitation 
and employment, housing, and veteran-owned business programs, and the 
broadly-defined transition assistance program, which is shared with the 
Departments of Defense (DOD), Labor (DOL) and Homeland Security (DHS). 
All of these programs are currently overseen by the Office of Economic 
Opportunity (OEO), which is to be led by a deputy under secretary. 
However, the position of Deputy Under Secretary for Economic 
Opportunity has been left vacant for years and it does not appear that 
the vacancy will be filled any time soon.
    Currently, the OEO programs inside VBA must compete with the 
Compensation, Pension and Insurance programs, of which Compensation is 
by far the largest program and tends to dominate the attention of VBA 
leadership and personnel. Because of the scale and scope of the claims 
and appeals processing reforms in recent years, it has been difficult 
for VA's economic opportunity (EO) programs to compete for adequate 
funding, specialized resources, and other prioritization. For example, 
while VBA has boosted resources to support the modernization and 
streamlining of the claims and appeals process for the past several 
years, other important programs such as VR&E have actually seen a 
stagnation of resources and oversight. Between 2014 and 2018, VR&E 
participation increased by approximately 17 percent while its funding 
was raised less than two percent.
    Because of the longstanding vacancy of the Deputy Under Secretary 
for Economic Opportunity position, there has been a lack of leadership, 
particularly in relation to key stakeholders, such as veterans service 
organizations, and other federal partners. In fact, the House Veterans' 
Affairs Committee specifically created a subcommittee focused 
exclusively on EO programs, further emphasizing the importance of 
creating a central point of contact to enhance accountability and 
oversight. Furthermore, VA collaborates with DOD, DHS, and DOL to 
manage the Transition Assistance Program (TAP) for out-processing 
service members, but often these efforts have been hampered by the lack 
of a high-level VA counterpart to these agencies. Although VA does not 
have the lead role in TAP, we believe creating the position of Under 
Secretary of Veterans Economic Opportunity and Transition would enhance 
VA's influence on TAP initiatives.
    We understand that VA remains opposed to this legislation, the same 
position taken at the May 2018 hearing before this subcommittee, at 
which VA testified it was, ``.in the process of modernizing the entire 
organization'' and that ``service delivery of Veterans benefit programs 
related to economic opportunity has continued to improve year after 
year under the leadership of the Under Secretary of Benefits.'' 
However, given the recent management and oversight issues involving 
implementation of the Forever GI Bill and Vocational Rehabilitation IT 
management, we believe the creation of the VEOTA could strengthen VA's 
oversight of EO programs.
    VA should have as much focus on the economic opportunities for 
veterans as it has for their health care and benefits. When service 
members are newly discharged, not all will seek VA health care or 
disability compensation, nor will they be seeking services NCA. 
However, the vast majority of new veterans will be looking for gainful 
employment, educational or entrepreneurial opportunities. Congress 
should recognize the value of these programs by separating and 
elevating them into their own administration within VA, whose main goal 
would be the economic empowerment of transitioning service members and 
veterans.
    However, we agree with Chairman Takano and others that this type of 
transformation needs to be done prudently and carefully, and there are 
a few concerns that still need to be addressed. We question the 
arbitrary cap on staffing for the new VEOTA in the legislation. In 
recent years, DAV has often joined other advocates calling for an 
increase in the staffing levels of the VA's Vocational Rehabilitation 
and Employment (VR&E) Service to help achieve the 1:125 counselor-to-
client ratio mandated by Congress. While the bill's full-time employee 
(FTE) cap of 23,692 may be sufficient, we believe staffing and funding 
requests should be based on need, not arbitrary caps.
    In addition, there are still questions about how VA should 
reorganize the new VEOTA in order to maximize resource sharing between 
VEOTA and VBA employees at VA Regional Offices, minimize duplication of 
services and management, and ensure clear lines of authority and 
oversight. We would recommend that VA be required to put forward a 
comprehensive plan, with measurable milestones, prior to the change-
over in order to ensure a smooth transition.
    Notwithstanding the above concerns, and in accordance with DAV's 
Resolution No. 300, DAV supports the VET OPP Act to create a fourth 
Administration and we look forward to working with this subcommittee 
towards that goal.
  Discussion Draft, to amend title 38, United States Code, to adjust 
 certain limits on the guaranteed amount of a home loan under the home 
           loan program of the Department of Veterans Affairs
    This legislation would modify the loan limit of a loan that the VA 
can guarantee for a veteran, also known as the ``maximum guarantee 
amount,'' by providing VA with the authority to guaranty non-
conforming, or ``jumbo'' loans. The legislation would also waive loan 
fees for Purple Heart recipients. Although DAV has no resolution from 
our membership on this proposal, and takes no position on this bill, we 
do want to remind the Subcommittee that last year a similar provision 
was considered by the House as part of H.R. 299. The bill unfortunately 
contained a provision to require loan fees for most service-disabled 
veterans seeking a loan guaranty for a jumbo loan. We have and will 
continue to oppose any such fees on benefits for men and women with 
service-connected disabilities. Because this draft bill does not 
contain such a fee provision, we have no opposition to this 
legislation.
   Discussion Draft, to amend title 38, United States Code, to make 
   certain improvements to the Edith Nourse Rogers STEM Scholarship 
             Program of the Department of Veterans Affairs
    This draft bill would eliminate credit hour requirements and 
authorize funding for the STEM scholarship program available to post-9/
11 veterans for fiscal years 2020-2023. DAV has no resolution on this 
matter, but appreciates the additional flexibility this legislation 
would give veterans pursuing degrees in science, math and technology, 
and thus has no objection to its favorable consideration.
  Discussion Draft, to amend title 38, United States Code, to expand 
eligibility for the Marine Gunnery Sergeant John David Fry Scholarship 
to children and spouses of certain members of the reserve components of 
      the Armed Forces who die from service-connected disabilities
    The Marine Gunnery Sergeant John David Fry Scholarship (Fry 
Scholarship) provides Post-9/11 GI Bill benefits to the children and 
surviving spouses of service members who died in the line of duty while 
on Active duty after September 10, 2001.
    The Discussion Draft proposes to allow eligibility to an individual 
who is a child or spouse of a member of a reserve component of the 
Armed Forces who dies from a service-connected condition not later than 
four years after the date of the last discharge or release of that 
member from Active duty.
    DAV does not have a specific resolution on this issue. However, we 
would not oppose the measure. To avoid a possible inequity, we would 
recommend the children and surviving spouses of Active duty members who 
die from a service-connected disability with four years of discharge or 
release, be eligible as well.
    Mr. Chairman, this concludes DAV's testimony. Thank you for 
inviting DAV to submit testimony for the record of today's hearing. I 
would be pleased to address any questions related to the bills being 
discussed in my testimony.

                                 <F-dash>
                       Department of Labor (DOL)
                              Introduction
    Chairman Levin, Ranking Member Bilirakis, and distinguished Members 
of the Subcommittee, thank you for the opportunity to provide a 
statement for the record of this hearing. I commend the Committee for 
its tireless efforts to ensure that America fulfills its obligations to 
its veterans, their families, and their caregivers. The Department of 
Labor (DOL or Department) is the Federal government's focal point for 
training, employment services, and information related to the economic 
health of all workers. The Department has the expertise and a 
nationwide network to provide skills training and employment support 
for anyone who needs them, and veterans receive priority of service. 
This integrated network and other DOL programs continue to generate 
positive employment outcomes for the men and women who have served our 
country.
    While this hearing addresses numerous bills under consideration by 
the Subcommittee, I will limit my statement to the following draft 
bills: the ``Justice for Servicemembers Act of 2019;'' the ``Boosting 
Rates of American Veteran Employment Act,'' or the ``BRAVE Act;'' the 
``Navy SEAL Chief Petty Officer William ``Bill'' Mulder (Ret.) 
Transition Improvement Act of 2019;'' the draft bill that would ``amend 
the United States Housing Act of 1937 and title 38, United States Code, 
to expand eligibility for the HUD-VASH program, to direct the Secretary 
of Veterans Affairs to submit annual reports to the Committees on 
Veterans' Affairs of the Senate and House of Representatives regarding 
homeless veterans, and for other purposes;'' and the ``Veteran 
Employment and Child Care Access Act of 2019.''
        Draft Bill-the ``Justice for Servicemembers Act of 2019"
    This draft bill would amend the Uniformed Services Employment and 
Reemployment Rights Act of 1994 (USERRA) to specify that procedural 
protections or provisions under the Act concerning employment and 
reemployment rights of members of the uniformed services are to be 
considered a right or benefit subject to protection under the Act. The 
draft bill also would render unenforceable any agreement to arbitrate a 
USERRA claim unless all parties consent to the arbitration after a 
complaint on the specific USERRA claim has been filed in court or with 
the Merit Systems Protection Board and all parties also knowingly and 
voluntarily consent to have that particular claim subjected to 
arbitration.
    The bill would clarify Congressional intent regarding protections 
for service members' procedural USERRA rights by treating such rights 
in the same manner as other protections specified in Section 4303(2) of 
USERRA-a treatment that recent court decisions have questioned. In 
Section 4302(b) of USERRA, Congress prohibited any contract (and other 
instruments) from reducing, limiting, or eliminating ``any right or 
benefit provided by [USERRA]'', including any ``prerequisites to the 
exercise of any such right or benefit.''
    The Secretary of Labor, acting through the Assistant Secretary for 
Veterans' Employment and Training, is responsible for administering, 
interpreting, and enforcing USERRA. The Veterans' Employment and 
Training Service (VETS) promulgates regulations, provides guidance, and 
investigates complaints from individuals who believe their USERRA 
rights were violated.
Draft Bill-The Boosting Rates of American Veteran Employment Act,'' or 
                           the ``BRAVE Act''
    The BRAVE Act would add a new provision to title 38, U.S. Code, to 
authorize the Secretary of Veterans Affairs (VA) to provide a 
procurement preference for goods or services offered by vendors who 
employ veterans on a full-time basis.
    The Department defers to VA regarding the merits of this draft 
bill. In the development of the legislation, the Committee could 
consider adding, as a positive selection factor regarding the 
employment of veterans, an employer's receipt of DOL's HIRE Vets 
Medallion. In the HIRE Vets Medallion Program (HVMP), Congress and DOL 
have set clear standards of eligibility for large, medium, and small 
employers to demonstrate and be recognized for their efforts to hire 
and retain veterans. DOL is currently accepting HVMP applications and 
expects to award the Medallion to qualified employers on a date to 
coincide with Veterans' Day. By adding receipt of the Medallion as a 
positive selection factor for the preference, VA would grant preference 
to a list of employers who have already been recognized for their 
proven commitment to hiring and retaining veterans.
Draft Bill-Navy SEAL Chief Petty Officer William ``Bill'' Mulder (Ret.) 
                   Transition Improvement Act of 2018
    At the outset, DOL notes that the recently-enacted John S. McCain 
National Defense Authorization Act for Fiscal Year 2019 (FY 2019 NDAA) 
made changes to the Transition Assistance Program (TAP). In December 
2018, the Department of Defense (DoD) provided Congress with its action 
plan to implement the NDAA's requirements in full coordination with its 
interagency TAP partners, and we are continuing work to execute the 
plan.
    Under the FY 2019 NDAA, DOL is responsible for three TAP workshops. 
DOL is transitioning from its mandatory three-day Employment Workshop 
to: (1) a mandatory one-day workshop for all transitioning service 
members focusing on career exploration, (2) an elective two-day 
Employment Workshop to provide instruction on the fundamentals of 
transitioning to civilian employment, and (3) an adaptation of DOL's 
currently-optional two-day apprenticeship/technical career workshop.
    Additionally, the President's FY 2020 Budget Request for the 
Department would further enhance the quality of employment services for 
transitioning service members, with a focus on improved outcomes. With 
the requested funds, VETS would provide additional employment related 
services to transitioning service members beyond classroom instruction 
to include career counseling, linkages to career resources, and other 
career readiness assistance. The request also includes funds for the 
development and implementation of a course curriculum specific to 
military spouses relocating with their service member to another duty 
station or transitioning out of the service.
    The Department is currently administering a new apprenticeship 
pilot program funded in FY 2019 to help identify the best methods to 
prepare transitioning service members for, and assist in their 
placement in, apprenticeship programs. Moving forward, DOL will improve 
connections to industries that want to hire veterans, as well as 
connections to state and community workforce partners that help new 
veterans transition into careers and communities.
    These recent changes to TAP are designed to help transitioning 
service members make the best career choices among those available to 
them, taking into account individual skills and high demand career 
fields. Better matching veterans to career opportunities prior to 
transition could reduce the high job turnover rate among recently-
transitioned veterans.
    The draft bill under consideration is intended to further improve 
the assistance provided to transitioning service members and veterans. 
We highlight several provisions in the bill and address a few areas of 
concern.
    Section 3 of the draft bill would amend the Social Security Act to 
authorize DOL and VA to access the National Directory of New Hires 
(NDNH) for the purpose of tracking veterans' employment. This access to 
the NDNH would aid both agencies by providing a more complete 
understanding of post-transition employment outcomes. A detailed 
analysis of these outcomes would greatly assist DOL in evaluating the 
efficacy of our transition assistance efforts.
    Section 4 would reauthorize the off-base TAP pilot program 
originally authorized by the Dignified Burial and Other Veterans' 
Benefits Improvement Act of 2012, Public Law 112-260, which required 
the Department to conduct a two-year pilot program to provide the 
Employment Workshop to veterans and their spouses at locations other 
than military installations. Section 4 also would expand the number of 
locations at which the Employment Workshop would be offered.
    This pilot is duplicative of other Federally-funded employment 
services for veterans and transitioning service members. A network of 
state, local, and non-profit providers is already available to veterans 
and transitioning service members in their communities as part of, or 
in connection with, the States' workforce development systems where 
veterans get priority of service, and they are often eligible for 
individualized career services. Further, it would be challenging to 
implement a pilot until the core TAP requirements of the FY2019 NDAA 
have been implemented.
    Section 5 would authorize grants to eligible community-based 
organizations to provide certain employment services to veterans and 
their spouses, and VA would be charged with administering the grant 
program. Local community-based organizations are best suited to help 
veterans navigate to the appropriate local government or non-government 
service provider that can best influence veteran wellness outcomes.
    DOL administers grant programs similar to that created under 
Section 5 and could integrate it with existing programs if the 
authority was given to DOL rather than VA. The Department recently 
provided technical assistance on S. 666, the ``HUBS for Veterans Act of 
2019,'' which is similar to Section 5 of this bill. Under S. 666, DOL 
would administer similar local community grants. Based on the nature of 
the grants proposed in Section 5 and the synergy with existing DOL 
programs, including those that serve the veteran population, DOL is 
well positioned to administer this grant program. The Subcommittee 
could also consider codifying Section 5 under title 38, U.S. Code, 
alongside other programs for service members and veterans.
Draft Bill-To amend the United States Housing Act of 1937 and title 38, 
United States Code, to expand eligibility for the HUD-VASH program, to 
 direct the Secretary of Veterans Affairs to submit annual reports to 
    the Committees on Veterans' Affairs of the Senate and House of 
  Representatives regarding homeless veterans, and for other purposes
    As written, this draft bill seeks to expand eligibility for the 
HUD-VASH program, and would direct the Secretary of VA to submit an 
annual report to the Committees on Veterans' Affairs of the Senate and 
the House of Representatives regarding homeless veterans.
    The Department defers to VA on the merits of this draft bill.
 Draft Bill-the ``Veteran Employment and Child Care Access Act of 2019
    This draft bill would create a new section, 38 U.S.C. Sec.  3123, 
that would require VA to provide child care assistance to certain 
veterans receiving certain training or vocational rehabilitation. 
Specific to DOL, this draft bill would direct the VA Secretary to 
provide child care assistance to an eligible veteran for any period 
that the veteran receives training or vocational rehabilitation under 
VA's Vocational Rehabilitation and Employment (VR&E) program; chapter 
41 of title 38, U.S. Code; the Homeless Veterans Reintegration Program 
(HVRP); or the Homeless Female Veterans and Veterans with Families 
(HFVVWF) Program.
    For veterans served through the Jobs for Veterans State Grants 
(JVSG), supportive services, such as child care, are available to 
participants through co-enrollment with other DOL programs, such as co-
enrollment with Workforce Innovation and Opportunity Act (WIOA) 
programs. This allows participants to successfully engage with career 
and training activities, such as Registered Apprenticeships or 
classroom training. Additionally, HVRP grantees serving veterans with 
families may use funds to provide child care and other supportive 
services.
                               Conclusion
    The Department looks forward to working with the Subcommittee to 
ensure that our transitioning service members, veterans, and their 
spouses have the resources and training they need to be successful in 
the civilian workforce. The improving employment situation for veterans 
is a resounding testament to the nationwide recognition from 
stakeholders-both public and private, at the national level and within 
local communities-of the value that veterans bring to the civilian 
workforce. Chairman Levin, Ranking Member Bilirakis, and members of the 
Subcommittee, this concludes my statement. Thank you for the 
opportunity to provide this statement for the record.

                                 <F-dash>
            Tragedy Assistance Program for Survivors (TAPS)
    The Tragedy Assistance Program for Survivors (TAPS) is the national 
nonprofit organization providing compassionate care for the families of 
America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, grief seminars and retreats for 
adults; Good Grief Camps for children; and casework assistance, 
connections to community-based care, online and in-person support 
groups, and a 24/7 resource and information helpline for all who have 
been affected by a death in the Armed Forces. Services are provided 
free of charge.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 85,000 bereaved 
surviving family members. For more information, please visit TAPS.org.
    TAPS receives no government grants or funding.

    Chairman Levin, Ranking Member Bilirakis, and distinguished members 
of the House Veterans Affairs Committee, the Tragedy Assistance Program 
for Survivors (TAPS) thanks you for the opportunity to make you aware 
of issues and concerns of importance to the families we serve, the 
families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD), the 
Department of Veterans Affairs (VA), Department of Education (DoED), 
Department of Labor, state governments, government contractors, and 
local communities for the families of the fallen - those who fall in 
combat, those who fall from invisible wounds and those who die from 
accidents, illness or disease.
    TAPS was honored to enter into a new and expanded Memorandum of 
Agreement with the Department of Veterans Affairs in 2017. This 
agreement formalizes what has been a long-standing, informal working 
relationship between TAPS and the VA. The services provided by TAPS and 
VA are complementary, and in this public-private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Discussion Draft - Guard & Reserve

    TAPS is excited to see our #2 priority before this committee: 
Providing parity for surviving children and spouses of those whose 
loved ones died while serving in the Guard and Reserves. Their service 
and sacrifices are no different than those serving on Active duty. 
While most survivor benefits are now equal, education benefits are not. 
It's time to make sure Guard and Reserve surviving families have the 
same access to the Fry Scholarship as their Active duty counterparts.
    Some of the stories TAPS has heard from our surviving families 
regarding this issue are absolutely heartbreaking.
    First Sergeant John DuPont served his country honorably for nearly 
30 years. He served in the United States Marine Corps and then the Army 
National Guard. During his National Guard service, he was deployed to 
Afghanistan. Upon his return, he continued with the National Guard but 
lost his battle with Post Traumatic Stress (PTS) when he died by 
suicide in 2011. First Sergeant DuPont took his own life just hours 
after returning home from a drill weekend where he was preparing for an 
upcoming deployment. Had he died a few hours earlier before coming 
home, his children would have been eligible for the Fry Scholarship. 
They were deemed ineligible because he made it home from his Guard 
weekend, and once home was not considered on Active duty status.
    SPC Anthony Tipps was a member of the Texas National Guard. 
Specialist Tipps was activated in 2009 and had to leave his career for 
his deployment to Iraq. When he returned home one year later, he 
learned that his former employer had not held his job. He was unable to 
find employment. Specialist Tipps died by suicide less than 3 months 
after returning from Iraq. Because he was not considered on ``Active 
duty status'' at the time of his death, his daughter Brittany was 
deemed ineligible for the Fry Scholarship, even though his death was 
service-connected.
    Colonel David McCracken served honorably in the Army and Army 
Reserves for over 20 years. During his military career he was deployed 
multiple times. On his last tour he was activated as a reservist and 
deployed to the Middle East. Upon return from his deployment, he was 
diagnosed with brain cancer which was found to be service-connected due 
to burn pit exposure in Iraq. Because he was not on active-duty orders 
or training at the time of his death, his children are not eligible for 
the Fry Scholarship.
    These are just three of the stories TAPS has heard from surviving 
families regarding eligibility for the Fry Scholarship. In the case of 
First Sergeant DuPont, literally hours differentiate what benefits his 
children receive. The families have no say in the duty status of the 
service member, therefore they should not be treated differently. TAPS 
firmly believes that we must honor the service and sacrifice of all 
surviving families.
    Six months ago, TAPS spoke with Former Congressman Chet Edwards who 
wrote and introduced the original Fry Scholarship in 2009. When we 
informed him of this issue he was stunned. His original intent was to 
include all surviving families. He had no idea that some Guard and 
Reserve families were being excluded, and has offered his support in 
fixing this inequity.
    TAPS estimates 1,000-1,500 surviving children and spouses would 
benefit from this expansion. A vast majority are surviving families 
whose loved ones died from service-connected illnesses or by suicide. 
These families are in receipt of Dependency and Indemnity Compensation 
(DIC) at the same rate as Active duty losses, receive TRICARE and 
almost all of the same benefits as Active duty losses.
    Providing parity in education is long overdue and we look forward 
to seeing this bill passed and implemented. This is part of a long-term 
TAPS goal to bring all survivors into the Fry Scholarship and phase out 
the Vietnam Era Dependents Education Assistance (Chapter 35).

Discussion Draft - In-State Tuition

    TAPS is excited to see an expansion of In-State Tuition as a 
priority for the committee. While all Fry Scholarship recipients 
currently receive in-state tuition, thanks to the Choice Act, TAPS 
recommends the inclusion of Chapter 35 recipients.
    Chapter 35 recipients are often forgotten from legislation. The 
$200 increase provided by the Forever GI Bill, is still not comparable 
with the Montgomery GI Bill. If we are going to provide in-state 
tuition across the board, we should include survivors whose benefits 
are not enough to cover tuition at a state school. Since the financial 
burden for in-state tuition falls on individual states, this should be 
an easy fix for the committee.

Discussion Draft - Transition Assistance

    Military-to-Civilian transition is a psychological and cultural 
evolution that requires a new definition of wellness as service members 
shift from a collectivist community into an individualistic one. VA 
research indicates that veterans who are engaged in care are far less 
likely to die by suicide. Such support increases the likelihood of a 
positive transition into civilian life and is a significant protective 
factor which reduces potential risks for serious issues facing this 
population, such as suicide. Conversely, 14 of the 20 veterans who die 
by suicide each day are not engaged in VA care.
    Given the high stakes of helping our nation's service members make 
a successful transition, TAPS is grateful to see such effort put into 
overhauling the Transition Assistance Program. Our team of suicide 
prevention and postvention subject matter experts is available to 
support strategic planning efforts as the TAP program is re-envisioned. 
While many key aspects were updated by the 2019 NDAA, there is still 
much work to do. TAPS supported the Navy Seal Chief Petty Officer Bill 
Mulder Transition Improvement Act last year, and we look forward to 
seeing it pass this year.

Discussion Draft - Definition of dependents

    TAPS supports the draft text to make sure the definition of 
``dependents'' is the same for the Department of Defense (DoD) and the 
Department of Veterans Affairs (VA). At TAPS, we know that not all 
family is blood related and applaud the committee for including this 
definition.

Discussion Draft - 4th Administration, VETOPP Act

    TAPS continues to support the creation of a 4th Administration 
under the Department of Veterans Affairs. We understand and respect 
that VA has concerns about this issue. TAPS agrees with our partner 
organizations, Student Veterans of America and the Veterans of Foreign 
Wars, that it is imperative that Economic Opportunity have its own 
under secretary.
    Responsibilities of this new division at VA would include the 
administration of housing loan guaranty and related programs, 
vocational rehabilitation and employment (VR&E), education assistance 
programs, and transition programs.
    At present, these programs are buried within the bureaucracy of VA 
and lack a true champion at the level of leadership these programs 
warrant. Over the past century, VA has evolved to focus on compensating 
veterans for loss. Yet realities and advances of the 21st century and 
beyond demands the additional goal of empowering veterans to excel 
post-service. Importantly, this will also advance our nation's goals of 
enhancing economic competitiveness by focusing on veteran contributions 
to be future economy, it is imperative we afford VA the opportunity to 
enrich the lives of veterans through the primacy of VA's economic 
opportunity programs.
    The implementation of the Forever GI Bill last year highlighted 
many concerns. With the passage of the VETOPP Act, the VA may be better 
prepared for other improvements to EO programs and allow these 
important programs to be a priority for the VA.
    TAPS thanks the committee and the original sponsors of all this 
important legislation. We greatly appreciate your thoughtful 
consideration of the needs of our nation's veterans and surviving 
families.

It is the responsibility of the nation to provide for the support of 
    the loved ones of those who have paid the highest price for 
    freedom. Thank you for allowing us to speak on their behalf.

                                 <F-dash>
                    Veterans Education Success (VES)
    Chairman Levin, Ranking Member Bilirakis, and Members of the 
Subcommittee:

    Veterans Education Success (VES) appreciates the opportunity to 
share its perspective on the hearing for Draft Legislation before the 
Subcommittee.
    VES is a non-profit organization focused on protecting the 
integrity and promise of the GI Bill and other federal educational 
programs for veterans and servicemembers.

DRAFT - Flight Training Schools

    The purpose of the Post 9/11 GI Bill is to aid service members and 
veterans in the transition from military service into the civilian 
workforce. Since its inception, thousands of military-connected 
students have had the opportunity to take advantage of this generous 
benefit in hopes of increasing their economic mobility and the 
socioeconomic standing of their families. Unfortunately, some schools 
have also taken advantage of veterans' benefits in a way that is less 
than admirable. This has been the case for certain flight schools, 
which is why Veterans Education Success supports the intent of this 
bill.
    With the overall amount of GI Bill money going to flight school 
training dropping from $79.8 million in 2014 to $48.4 million in 2016, 
it is evident that VA has made commendable progress in tightening the 
oversight and execution of reimbursement of costs to flight training 
schools for enrolled veterans. While this work by VA is commendable, we 
believe this type of oversight uses valuable resources that would be 
better focused in other areas. Similar to the annual tuition and fees 
cap for private institutions of higher learning (IHL), the cap 
recommended in this bill offers an amenable solution, especially if 
schools opt to participate in the Yellow Ribbon Program.
    According to data provided by VA, the average tuition for veterans 
attending 86 of the 102 schools that received GI Bill money for flight 
training in 2016 was below the $22,800 proposed cap (the 2017/18 
national maximum for private schools). For 7 of the 16 remaining 
schools, the cost was slightly above the cap. With this proposed bill, 
should these schools choose to match half of the tuition gap by 
participating in the Yellow Ribbon program, VA would match the other 
half and veterans would be able to successfully complete their training 
without needing to take on additional student loan debt.
    Despite the large number of institutions who provide flight 
training at costs around $22,800 per student per year, in FY16 the VA 
reported a number of schools charging $130,000, on average. While 
representatives from these schools argue this type of training is 
costly due to high-end equipment, the cost for similar training at 61% 
of the schools who accepted GI Bill benefits was significantly lower. 
This is concerning at best. To continue to pay these schools at such 
high costs is not an appropriate use of tax payer money.
    While Veterans Education Success supports the intent of the bill 
and a cap similar to that already in existence for private IHLs, we are 
concerned about the proposal to offer accelerated payments for those 
choosing to attend these schools. Accelerated payments burn through a 
student's benefits, leaving them without the opportunity to finish a 
college degree. Given the availability of the Yellow Ribbon Program, 
VES does not believe that accelerated payments are a necessary solution 
to covering the extraneous costs of certain flight training programs.
    Additionally, if VA were to be allowed to pay for a private pilot's 
license, we recommend the proposed legislation be amended to continue 
to require the medical clearance mandated by law to allow someone to 
become a pilot. Otherwise, it will be a waste of tax payer dollars and 
the students' benefits if they pursue this training and then are unable 
to use it.

H.R. 1718 - GI Education Benefits Fairness Act

    This bill creates alignment with the language in Section 1072(2)(I) 
for dependents of service members for the purposes of transferring 
education benefits. VES supports this bill as it provides parity for 
what is already happening within the Department of Defense for 
dependents.

DRAFT - Veteran Employment and Child Care Access Act of 2019

    One contributing factor to non-completion in higher education is 
lack of childcare. Military-affiliated students are often 
nontraditional students who have. Lack of childcare should not impede 
their ability to pursue post-secondary education leading to viable 
employment.
    We understand from the Committee that this bill will ensure the 
existing childcare is much more comprehensive. We also understand from 
VA that VA believes the bill is not necessary because it duplicates the 
existing program. While we are not sufficiently familiar with the 
details of the existing program to assess the merits of VA's position, 
we do know that student veterans need childcare and everything possible 
should be done to ensure they have access to it.

DRAFT - VET OPP Act

    The office of Economic Opportunity is a proactive approach to 
supporting veterans and their families as they transition from military 
service into the civilian workforce. It is important they have a more 
prevalent voice that can speak and advocate on their behalf, especially 
during the point of transition. The recent challenges VA faced in the 
implementation of the Harry W. Colmery Act reinforces the need for a 
fourth administration whose sole focus is the office for Economic 
Opportunity. That is why VES supports this bill.

DRAFT - Amendment of the Edith Nourse Rogers STEM Scholarship

    Often students pursuing a degree within a STEM field must add an 
extra year to their education due to the timing of courses offered and 
the prerequisites necessary to complete these programs. This has 
discouraged some students from pursuing a degree in STEM, despite the 
high demands for trained professionals in the American workforce. The 
original intent of the law was to provide an extra year of GI Bill 
benefits to address this issue. Unfortunately, the current credit 
requirement misses the intent of the law and makes it impossible for 
the majority of programs to meet eligibility. This bill addresses this 
and returns to the original intent by removing the credit hour 
requirement for a degree program. VES supports this change and believes 
military-affiliated students are strong candidates for helping fill 
this significant gap within the workforce.

Discussion Draft - In State Tuition

    Part of a student's ability to make an informed decision related to 
his or her choice of higher education requires full transparency of the 
cost of attendance and whether or not he or she will qualify for in-
state tuition. This legislation would help with that transparency.

Discussion Draft - Expansion of the Fry Scholarship

    Children and spouses of the members of the reserve components who 
die of a service-connected disability should have access to the Fry 
Scholarship. This bill makes it available to them.
    We appreciate the amount of time, effort, and attention the 
Committee has given to ensure military-connected students receive 
optimal training and education for a successful career in the civilian 
workforce. Thank you for considering the views of VES on this important 
topic.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
